<html>
<title> - THE PROMISES AND PERILS OF EMERGING TECHNOLOGIES FOR CYBERSECURITY</title>
<body><pre>[Senate Hearing 115-140]
[From the U.S. Government Publishing Office]














                                                       S. Hrg. 115-140

   THE PROMISES AND PERILS OF EMERGING TECHNOLOGIES FOR CYBERSECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation











[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-382 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2017...................................     1
Statement of Senator Thune.......................................     1
    Prepared statement from Professors Scott Shackelford and 
      Steve Myers, Indiana University............................    74
    Prepared statement from Larry Clinton, President and CEO, 
      Internet Security Alliance.................................    81
    Prepared statement from Theresa Payton, CEO, Fortalice 
      Solutions LLC..............................................    87
Statement of Senator Nelson......................................     3
Statement of Senator Wicker......................................    45
Statement of Senator Cantwell....................................    49
Statement of Senator Inhofe......................................    51
Statement of Senator Schatz......................................    53
Statement of Senator Markey......................................    55
Statement of Senator Peters......................................    57
Statement of Senator Cortez Masto................................    59
Statement of Senator Udall.......................................    61
Statement of Senator Fischer.....................................    63
Statement of Senator Hassan......................................    64
Statement of Senator Blumenthal..................................    66
Statement of Senator Cruz........................................    72

                               Witnesses

Caleb Barlow, Vice President, Threat Intelligence, IBM Security..     4
    Prepared statement...........................................     6
Venky Ganesan, Managing Partner, Menlo Ventures; and Chair, 
  National Venture Capital Association...........................    10
    Prepared statement...........................................    12
Steve Grobman, Intel Fellow and Chief Technology Officer, Intel 
  Security Group.................................................    20
    Prepared statement...........................................    21
Malcolm Harkins, Chief Security and Trust Officer, Cylance Inc...    28
    Prepared statement...........................................    30
Hon. Eric Rosenbach, Former DOD Chief of Staff and Former 
  Assistant Secretary of Defense for Homeland Defense and Global 
  Security.......................................................    42
    Prepared statement...........................................    44

                                Appendix

Letter dated March 22, 2017 to Hon. John Thune and Hon. Bill 
  Nelson from Marc Rotenberg, President, EPIC; and Caitriona 
  Fitzgerald, Policy Director, EPIC..............................    91
Response to written questions submitted to Caleb Barlow by:
    Hon. John Thune..............................................    95
    Hon. Todd Young..............................................    97
    Hon. Edward Markey...........................................    98
    Hon. Tammy Duckworth.........................................    98
Response to written questions submitted to Venky Ganesan by:
    Hon. John Thune..............................................    99
    Hon. Jerry Moran.............................................   100
    Hon. Edward Markey...........................................   101
    Hon. Tammy Duckworth.........................................   101
Response to written questions submitted to Steve Grobman by:
    Hon. John Thune..............................................   102
    Hon. Edward Markey...........................................   105
    Hon. Tammy Duckworth.........................................   106
Response to written questions submitted to Malcolm Harkins by:
    Hon. John Thune..............................................   108
    Hon. Edward Markey...........................................   110
    Hon. Tammy Duckworth.........................................   110
Response to written questions submitted to Hon. Eric Rosenbach 
  by:
    Hon. John Thune..............................................   111
    Hon. Bill Nelson.............................................   113
    Hon. Edward Markey...........................................   113
    Hon. Tammy Duckworth.........................................   114

 
   THE PROMISES AND PERILS OF EMERGING TECHNOLOGIES FOR CYBERSECURITY

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Cruz, Fischer, 
Moran, Sullivan, Heller, Inhofe, Capito, Gardner, Young, 
Nelson, Cantwell, Klobuchar, Blumenthal, Schatz, Markey, 
Booker, Udall, Peters, Hassan, and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. As chairman, I've made it a 
priority for this committee to focus on emerging technologies. 
We've held some of the first hearings in Congress on artificial 
intelligence, self-driving vehicles, Internet of Things, and 
augmented reality. Today, we'll continue this practice, but 
this time, we'll be focusing on the potential benefits and 
sometimes risks that certain emerging technologies have on 
cybersecurity.
    As my fellow committee members know well, cybersecurity is 
a topic that comes up at almost every hearing that we hold. The 
cutting edge technologies we're exploring today are 
fundamentally transforming how people and businesses connect as 
well as the creation and transmission of information.
    Emerging technologies such as artificial intelligence, 
block chain, and quantum computing, as well as the flourishing 
Internet of Things offer innovative approaches for combating 
future cyber threats, but also present new risks. As threats 
continually evolve, flexible and innovative approaches will be 
required to protect businesses, critical infrastructure, and 
individual citizens.
    This hearing will explore the enormous potential of these 
fields to revolutionize the cybersecurity arena and grow our 
economy. For example, by 2020, the estimated number of 
connected devices making up the Internet of Things may exceed 
50 billion. Furthermore, a World Economic Forum report predicts 
that 10 percent of global gross domestic product will be stored 
on blockchain technology by 2027.
    Artificial intelligence, or AI, will increasingly allow 
computers to mimic cognitive functions associated with humans. 
And, as described in a recent cover story in The Economist, 
quantum computing's untapped potential will be capable of 
handling complex problems that today's computers cannot solve.
    Even with all of their promise, these technologies also 
have the potential to create new security risks. For example, 
nefarious hackers can use AI to identify cyber vulnerabilities 
and victims faster. Future quantum computers could break our 
current encryption standards with ease.
    Federal agencies under the Committee's jurisdiction, such 
as the Department of Commerce, the National Science Foundation, 
the White House Office of Science and Technology Policy, and 
NASA, in partnership with academia and industry, are focused on 
research and the development of standards to ensure the U.S. 
remains the leader in these fields. Our committee has been 
supportive of prioritizing such work due its national and 
economic security benefits.
    The recently enacted bipartisan American Innovation and 
Competitiveness Act, sponsored by Senators Gardner, Peters, 
Nelson, and myself, charged our science agencies to research 
future cybersecurity needs. In particular, the law directed the 
Commerce Department's National Institute of Standards and 
Technology to work with stakeholders to identify cryptography 
standards that future computers will not be able to break, and 
directed NSF to focus research on cybersecurity and human-
computer interactions.
    In addition, the bipartisan Cybersecurity Enhancement Act 
of 2014, which I co-sponsored with then Chairman Rockefeller, 
included important provisions for cybersecurity research, 
workforce development, and standards. It authorized NIST's 
continued efforts to develop the voluntary Framework for 
Critical Infrastructure Cybersecurity and the National 
Initiative on Cybersecurity Education, as well as the NSF's 
successful Cybercorps scholarship program. In fact, Dakota 
State University, which is located in my home state of South 
Dakota, is an active participant in this program.
    Our nation faces an array of evolving cyber threats to our 
personal data, access to online services, and critical 
infrastructure. To be clear, cybersecurity is not solely a 
technology issue. Also, while there is no silver bullet 
solution to cybersecurity risks, I believe promoting public-
private partnerships on risk management, foundational research, 
and a robust cyber workforce are essential to combating these 
challenges. That is why I am excited to continue our 
Committee's discussion on cybersecurity by looking toward the 
future.
    The companies represented at today's hearing are driving 
innovation. They have employed machine learning to identify new 
threats, conducted research that may soon unlock the commercial 
potential of private blockchains and quantum computing, and 
launched new tech startups that create jobs and grow the 
economy.
    And, Mr. Rosenbach, thank you for your dedicated service at 
the Defense Department.
    Cybersecurity will continue to be a priority for this 
committee. In fact, Senator Gardner and I will be sending 
letters to newly confirmed Commerce Secretary Ross and 
Transportation Secretary Chao urging them to prioritize the 
cybersecurity of Federal systems. As the heads of their 
respective departments, they have an opportunity to improve the 
effectiveness of cybersecurity programs. In addition, I look 
forward to working with Senators Schatz, Risch, and Cantwell on 
potential legislation to ensure that small businesses fully 
benefit from the NIST Cybersecurity Framework.
    I want to thank all of our witnesses for being here today. 
I look forward to hearing your testimony. I will now turn it 
over to Senator Nelson for his opening remarks.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, and in order to 
condense so we can get on with our witnesses and not to be 
repetitive, let me just point out a couple of things.
    Of course, this committee has a lot of things that involve 
cybersecurity, everything from commercial aviation to the 
driverless cars, and we are in this era in which cyber attacks 
keep coming, and the advent of technology, one of which we were 
dealing with in a classified session this morning, is going to 
almost be like whack-a-mole. You hit them here and they pop up 
over here, because technology is going to advance.
    And then with the rapid commercialization of the Internet 
of Things, it provides consumers with many, many benefits, but 
also provides hackers with a multitude of opportunities. You 
mentioned, Mr. Chairman, artificial intelligence and quantum 
computing. That could greatly enhance our cyber defense 
capabilities, but put it in the bad guy's hands and it makes it 
much more difficult for us, much more difficult to detect 
threats and risks to things like economic and physical well-
being.
    Blockchain technology, which has proven successful in 
securing financial transactions, could be used to secure all 
kinds of sensitive data and information. I hope that we can 
learn more from you all today about this.
    Obviously, we are all concerned about cybersecurity, I 
hope. Or is it, with regard to a lot of Americans, out of 
sight, out of mind, until they get hit, such as the privacy of 
their own information, the hack of their bank account? What 
about their insurance company, and what about power grids?
    According to the intelligence community's assessment 
recently, we know that the Russian hackers at the president of 
Russia's direction used a series of relatively simple cyber 
attacks to try to influence our last Presidential election, 
striking at the very core of how we operate this democracy. So 
because what we're going to discuss today, that some of these 
technologies can be used against us in a cyber attack, I'd like 
to know how Russia, China, and the other adversaries might use 
these technologies to disrupt our economy, if you all can say 
this in this open session.
    How might the Russian hackers, which seem to be the most 
technically proficient--how might they use the Internet of 
Things to hack our most vulnerable systems? How might 
blockchain technology be used to secure sensitive data or 
disguise illicit activity? How might quantum computing and 
artificial intelligence improve or undermine the security of 
everyday Americans? These are questions I'd like you to 
address.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    As I said, we've got a great panel today, and we look 
forward to hearing from each of you. I'm going to start by 
introducing the folks on my left and your right: Mr. Caleb 
Barlow, who is Vice President of Threat Intelligence for IBM 
Security; Mr. Venky Ganesan, Chair, National Venture Capital 
Association and a Partner at Menlo Ventures; Mr. Steve Grobman, 
who is the Chief Technology Officer and Intel Fellow at Intel 
Security; Mr. Malcolm Harkins, the Chief Security and Trust 
Officer at Cylance Corporation; and the Honorable, as I said 
earlier, Eric Rosenbach, Former Chief of Staff, Office of the 
Secretary of Defense, and former Assistant Secretary of Defense 
for Homeland Defense and Global Security.
    It's great to have you all here. Thanks so much for making 
yourselves available to share with us your thoughts. And if you 
could, as you share your opening statements, confine them 
orally as close to 5 minutes as possible. Any additional 
information or material you want, we can get it into the 
record. But that will maximize the opportunity for members to 
ask questions.
    So we'll start with Mr. Barlow.
    Please proceed.

          STATEMENT OF CALEB BARLOW, VICE PRESIDENT, 
               THREAT INTELLIGENCE, IBM SECURITY

    Mr. Barlow. Chairman Thune, Ranking Member Nelson, 
distinguished members of the Committee, thank you for the 
opportunity to appear here today before the Committee to 
discuss this important topic.
    I am here representing IBM Security, where I lead the 
company's global threat intelligence business, which helps 
clients around the world find, manage, and remediate cyber 
attacks. We also help clients in responding to cybersecurity 
incidents, from guidance on how to manage regulatory and 
compliance requirements to incident response services. Last 
year, we significantly expanded IBM's incident response 
capabilities with a $200 million investment, which included us 
opening the IBM X-Force Command Center in Boston, 
Massachusetts, which is the world's first at-scale cyber 
simulation range for the private sector.
    Now, from my vantage point, working in one of the largest 
security intelligence operations in the world, IBM manages 35 
billion security events every day on behalf of our clients. I 
see a change in the threat landscape unfolding before me.
    Until now, just about everything we've heard about involves 
the exfiltration of data. A bad guy breaks into a system, gets 
access to information, downloads it, and then extorts that for 
profit or influence. But what if rather than stealing the data 
or holding it hostage with ransomware, what would happen if the 
cyber criminal changed it? Think about how much we rely on data 
from computers and just trust that it's accurate. Now, if trust 
is broken, even the smallest of actions can have tectonic 
implications, because the natural human tendency is to run from 
areas of risk to areas of safety.
    Today, I would like to discuss greater collaboration in 
sharing cyber threat data between the public and the private 
sector. We're seeing security attacks and techniques continue 
to evolve, and why there's a lot of focus on nation-state 
activity, a United Nations report estimated that 80 percent of 
attacks are actually driven by highly organized and ultra 
sophisticated criminal gangs.
    The most sophisticated thieves operate like well-oiled 
businesses. They collaborate and share expertise on a global 
scale. They operate with anonymity and seemingly outside the 
reach of the law. Cyber crime has grown rapidly due to its 
organization and collaboration to become a significant societal 
issue. Cyber crime is now estimated to be one of the largest 
illegal economies in the world, costing the global economy--now 
get this--more than $445 billion annually. Now, to put this 
into perspective, $445 billion is greater than the GDP of more 
than 160 nations, including Ireland, Finland, Denmark, and 
Portugal, among many others.
    What we need to do if we are truly going to stop this is 
change the economics for the bad guys. You see, we've reached a 
point where new actions and strategies are required. The scale 
and pace of threat information sharing needs to be accelerated 
between the public and the private sector. Threat sharing is 
only actionable when it happens with speed.
    Security vendors, governments, and other organizations need 
to open up their arsenal of information on threats, the types 
of threats, where they're coming from, and how they work, and 
share them openly and at scale. Simply put, we must democratize 
threat intelligence data. Governments need to support threat 
sharing by declassifying their own data at default and with 
speed, not measured in months or even years like it is today, 
but measured in hours and minutes.
    You see, by uncovering criminals' devices closer to real 
time, we foil their schemes. By consistently keeping pace with 
threat intelligence and using it to outmaneuver the criminals, 
we gradually make cyber crime not pay. We change the economics 
for the bad guys.
    Now, new technologies such as cognitive have enormous 
potential to radically reduce cyber crime while also helping to 
close a cybersecurity skills gap and create new collar jobs. 
Now, this cybersecurity skills gap is likely to exceed 1.5 
million open and unfilled cybersecurity jobs by 2020.
    IBM is bringing cognitive computing to the war on cyber 
crime. Watson for Cyber Security sorts through, analyzes, and 
understands massive amounts of structured data and unstructured 
data that can overwhelm security professionals.
    Now, true cognitive systems and technologies, like IBM 
Watson, understand the nuances of language and threat data, and 
they offer remediation actions and strategies, all with the 
necessary speed to stay ahead of advance threats. Cognitive 
systems are those that can reason and learn, as compared to 
traditional systems that are programmed. In security terms, 
cognitive systems can understand that a bug is a software 
defect and not an insect.
    While intelligent cybersecurity systems are fast advancing, 
as demonstrated in cognitive computing, private and public 
organizations need a new mindset, one that democratizes, 
declassifies, and shares threat data by default and with speed.
    Thank you for the opportunity to appear here before the 
Committee today. I look forward to your questions.
    [The prepared statement of Mr. Barlow follows:]

      Prepared Statement of Caleb Barlow, Vice President, Threat 
                       Intelligence, IBM Security
    Chairman Thune, Ranking Member Nelson, and distinguished Members of 
the Committee, I am pleased to appear before you today to discuss how 
emerging technologies can help American companies more effectively 
defend themselves against cyberattacks. In my testimony, I will focus 
on the state of cybercrime, the importance of sharing data on cyber 
threats, and how emerging technologies, such as blockchain and 
cognitive systems that learn and reason, help dramatically reduce 
cybercrime while also closing the looming cybersecurity skills gap.
The State of Cybercrime
    Before discussing emerging security technologies, it's important to 
describe the current state of cybercrime. Today, just about everything 
we hear about involves the exfiltration of data. A cybercriminal breaks 
into a system, gets access to information, downloads that data and 
extorts it for profit or influence. Over 2 billion records were stolen 
last year alone. And in 2015, over 100 million people--most of whom 
were Americans--had their healthcare records stolen.\1\
---------------------------------------------------------------------------
    \1\ See: IBM Security Intelligence by Caleb Barlow, Attackers Shift 
Sights from Retail to Health Care in 2015 http://ibm.co/1Vpruus
---------------------------------------------------------------------------
    From my vantage point working in one of the largest security 
intelligence operations in the world--IBM manages 35 billion security 
events per day for our clients--I see not only how many records are 
being stolen, but other changes that are unfolding. For example, it's 
not just the amount of records being stolen, but what cybercriminals 
are doing with the information. Rather than just stealing the data to 
profit from it, what would happen if a cybercriminal changed it? What 
would happen if they manipulated a financial record or rerouted a 
supply chain?
    These types of attacks are emerging. Before the 2016 Summer Olympic 
games, a group of hackers who call themselves ``Fancy Bear'' accessed 
athletes' data in the World Anti-Doping Agency's database. They then 
released sensitive data; for example, they listed athletes who were 
given permission to use otherwise banned substances such as certain 
types of asthma medication.
    But what is particularly alarming is that this hacker group 
allegedly did more than just steal and release data. According to the 
World Anti-Doping Agency, the hackers also made changes to the data 
prior to releasing it, in an attempt to swing public opinion.
    By breaking trust, even the smallest of actions can have tectonic 
implications. For example, if cybercriminals manipulate the data 
consumers have come to inherently trust--from the financial reporting 
of the companies they invest in to their healthcare records--we move 
beyond stolen information and money to an even more damaging issue: a 
loss of trust. This, of course, could have many damaging ramifications. 
Imagine the uncertainty you would face regarding the soundness of your 
investments if you read that a cybercrime gang had manipulated the 
financial records of companies in your portfolio.
    We are seeing security attacks and techniques continue to evolve, 
and it's important to understand where they are originating from, not 
necessarily geographically but from an economic and sociologic 
perspective. The United Nations estimates that 80 percent of cybercrime 
is from highly organized and ultra-sophisticated criminal gangs.\2\ It 
is now estimated to be one of the largest illegal economies in the 
world, costing the global economy more than $445 billion a year.\3\ To 
put this in perspective, $445B is greater than the GDP of more than 160 
different countries, including Ireland, Malaysia, Finland, Denmark, and 
Portugal, among many others.\4\
---------------------------------------------------------------------------
    \2\ United Nations Office on Drugs and Crime, Comprehensive Study 
on Cybercrime, February 2013
    \3\ Net Losses: Estimating the Global Cost of Cyber Crime, Center 
for Strategic and International Studies, June 2014
    \4\ See: http://statisticstimes.com/economy/countries-by-projected-
gdp.php
---------------------------------------------------------------------------
    The most sophisticated thieves operate like a well-oiled global 
business. They build development tools and collaborate on software. 
They share knowledge about targets and vulnerabilities. In fact, each 
successful attack proliferates the skills, tools and ecosystem because 
hackers often reuse malware and other vulnerabilities that they know 
are proven to work. Think of it as on-the-job training.
    They operate on a regimented schedule like many legitimate 
companies; their employees work Monday through Friday and take the 
weekends off. We know this because our security researchers see 
repeated spikes of malware launched on Fridays as hackers head home for 
the weekend. On Monday, the criminals regroup to see how well things 
went.
    They collaborate and share expertise on a global scale via the 
``Dark Web''--a term used to describe the anonymous Internet where 
identity-masking tools enable criminals to operate without detection. 
Networks of thieves steeped in both IT and business skills work 
together to steal intellectual capital to damage businesses, and take 
your money.
    The Dark Web is where these criminals build and peddle attack 
software to steal data from businesses and other institutions. Their 
cohorts can purchase everything online from base-level attack platforms 
to premium versions, which might offer a gold, silver and bronze-level 
of service--and even a money-back guarantee if they don't get a 
successful hack. There are different products and prices, along with 
ratings and reviews of the ``merchants.'' If you buy a hack from a 
``reputable criminal'' with good ratings, you are far more likely to 
purchase a hack that is going to work.
    Another major trend in cybercrime involves the Internet of Things. 
In our increasingly interconnected world, the devices, the data they 
produce and use, and the systems and applications that support them, 
are all potential attack points for malicious actors. Unlike a 
traditional computer, these IoT devices often operate without human 
supervision. They can be deployed for an extended lifetime and often 
lack simple methods to update and patch their software, which leads to 
poor security. Worse yet, to ease the deployment of these IoT devices, 
many often ship with minimal security controls, default user ID's and 
passwords that are never updated by the end user, making them easy 
targets for an attacker.
    IoT devices are accumulating massive amounts of personal and 
sensitive data, like voice searches, GPS locations, and heart rate 
readings. If the data isn't managed and secured, its exposure can lead 
to a loss of privacy and data ownership. This makes the security of the 
data, how it's created, used and deleted extremely important.
    Simply put, if a device connects to the internet, consumers need to 
understand not only what data it collects and how it is used, they must 
also have a way to maintain and update its security for the usable 
lifetime of the device.
Battling Cyber Crime via Threat Sharing
    So how do we stop this? Cybercrime rings operate with anonymity and 
often seemingly outside the reach of the law. What we need to do is 
change the economics for the bad guys.
    Our response to cybercrime needs to be similar to how we manage a 
healthcare pandemic. Sars, Ebola, Bird Flu, Zika--what is the top 
priority when handling an outbreak? It is knowing where infections are 
occurring and how they are being transmitted. First responders, 
physicians, hospitals, governments and the private sector all share 
information rapidly and openly. This is a collective and altruistic 
effort to stop the spread of sickness in its tracks, and then rapidly 
get the word out on transmission modality so that anyone not infected 
can protect themselves.
    Unfortunately, this is not what we see today in the event of a 
cyberattack. Organizations are much more likely to keep the attack to 
themselves because of a perceived risk to their reputation. When a 
major breach is publicly revealed, typically all that is reported (by 
the media) is how many records were stolen. Even if a company makes a 
disclosure, rarely do organizations talk about how they were infected 
because they are worried about the risk of litigation or regulation.
    Adding to the problem, many security vendors see threat data as an 
opportunity for profit--something of value to be shared only with high-
paying customers and used for competitive advantage. And many 
government agencies continue to operate with Cold War-era strategies, 
when keeping critical information hidden from a major adversary was 
paramount. But in today's world, with an asymmetric enemy that operates 
anywhere and with impunity, keeping government information secret can 
work against us. Governments, too, need to disclose cyber threat 
indicators, vulnerabilities, breaches and hacking schemes, when 
appropriate, much faster. We call this concept the ``default 
declassification of threat data at speed.''
    The good news is that we are seeing signs of progress in this area. 
The enactment of the Cybersecurity Information Sharing Act of 2015 
(CISA), for example, was an important and helpful step forward, and we 
have seen progress in our discussions and work with various government 
agencies on sharing cyber threat data. But the scale and pace of 
information sharing needs to be accelerated.
    Cyber threat sharing is only actionable when it happens with speed, 
but most governments are still keeping that data confidential for 
extended periods of time.
    As a result, we've reached a point where new actions and strategies 
are required. Security vendors, governments and other organizations 
need to open their arsenal of information on threats--the types of 
threats, where they are coming from, how they work--and share them 
openly, at scale and without significant financial remuneration. Simply 
put, we must democratize threat intelligence data to compete with 
cybercriminals at their own game.
    By uncovering criminals' devises closer to real time, we foil their 
schemes. We analyze and break their plans, and share their methods with 
the potential victims and general public a lot sooner than the 
adversaries expect. By consistently keeping pace with threat 
intelligence and using it to out-maneuver the criminals, we gradually 
make cybercrime not pay. We change the economics for the bad guys.
    And if it does not pay, what's the motivation to do it in the first 
place?
    To begin addressing some of the barriers to real time threat 
sharing and improve the sharing ecosystem, IBM supported the enactment 
of CISA. However, even before CISA became law, IBM took the initiative 
to practice what we are preaching, to share our data on cyberthreats. 
In 2015, IBM opened one of the largest treasure troves of threat data 
in the world and created the IBM X-Force Exchange. We put it all on the 
Internet for free. IBM published nearly 700 terabytes of actionable 
threat data from around the globe, including real-time indicators of 
live attacks, which can be used to defend against cybercrimes. We keep 
publishing, every day, every hour.
Battling Cybercrime with Cognitive and Blockchain Technology
    So how can we democratize threat data while reducing attribution 
risk to governments and private institutions?
    This is where emerging technologies can play a big role in 
cybersecurity. Cognitive security technologies, for example, has 
enormous potential.
    The number of risks and events is growing exponentially, and 
security operations teams are struggling to keep up with the volume. 
The threat landscape is changing rapidly, with the sophistication and 
numbers of threat variants becoming too great to keep pace with or stay 
ahead of using traditional approaches. The repercussions of incidents 
and breaches are increasing, with the financial costs and risks growing 
rapidly.
    At the same time, many organizations are faced with a dearth of 
security experts with the right skills. These different factors make it 
difficult for organizations to maintain the healthy digital immune 
systems they need to protect themselves and are driving the need for 
new cognitive security technologies.
    Specifically, we need new technologies that can serve as a 
cognitive security assistant to analyze massive amounts of data to make 
recommendations on remediation actions with much greater speed and 
precision.
    To highlight the amount of security information available today, 
there are about 60,000 security blogs per month and 10,000 security 
reports per year.\5\ We estimate that organizations are spending $1.3 
million a year dealing with false positives alone, wasting nearly 
21,000 hours.\6\ Cognitive security technologies can make a huge 
difference by helping security professionals keep up with all this 
information and extract value from it with greater speed and accuracy.
---------------------------------------------------------------------------
    \5\ See: Watson for Cyber Security: Shining a light on human 
generated data, August 2016--http://ibm.co/2mXuZj7
    \6\ The Cost of Malware Containment, by Ponemon Institute, January 
2015 
---------------------------------------------------------------------------
    Last month, IBM launched a cognitive security technology called 
Watson for Cyber Security. About 50 organizations--Fortune 500 
companies across all major industries--are now using Watson to fight 
cybercrime.
    The scale of what Watson is doing is enormous. In less than a year, 
Watson for Cyber Security has analyzed more than 1 million security 
documents on the Internet. It is now analyzing 15,000 security 
documents per day--amounts that no army of people alone could ever 
process.
    What is even more significant than the scale of the data being 
analyzed, is what cognitive security technologies, such as Watson, can 
do with this sea of information. Specifically, true cognitive security 
technologies are systems that learn versus systems that are programmed. 
They can scour unstructured data across the Internet--the blogs and 
reports, media articles, social media, and many other sources--that 
were previously inaccessible by traditional security tools.
    Cognitive systems can be trained to understand imprecise human 
language in those documents--for example, understanding that in 
security terms a ``bug'' is a software defect and not an insect.
    Watson for Cyber Security is the first cognitive technology that is 
doing all of this. Our early findings are that Watson's capabilities 
are 60-times faster than complex manual analysis, with 10-times more 
actionable indicators to uncover new threats.\7\
---------------------------------------------------------------------------
    \7\ IBM Watson for Cyber Security Beta Testing Results
---------------------------------------------------------------------------
    It is also important to underscore that cognitive technologies like 
Watson do not replace people, but help them to be more productive, 
precise and efficient in defending their organizations from 
cyberattacks.
    At the same time, they will help bridge a looming skills gap--an 
estimated 1.5 million unfilled security jobs by the end of this 
decade--by making the existing security workforce more effective and 
efficient.
    Cognitive technologies also can help create new jobs. At IBM, for 
example, we're now tapping professionals who may not have a traditional 
college degree, but who have the needed skills and aptitude to help us 
in a variety of disciplines, including cybersecurity. We refer to these 
new professionals as ``new collar'' workers, who may join an 
organization, for example, with base-level security skills from a P-
Tech school or with an Associate's Degree.
    Cognitive security technologies like Watson can help these ``new 
collar'' workers by providing them with much greater levels of security 
analysis and insights. Essentially, with cognitive security products, 
new collar employees can be paired with technology that is like the 
equivalent of a highly seasoned and experienced human security analyst, 
but one who can examine massive amounts of data at incredible speeds.
    New collar jobs are one way to help reduce the security skills gap, 
but we also need institutions of higher education to expand their 
cybersecurity curricula. We need more choices for earning cybersecurity 
degrees and more students in the pipeline. We also need to focus on 
ways to develop more female experts in this field, as women represent 
only about 10 percent of today's cybersecurity workforce.\8\
---------------------------------------------------------------------------
    \8\ 2015 report by (ISC)2
---------------------------------------------------------------------------
    At IBM, we're also looking at other ways to help our new collar and 
traditional security employees alike to benefit from cognitive 
security. One example is our new research project, code named Havyn, 
which brings a voice to cognitive security.
    Havyn is a voice-powered security assistant that can interact 
verbally with security analysts in real-time on a variety of topics, 
from information on new threats, to data on an organization's security 
posture.
    Havyn creates a ``second-screen experience'' for security analysts. 
It works in the background on command, pulling data from different 
security tools and sources, and brings the relevant information to the 
surface for further investigation by human analysts.
    Voice-powered tools like Havyn can greatly expand the value of 
cognitive security intelligence sources like Watson. Just think of 
Watson for Cyber Security as the brain of the Security Operations 
Center, and think of Hayvn as bringing a voice to the brain, making 
Watson's expertise even more valuable.
    Blockchain is another important example of emerging technology.
    Blockchain is a technology for a new generation of transactional 
applications that helps establish security, trust, accountability and 
transparency. One of the key capabilities of blockchain is the ability 
to maintain a record of the history of all transactions in a way that 
cannot be manipulated.
    Not only is it inherently more secure than other protocols, but 
blockchain has the potential to be used by multiple parties to share 
cyber-threat intelligence in a way that maintains the reputation of the 
source of the data without revealing the identity of the source. 
Governments and private institutions can combine data into threat feeds 
that ensure transactional integrity and maintain reputation, but 
without identifying the contributor.
    Blockchain also has potential security benefits for IoT where 
supply chain integrity is critical. Although there may be dozens of 
parties involved in an IoT supply chain, a Blockchain can ensure 
transactional integrity and visibility of logistical and quality 
metrics from manufacturer to point of use.
    Blockchain has inherent qualities that provide trust and security, 
but, to fulfill its promise, the core technology must be further 
developed using an open source governance model to make it deployable 
on a grand scale. The Federal Government must invest in scientific 
research to accelerate progress. The National Institute of Standards 
and Technology can help shape standards for interoperability, privacy 
and security. And government agencies can become early adopters of 
blockchain applications. In addition, government has a key role to play 
in certifying the identities of participants in blockchain-based 
systems.
Conclusion
    Cybercrime is one of this generation's most vexing societal 
problems. As with all historic societal challenges, it requires radical 
change at great speed.
    The public and private sector need to collaborate on a much deeper 
level to make the sharing of cyberthreat data a standard practice. This 
level of interaction and sharing will result in highly organized 
cybercrime fighting to thwart the massive collaboration of 
cybercriminals today.
    We need the partnership to incubate, develop, and institute 
emerging security technologies such as cognitive systems and 
blockchain. We need higher education institutions to also step up in 
cultivating a new generation of security experts for our workforce.
    In the process, we will not only chip away at cybercrime, but 
radically reduce it by changing the economics of this significant 
illegal economy. In doing so, we will experience many benefits, 
including instilling trust in global interconnected systems, creating 
new jobs while reducing a skills shortage, and increasing the diversity 
of the workforce.
    Thank you Chairman Thune, Ranking Member Nelson and distinguished 
Members of the Committee for the opportunity to provide IBM Security's 
perspective on this important topic.

    The Chairman. Thank you, Mr. Barlow.
    Mr. Ganesan?

         STATEMENT OF VENKY GANESAN, MANAGING PARTNER,

          MENLO VENTURES; AND CHAIR, NATIONAL VENTURE 
                      CAPITAL ASSOCIATION

    Mr. Ganesan. Thank you. Chairman Thune, Ranking Member 
Nelson, thank you for the opportunity to testify before the 
Committee this morning. My name is Venky Ganesan, and I serve 
as one of the managing partners of Menlo Ventures. We are one 
of the oldest and most successful venture capital firms in 
Silicon Valley.
    We have been fortunate to be early investors in many iconic 
companies, including Gilead Sciences, Siri, and Uber. In the 
cybersecurity space, we were the lead investors in Q1 Labs, 
which is now a major part of IBM Security, and IronPort, which 
is a critical part of Cisco Security. I was one of the lead 
investors and on the Board of Palo Alto Networks, which today 
has a market capitalization of over $10 billion. I am 
testifying today in my capacity as Chair of the National 
Venture Capital Association.
    To understand the role that young high-growth startups play 
in emerging cybersecurity technology, it is important first to 
understand the role of venture capital in American 
entrepreneurship. Venture capitalists like myself invest in 
early stage companies with big potential and work shoulder-to-
shoulder with entrepreneurs to build the company. If you think 
of a baseball team, the venture capitalist is a coach or 
manager, and the entrepreneurs are the players on the field. We 
are all working together to deliver value to the American 
public.
    American entrepreneurship is the envy of the world, in 
significant part because of the right blend of public policy 
priorities, such as the tax code, that rewards long-term, 
patient investment of capital and Federal investment into basic 
research, which often forms the building blocks for new 
companies or industries.
    Cybersecurity innovation and venture capital have been 
intertwined right from the beginning, as almost all of the 
major independent cybersecurity companies in the public market 
were funded by venture capitalists. I have great respect for 
all the companies and panelists here, but I'll tell you, most 
of the innovation in cybersecurity today happens at the early 
stage with startups.
    Venture investors have deployed almost $15 billion in more 
than 740 cybersecurity companies since 2010. These companies 
are pushing the outer boundaries of what is possible in 
cybersecurity. We have the advent of many exciting new 
technologies that present incredible opportunities but also 
many challenges.
    For example, artificial intelligence continues to be an 
area of considerable excitement among venture capital 
investors. It is undeniable that we have made significant 
progress in AI, even if a general purpose AI solution is not 
estimated to be available until 2045 or beyond. I encourage the 
Committee to think of AI applications not as man versus 
machine, but rather as man plus machine.
    One of the biggest challenges in cybersecurity today is the 
avalanche of security alerts every enterprise gets. There's 
simply not enough security professionals in the world to 
resolve all of them. AI is a potential solution for this 
problem, because it can automate some mundane activities, thus 
freeing the experienced security professionals to focus their 
energies on the high-value alerts.
    In my written testimony, I discuss other new cybersecurity 
technologies, such as blockchain, the Internet of Things, and 
quantum computing that offer further opportunities and risks. I 
believe this Committee can help spur cybersecurity innovation 
and protect Americans from future threats with policy action in 
a few areas, and I have a few recommendations.
    First, we must modernize our procurement system so our 
government has access to world-class cybersecurity technology, 
much of which comes from startups. The unfortunate reality is 
our procurement practices act as a deterrent to many startups. 
If you look at the cybersecurity threats we face today, a lot 
of them were technologies that were created after 2014. So you 
need modern software technologies, and our procurement 
practices do not allow you to have access to that.
    Second, the government can drive market solutions by 
establishing best practices. I commend Chairman Thune's efforts 
on the NIST Framework and recommend NIST develop a way to 
update the Framework periodically and establish test guidelines 
that all security products can be objectively compared against.
    Third, we need a better legal framework that allows data 
sharing so that companies can team up against external threats, 
learn from each other, and benefit from each other's solutions.
    Fourth, we should create a generation of cyber warriors, as 
attempts to weaponize technology will not recede in our 
lifetime. We have countries, like Israel, China, Russia, who 
all create a generation of cyber warriors that we've got to 
compete against. Our idea would be to set up a cyber academy 
where we can recruit, train, and develop the best young cyber 
talent in our country.
    Fifth and finally, more must be done to facilitate cyber 
insurance to minimize existential risk, as the cost of breaches 
can be astronomical and beyond any single company's ability to 
handle. We need a market-based system to allow us to get 
feedback, and cyber insurance is a market-based system to do 
that.
    To conclude, the cybersecurity challenges we face are 
daunting, but I'm an optimist. For 241 years, it has never made 
sense to bet against America, and that's not going to change. 
My personal investing experience gives me great confidence that 
there are many amazing companies out there who have needed 
solutions to our cybersecurity challenges. This Committee can 
support those dynamic young companies by enacting pro-
entrepreneurship policies that will facilitate creation of a 
new wave of cybersecurity innovation.
    I look forward to your questions.
    [The prepared statement of Mr. Ganesan follows:]

 Prepared Statement of Venky Ganesan, Managing Partner, Menlo Ventures 
            and Chair, National Venture Capital Association
    Chairman Thune, Ranking Member Nelson, thank you for the 
opportunity to testify before the Senate Committee on Commerce, 
Science, and Transportation today. My name is Venky Ganesan and I serve 
as one of the Managing Partners of Menlo Ventures. Menlo Ventures is 
one of the oldest (41 years) venture capital firms in Silicon Valley. 
We manage approximately $4.5 billion in assets and have invested in 
over 400 portfolio companies whose aggregate value if held post going 
public would be over $200 billion. We have been fortunate to be early 
investors in many iconic companies, including F5 Networks (``FFIV''), 
Gilead Sciences (``GILD''), Hotmail (acquired by Microsoft), Siri 
(acquired by Apple), and Uber. We also have a long and successful 
history investing in cybersecurity. Menlo Ventures was the lead 
investor in Q1 Labs, which was acquired by IBM and has now become a 
major part of IBM Security. Additionally, Menlo was also the lead 
investor in IronPort, which was acquired by Cisco for $830 million and 
is a critical part of Cisco Security. I was one of the lead investors 
and was on the board of Palo Alto Networks (``PANW'') which today has a 
market capitalization of over $10 billion. I am here today in my 
capacity as Chair of the National Venture Capital Association (NVCA), 
which advocates for pro-entrepreneurship policies that create jobs and 
grow the U.S. economy.
Venture Capital and Entrepreneurship
    Venture capital and entrepreneurship go hand in hand. Some people 
mistake venture capital as a passive investing function in which 
venture capitalists pick companies, write checks, and then wait for the 
returns to roll in. While that would be nice, the reality is much 
different. A better analogy to understand the relationship between 
venture capitalists and entrepreneurs is to think about startups like a 
baseball team. The entrepreneurs are the players on the field. The 
venture capitalists are the coach and the managers. Ultimately, the 
players need to deliver on the field and that is what entrepreneurs do. 
However, as the coach/manager, venture capitalists help recruit 
players, negotiate contracts, run training sessions, make real-time 
tactical decisions during the game, and decide on the playing roster.
    To give you additional context, in the last three weeks I have 
personally done the following:

  <bullet> Evaluated over 5 new investments;

  <bullet> Negotiated compensation agreements with a CEO;

  <bullet> Identified and sourced potential executives for one of our 
        companies;

  <bullet> Interviewed and convinced a young marketing executive to 
        join one of our companies;

  <bullet> Done reference calls with prospective customers and 
        encouraged them to buy from one of our early stage companies; 
        and

  <bullet> Held strategy sessions with salespeople from our portfolio 
        companies.

    Venture capital is hard and unfortunately not always successful. 
According to research by Professor Shikhar Ghosh of Harvard Business 
School, 75 percent of venture backed startups do not return investors 
capital. Correlation Ventures, which evaluated over 21,000 financings 
spanning the years 2004-2013, showed that 64.8 percent of financings 
resulted in less than 1x return of capital.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Even when venture capitalists are successful, it takes a long time. 
The average time to exit for venture-backed startups according to the 
NVCA 2017 Yearbook is more than 5 years for an acquisition and more 
than 7 years for an initial public offering (IPO). In life science, 
those time periods are often even longer.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: NVCA 2017 Yearbook, Data Provided by PitchBook

    However, when venture capital works, it really works. Some of the 
most prominent technology companies in the world, e.g., Facebook, 
Twitter, Snapchat, Google, Amazon, Microsoft, etc., were all venture 
backed. At one point in 2016, the five largest companies by market 
capitalization in America were technology companies (Apple, Microsoft, 
Alphabet, Amazon, and Facebook) all of whom were venture-backed. Three 
of these companies were built with venture capital within the last 22 
years. According to a 2015 study by Ilya Strebulaev of Stanford 
University and Will Gornall of the University of British Columbia, 42 
percent of all U.S. company IPOs since 1974 were venture-backed.\1\ 
Collectively, those venture-backed companies have invested $115 billion 
in research and development (R&D), and created $4.3 trillion in market 
capitalization, accounting for 85 percent of all R&D spending and 63 
percent of the total market capitalization of public companies formed 
since 1974. Specific to the impact on the American workforce, a 2010 
study from the Kauffman Foundation found that young startups, many of 
them venture-backed, were responsible for almost all the 25 million net 
jobs created since 1977.\2\
---------------------------------------------------------------------------
    \1\ ``The Economic Impact of Venture Capital: Evidence from Public 
Companies,'' Stanford University Graduate School of Business Research 
Paper No. 15-55, available at http://papers.ssrn.com/sol3/
papers.cfm?abstract_id=2681841.
    \2\ ``The Importance of Startups in Job Creation and Job 
Destruction,'' Kauffman Foundation Research Series: Firm Foundation and 
Economic Growth,'' (July 2010), available at http://www.kauffman.org//
media/kauffman_org/research%20reports%20and%20covers/2010/07/
firm_formation_importance_of_startups.pdf.
---------------------------------------------------------------------------
    These incredible contributions to the U.S. economy are due, in 
significant part, to the right blend of public policy priorities. For 
example, our tax code rewards long-term, patient investment of capital 
that enables venture capitalists to work alongside entrepreneurs for 
many years before they see any return on investment. I encourage all 
Members of Congress to make new company formation a priority in tax 
reform. In addition, the Federal Government has prioritized investment 
into basic research, which often forms the building blocks for new 
companies and even whole industries that fuel economic growth with 
rapid advancements that improve our well-being and extend our lives.
Venture Capital's Impact on Cybersecurity
    Cybersecurity innovation and venture capital have been inextricably 
intertwined right from the beginning. Some of the biggest innovations 
in cybersecurity have been introduced by venture capital backed 
startups. For example:

  <bullet> The stateful inspection firewall which is a critical 
        component of almost all perimeter security products was 
        invented by Checkpoint;

  <bullet> SSL encryption was invented by Netscape; and

  <bullet> Next generation firewall based on a ``single pass'' 
        architecture was pioneered by Palo Alto Networks.

    In addition, almost all of the major independent cybersecurity 
companies in the public market were funded by venture capitalists, 
including Symantec, Palo Alto Networks, FireEye, Proofpoint, Imperva, 
Fortinet, Qualys, and Cyberark, to name a few.
    Venture capitalists are also incredibly active in the private 
markets. Since 2010, they have invested over $14.6 billion in more than 
740 cybersecurity companies including $3.52 billion in 2015 and $2.75 
billion in 2016.\3\
---------------------------------------------------------------------------
    \3\ Pitchbook-NVCA data (Note: Some companies raised a round of 
venture funding in more than one year, in which case they are counted 
separately in each year.)




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
    Source: PitchBook-NVCA data

    America's leadership in cybersecurity is directly attributable to 
the strong expertise and significant patient investment capital 
provided by U.S. venture capitalists.
Cybersecurity Threat Landscape
    Cyber threats at a consumer level really started to emerge in the 
1990s with the commercialization of the Internet. Until the advent of 
the Internet, viruses could only pass to other computers through floppy 
disks or other storage media. Once consumers and businesses started 
connecting their computers to the Internet, viruses with names like 
Melissa and ILOVEYOU could propagate massively across the Internet and 
infect millions of users. The first generation of protection against 
these viruses were anti-virus companies such as Symantec and McAfee 
that used signature based techniques to create anti-virus software. In 
order to protect themselves from hackers, corporations started 
implementing perimeter security solutions. Prominent among these 
solutions were firewalls, Intrusion Prevention Systems (IPS), and 
Intrusion Detection Systems (IDS). While there was a cat-and-mouse 
element to this fight, for the most part people felt that the 
cybersecurity problem was in check until the advent of two major 
developments.

  <bullet> The first major development was a discovery by researchers 
        in 2010 of a malicious computer worm known as Stuxnet that 
        targeted industrial computer systems. What made Stuxnet 
        different from other viruses was that it targeted programmable 
        logic controllers (PLC) which were not connected to the 
        Internet and were previously thought to be unhackable. Stuxnet 
        showed that many elements of our critical infrastructure, such 
        as dams, electric grids, water treatment facilities, hospital 
        systems, factory assembly lines, and power plants, which use 
        supervisory control and data acquisition (SCADA) and PLC 
        systems, are now under threat, even when they are not connected 
        to the Internet.

  <bullet> The second major development was the advent of highly 
        sophisticated malware called Advanced Persistent Threats (APT) 
        in 2013. These malwares function quite differently from the 
        viruses of the past. The hackers goal is espionage and data 
        theft. Once they infect a target, they use sophisticated root 
        kit techniques to disguise themselves. They then connect to 
        command and control servers on the Internet and both exfiltrate 
        data and take new instructions. These sophisticated malwares 
        can remain undetected for months or even years while slowly 
        traversing across the entire network of the victim and grabbing 
        valuable data. All the big breaches you have heard about 
        recently--Anthem, Office of Personnel Management (OPM), Target, 
        Sony--were victims of this technique. Legacy security vendors 
        never architected their solutions to handle threats like this, 
        and unless governments, enterprises, and consumers upgrade 
        their security infrastructure to a modern architecture they are 
        all exposed to this threat.

    In addition to these new threats, there are some major developments 
in other technical areas such as artificial intelligence, Blockchain, 
Internet of Things and quantum computing which have the potential to 
impact cybersecurity. Below is a brief overview of each of these 
emerging areas of technology and how they might impact cybersecurity.
Artificial Intelligence/Machine Learning
    Artificial intelligence (AI) in a computer science context is 
defined as the study of intelligent agents. It is the idea that 
computers mimic cognitive functions such as ``learning'' and ``problem 
solving'' that is normally associated only with humans. Prominent 
milestones in AI include IBM's Deep Blue becoming the first computer 
chess-playing system to beat a reigning world champion, IBM's Watson 
defeating two Jeopardy champions, and Google's AlphaGo beating a 
professional Go champion. In popular culture, AI is usually captured as 
the evil machines taking over the world a la ``Hal'' in the movie 
``2001: A Space Odyssey'' or ``The Matrix.''
    Artificial intelligence and machine learning have been areas of 
considerable excitement among venture capital investors. As a subset of 
U.S. cybersecurity venture investment, 15 artificial intelligence and 
machine learning companies raised $203 million in 2016. In 2015 and 
2016, 21 companies raised a combined $417 million in venture funding. 
To put this into context, only 13 companies raised a total of $191 
million from 2006 to 2014.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: PitchBook-NVCA data (Note: Some companies raised a round of 
venture funding in more than one year, in which case they are counted 
separately in each year).

    It is undeniable that we have made significant progress in AI. The 
factors that have enabled this progress include the availability of 
inexpensive computing through the cloud through such innovation as 
Amazon Web Service (AWS), sophisticated machine learning techniques and 
algorithms, and availability of huge data sets to be used as training 
data. Some of the progress we have made towards a self-driving car is 
directly attributable to machine learning techniques like ``Deep 
Reinforcement Learning.'' To date, artificial intelligence and machine 
learning seems to show strong results when we apply it to a narrow 
problem or constrain the solution space, i.e., Chess, Go. However, we 
are not close to a general-purpose AI solution any time soon. While 
estimates vary considerably, no credible expert estimates that we will 
have general purpose AI sooner than 2045.
    Rather than thinking in the context of Man vs. Machine, a better 
exercise would be to think in the context of Man plus Machine. But, as 
we come to rely on this technology to bolster our capabilities, could 
hackers and nation state actors use artificial intelligence to hack 
into our cyber infrastructure? Here again the answer is mixed. We are 
far from an AI machine that can hack any infrastructure in a general-
purpose way. However, people could use machine learning techniques to 
make progress. Still, most experts believe that the existing techniques 
of capitalizing on human error (e.g., clicking on malware links, 
opening attachments) are so effective that there currently is little 
incentive to invest in expensive AI research for cyber hacking. On the 
positive side, there are a variety of startups trying to use AI/machine 
learning to help automate security operations. One of the biggest 
challenges in cybersecurity today is the avalanche of security alerts 
every enterprise gets. There are not enough security professionals in 
the world to chase down and resolve every security alert. There has 
been some promising advances in using artificial intelligence to 
automate some of these mundane activities thus freeing the experienced 
security professionals to focus their energies on the high value 
alerts.
Internet of Things (IoT)
    The Internet of Things refers to the inter-networking of physical 
devices, vehicles, connected devices, and buildings whereby physical 
objects can collect and exchange data with each other. The canonical 
example of IoT are smart TVs, which are connected to the Internet and 
allow you to watch over-the-top content not available through your 
cable or satellite feed. Another example would be a connected car, such 
as a Tesla, which can be upgraded or modified with an over-the-air 
software update.
    IoT interfaces with cybersecurity in two major ways. First, as more 
and more appliances get ``connected'' and join the Internet they are 
now vulnerable to hacking. Recent reports have shown that state actors 
and sophisticated hackers can take over connected devices such as TVs, 
refrigerators, vehicles, and yes, even microwaves. Once taken over, 
these devices can then be used to spy and gather confidential 
information. A good example of this would be voice assistants like 
Amazon Echo and Google Home. These devices are connected to the 
Internet and are always listening for voice commands. A hacker could 
take over one of these devices and listen and record all voice 
conversations happening around the device.
    Second, and even more worrying, is that these devices once taken 
over can be used as a weapon in a broader attack. There was a major 
denial of service attack (DDOS) in October 2016 targeting a domain name 
service (DNS) provider called Dyn. This attack brought down Dyn, which 
in turn affected major parts of the Internet, including major websites 
such as Amazon, Airbnb, Comcast, and The New York Times. It was 
discovered that the attack was orchestrated through a botnet consisting 
of millions of IoT-enabled devices, such as webcams and cameras. An 
additional concern would be the ability of hackers to take over the 
controls of a connected car and use it as a weapon for terrorism 
purposes. The structure of the consumer electronics industry 
perpetuates and exacerbates these security threats. Consumers are not 
well informed about the inherent security risks in these products to 
demand strong security solutions and there are not well-established 
security certifications for consumer devices. As a result, vendors 
often have not made the necessary investments in product security, and 
have not implemented even basic capabilities such as password 
management or the ability to perform over-the-air security upgrades.
    In 2016, 12 cybersecurity IoT companies raised $92 million in 
venture funding, the second highest annual total for both metrics in 
the past decade.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: PitchBook-NVCA data (note: some companies raised a round of 
venture funding in more than one year, in which case they are counted 
separately in each year).
Blockchain
    Blockchain refers to a digital ledger in which transactions made in 
Bitcoin or any other cryptocurrency are recorded chronologically and 
publicly. Blockchains are critical for the functioning of 
cryptocurrency since they act as the ledger of record to show who owns 
what and how ownership changes from one person to the other. Regardless 
of your views on cryptocurrencies, experts are excited about Blockchain 
because it is a distributed database with built in validation. 
Blockchain is effectively an independent, transparent, and permanent 
database existing in multiple locations and shared by a community. No 
person controls it, nor can anyone manipulate it so it can serve as the 
single source of truth for transactions. Blockchain can be used to 
document anything, including record titles of digital goods.
    Blockchains are exciting from a cybersecurity perspective since 
they are currently perceived as much safer than traditional databases 
and less impervious to manipulation and fraud. The drawback of 
Blockchain, however, is that as they scale and get big, they need 
massive computational power, which in turn needs significant electrical 
power. Recently, a financial institution estimated that if 400 
different virtual currencies were created, they would need 200 times 
the amount of electrical power Ireland consumes. Governments who have 
access to unlimited computational and power resources should however 
consider Blockchain as a promising way to store their critical data. 
High-profile hacks of databases like with OPM demonstrate the 
vulnerability of information held by the government. Blockchain could 
play an important role in data authentication and transparency in the 
healthcare and financial sectors. There are numerous use cases through 
which Blockchain could be used for identity and key management, domain 
name system (DNS) authentication, and patient record management.
Quantum Computing
    Traditional computers encode their data in binary form, i.e., data 
is stored either as a 0 or a 1. There are only two states and 
traditional machines read these binary files, which are just sequences 
of 0s and 1s and make sense of them. Quantum computers, on the other 
hand, store their data in something called ``qubits''. A quantum 
computer with n qubits can store a complex combination of up to 
2<SUP>n</SUP> states. The technical details are quite complex and 
complicated to explain, but a simplistic way of thinking about it is 
that a quantum computer will allow you to solve certain computer 
problems that are intractable on conventional computers.
    The way quantum computing intersects with cybersecurity is that all 
of our current encryption standards are based on traditional computing 
standards. If a large-scale quantum computer can be built, then our 
current public key cryptography standards (e.g., RSA, ECDSA, DSA) could 
all be broken, allowing anyone to decrypt the data. The best estimates 
for what it takes to build such a quantum computer, according to 
National Institutes of Standards and Technology (NIST), are 15 years, 
$1 billion in spend, and electrical power tantamount to a small nuclear 
power plant. This is beyond any private actor, but possible for a state 
actor like China or Russia who do have the resources to invest in 
quantum computing. This is a possibility that should greatly concern 
policymakers because if we are beaten in this race the country could be 
at a severe strategic disadvantage. Fortunately, we do have a number of 
academics developing post-quantum cryptography. There is reasonable 
confidence that we can find acceptable cryptographic techniques capable 
of withstanding quantum computing attacks in the future. My view is 
that quantum computing is still very nascent and not close to 
commercialization. There are far more immediate acute problems in 
cybersecurity that demand action before we need to focus on quantum 
computing.
Recommendations
    As an experienced investor in cybersecurity and a concerned citizen 
of this great country, I have a few recommendations for the Committee 
to consider on this topic:

  1.  Modernize government procurement systems so that the government 
        has access to the best technologies: The world's best 
        cybersecurity solutions are developed in America but 
        unfortunately our government's procurement laws are outdated 
        and make it hard for young startups to sell to the government. 
        As noted before, sophisticated malware threats like APT can 
        only be countered by modern security software. I do want to 
        acknowledge the efforts of entities such as In-Q-Tel \4\ and 
        DIUx \5\ that have made progress in helping startups interface 
        with government. However, these initiatives are focused on the 
        defense side of the government and do not help any of the 
        Federal agencies focused on civilian issues. Our procurement 
        practices are based on old frameworks that view software 
        solutions in a static, object-oriented way. The fact is, modern 
        software is cloud based and updated continuously and our 
        procurement practices need to evolve to accommodate that. As a 
        starting point, the Committee should collaborate with agencies 
        within its jurisdiction to improve their procurement practices 
        to better enable purchase of startup-generated technology. 
        Beyond that, I recommend a more comprehensive examination of 
        Federal procurement practices by the Trump Administration to 
        ensure the best technology is used to defend our government 
        against 21st century threats.
---------------------------------------------------------------------------
    \4\ In-Q-Tel is ``is the non-profit strategic investor that 
accelerates the development and delivery of cutting-edge technologies 
to U.S. Government agencies that keep our Nation safe.'' See https://
www.iqt.org/. In-Q-Tel is a member of NVCA.
    \5\ With locations in Silicon Valley and Boston, ``Defense 
Innovation Unit Experimental (DIUx) serves as a bridge between those in 
the U.S. military executing on some of our Nation's toughest security 
challenges and companies operating at the cutting edge of technology . 
. . [DIUx] continuously iterate[s] on how best to identify, contract, 
and prototype novel innovations through sources traditionally not 
available to the Department of Defense, with the ultimate goal of 
accelerating technology into the hands of the men and women in 
uniform.'' See https://www.diux.mil/.

  2.  Setting standards around cyber-hygiene: One way the government 
        can help drive market solutions is by setting standards around 
        cyber hygiene and expectations. I do want to commend this 
        Committee's leadership and support, especially Chairman Thune's 
        efforts in regard to the Cybersecurity Framework proposed by 
        NIST. I recommend that NIST develop a systematic way to update 
        the Cybersecurity Framework periodically and also establish 
        test guidelines that all security products can be objectively 
        compared against. In cybersecurity, we are only as strong as 
        our weakest link so it is imperative that we create incentives 
        for industry participants to practice cyberhygiene. I would 
        caution, however, that whatever solutions that may be crafted 
        in this area be limited in scope and remind lawmakers to be 
        careful not to unduly interfere in business practices which can 
---------------------------------------------------------------------------
        lead to unintended consequences.

  3.  Enable legal frameworks for companies to share and exchange data: 
        There is limited information flow today between companies and 
        government. The CIA and NSA possess very sophisticated 
        techniques and detailed information about threats and malwares, 
        but there is no systematic and safe way for that expertise to 
        be shared with the civilian sector. There is also minimal data 
        sharing between companies, as people are worried about legal 
        liabilities from disclosing data around breaches and malware. 
        We need a better legal framework that allows more data sharing 
        so that companies can team up against external threats, learn 
        from each other, and benefit from each other's solutions.

  4.  Create a generation of cyberwarriors: Countries like Israel have 
        sophisticated programs like Talpiot that identify talented high 
        schoolers in computer science and orient them to cybersecurity 
        careers. We need to create a generation of cyberwarriors and 
        should consider different strategies, including perhaps setting 
        up a cyber-academy like the U.S. Naval Academy where we can 
        recruit, train, and develop the best young cyber talent in our 
        country. Attempts to weaponize technology will not recede in 
        our lifetime; it is time for us to build our institutions to 
        recognize this fact.

  5.  Use cyberinsurance to pool and minimize existential risk: 
        Regardless of how much precaution companies take, there is 
        always a risk of security and data breaches. The cost of these 
        breaches can be astronomical and beyond any single company's 
        ability to handle. Similar to earthquakes and hurricanes, we 
        need to develop a deep cyberinsurance industry so that 
        companies have a way to pool and minimize existential risk.
Conclusion
    The challenges we face in cybersecurity are daunting, but I am an 
optimist. The pilgrims on the Mayflower faced insurmountable odds but 
found a way to build a home and a country that is the leader of the 
free world. My own personal investing experience gives me confidence 
that there are market-based approaches that can be used to battle the 
cybersecurity conundrum.
    In 2011, two MIT graduate students applied for a small grant from 
the National Science Foundation (NSF) with an idea to create a 
cybersecurity ratings organization. In 2013, Menlo Ventures, along with 
other venture firms, funded them. Six years later, their company--
BitSight Technologies--employs 225 people, counts more than 700 
customers across 25 different sectors, and has raised $95 million in 
venture funding. The company was recently named a Forbes ``Next Billion 
Dollar Startup.''
    As a cybersecurity ratings company, BitSight measures the security 
performance of organizations on a scale of 250-900. A higher rating 
indicates better security performance. It is a simple concept--very 
similar to the credit ratings model companies such as Moody's and 
Standard & Poor's have championed for credit and debt.
    BitSight is an example of a venture-backed cybersecurity company 
providing market-based solutions through its ratings system. It is a 
system that can be used by market participants that can quantitatively 
improve the global state of cybersecurity. BitSight is also an 
outstanding example of how government and the private sector can work 
together to solve our cybersecurity challenges. What started as an NSF 
grant turned into a successful company that was backed by private, risk 
capital. Our firm's long-term investment is rewarded because 
policymakers understand the value of that investment to our national 
economy. Due to this collaboration, American jobs were created and 
cybersecurity challenges are being addressed. If we all continue to 
work together, we can achieve a tremendous amount.
    Finally, my greatest recommendation is to use all policy tools 
available, including tax and regulatory policy, immigration, patent, 
and Federal investment in basic research, to encourage new company 
formation. It is through the innovation created by entrepreneurs 
partnering with venture capitalists that we will have the greatest 
chance to defeat this challenge.

    The Chairman. Thank you, Mr. Ganesan.
    Mr. Grobman?

 STATEMENT OF STEVE GROBMAN, INTEL FELLOW AND CHIEF TECHNOLOGY 
                 OFFICER, INTEL SECURITY GROUP

    Mr. Grobman. Good morning, Chairman Thune, Ranking Member 
Nelson, and members of the Committee. Thank you for the 
opportunity to testify today. I'm Steve Grobman, Intel Fellow 
and Chief Technology Officer for the Intel Security Group.
    I've been focused on cybersecurity technology for the good 
part of over two decades. With every advancement in technology, 
it introduces new challenges. When we introduced automotive and 
commercial air transport in the 20th century, it radically 
changed every element of American life. But it also introduced 
new challenges we needed to think about related to safety and 
security.
    The technologies we're going to speak about today are quite 
similar. We're going to focus on IoT. With Moore's Law and 
enhanced connectivity, 50 billion connected devices will be in 
the marketplace by 2020, according to IDC. This drives new 
risk, not only in manufacturing and critical infrastructure, 
but also in connected consumer devices.
    Last October, we saw the weaponization of consumer devices 
all over the world that were used not to attack the consumers 
themselves, but rather to be turned into a weapon and targeted 
against some of our tech providers, such as Twitter, Spotify, 
and others. This is a large part of the challenge in securing 
these consumer devices, in that market forces don't naturally 
drive manufacturers to build secure architectures or maintain 
those devices throughout their useful life.
    We'll also have the opportunity to talk today about 
artificial intelligence. Artificial intelligence powers 
everything from our future self-driving cars to search engines. 
The underlying technologies are powerful tools for both cyber 
attackers as well as cyber defenders. Attackers are using these 
technologies to do everything, such as optimize spear-phishing, 
to better select the targets that they will go after, while 
defenders are using this technology to better classify malware, 
to identify the threats that are in their environment, and to 
fundamentally process the massive quantities of data that exist 
in their organization.
    We must always be mindful that as new defensive 
technologies are created to defend environments, bad actors 
will work to create countermeasures and evasion tactics to make 
these technologies less capable, and we must focus on that and 
be realistic, not only about the capabilities of technology but 
also the limits, as we look to benefit from them.
    We'll be talking today about blockchain. Blockchain creates 
algorithms which solve major problems associated with 
transactions, identity, supply chain, and other fields, using a 
highly-resilient ledger capability that prevents you from 
having to rely on a trusted middleman. Unfortunately, this also 
powers some of the tools that bad actors use to facilitate some 
of the most challenging cyber crimes that we see today, 
including things like ransomware, where the ability to have 
anonymous transactions allow cyber criminals to get paid 
directly from the victims. So we must recognize how these new 
innovations will not only be used to add efficiencies and solve 
large challenges, but how they will become valuable tools for 
the attacking community.
    We will have the opportunity to talk about quantum 
computing. Quantum computing is an amazing innovation to solve 
some of the most challenging research problems we're facing. 
But quantum computing is also well suited to attack some of the 
encryption protocols and algorithms that we rely on today. 
Things like the RSA public key algorithm is subject to future 
quantum attacks. There are other algorithms that are not 
subject to quantum attacks. We call these quantum safe, things 
like the AES algorithm that we use for bulk encryption. These 
algorithms are used pervasively together to secure the way we 
communicate and store data.
    What we must recognize is that this is not a problem to 
worry about only in the future, but today, because bad actors, 
nation states can put data on the shelf today, and as these 
encryption capabilities are broken in the future, they will be 
able to access that data. So we must recognize how to identify 
new algorithms that are quantum safe today as well as triage 
the systems that rely on protecting data so we protect data in 
its greatest form.
    We'll be talking about making specific recommendations on 
regulations. We will be talking about not wanting to rely on 
hard regulations, in that cyber crime evolves very quickly, 
meaning that what the threats are today will not be the threats 
of tomorrow, and being overly prescriptive into what a 
manufacturer or organization might do will create opportunity 
costs that are better spent on protecting their environment.
    We also need to be more transparent in our vulnerabilities 
equities process, where we need to recognize government will 
identify or have access to vulnerabilities, and we need greater 
transparency in how we disposition those.
    I thank you very much for the opportunity to talk today, 
and I look forward to our discussion.
    [The prepared statement of Mr. Grobman follows:]

Prepared Statement of Steven Grobman, Intel Fellow and Chief Technology 
                     Officer, Intel Security Group
    Good morning, Chairman Thune, Ranking Member Nelson, and members of 
the Committee. Thank you for the opportunity to testify today. I am 
Steve Grobman, Intel Fellow and Chief Technology Officer, Intel 
Security Group, part of Intel Corporation.
    I am pleased to address the Committee on how emerging fields like 
Artificial Intelligence (AI), Internet of Things (IoT), quantum 
computing, and Blockchain not only create tremendous value for American 
citizens, but also present new opportunities for both attackers and 
defenders in the field of cybersecurity. My testimony will address 
Intel and Intel Security's commitment to cybersecurity and the state of 
the above emerging technologies. I will conclude with some policy 
recommendations.
    First, I would like to provide some background on my experience and 
Intel's commitment to cybersecurity. I am the Intel Security Group 
Chief Technology Officer (CTO), responsible for leading technical 
innovation and thought leadership related to cybersecurity at Intel. I 
have been focused on the field of cybersecurity for over two decades in 
a wide range of positions.
Intel Security's Commitment to Cybersecurity
    Intel is a global leader in computing innovation, designing and 
building the essential foundational technologies that support the 
world's computing devices. Combining Intel's decades-long computing 
design and manufacturing experience with Intel Security's market-
leading cybersecurity solutions, Intel Security brings a unique 
understanding of the cybersecurity challenges threatening our Nation's 
digital infrastructure and global e-commerce. Governments, businesses 
and consumers face a cybersecurity threat landscape that is constantly 
evolving with each new technology that is brought to market at a faster 
pace than ever before. The sharp rise of internet-enabled devices 
(known as ``Internet of Things'' or ``IoT'') in government, industry 
and the home exacerbates this already difficult challenge. The 
increasing advancement of artificial intelligence provides real promise 
for society but at the same time provides a tool for malicious actors 
as well. Emerging areas such as quantum computing have repercussions we 
need to be addressing now, and blockchain is a strong technology that 
can be used to solve fundamental problems in security such as trusting 
a central authority. The challenges we face are too significant for one 
company or entity to address on its own. Real change in cybersecurity 
requires a true public-private partnership with industry.
    Collaboration will be the driving force behind what soon will be 
the new McAfee (currently known as Intel Security)--planned to be a 
standalone company this year. It's also why we recently announced a 
whole new ecosystem of integrated platforms, automated workflows and 
orchestrated systems based on an open communications fabric that will 
enable all of us in cybersecurity to work together in ways never before 
thought possible.
Emerging Technological Areas of Value and Concern
    With every advancement in technology, new challenges are 
introduced. The mass adoption of automobiles and air travel 
fundamentally transformed every element of life in the 20th century, 
yet these innovations also caused us to look at new concerns and 
challenges related to auto and air safety. The technologies we will 
discuss today are very similar. Technologies related to the Internet of 
Things, artificial intelligence, quantum computing and blockchain are 
foundational technologies with the potential to improve health, cure 
disease and add new levels of automation and efficiency to our economy 
and everyday life. These same building blocks will be valuable tools to 
both offensive and defensive participants in the cybersecurity domain. 
This discussion will focus on how these capabilities are pivotal to 
building new security defensive architectures, but also examine what we 
need to recognize related to new threats and risks the technologies 
facilitate.
Internet of Things (IoT)
    The combination of Moore's law \1\ and pervasive connectivity have 
lowered the barrier of entry in building and enabling ``smart and 
connected'' devices in almost every aspect of business and consumer 
life in America. Collectively we are referring to these devices as the 
``Internet of Things,'' or IoT.
---------------------------------------------------------------------------
    \1\ In 1965, Gordon Moore, one of Intel's co-founders, made a 
prediction that would set the pace for our modern digital revolution. 
From careful observation of an emerging trend, Moore extrapolated that 
computing would dramatically increase in power, and decrease in 
relative cost, at an exponential pace--from 50 Years of Moore's Law 
Intel article--http://www.intel.com/content/www/us/en/silicon-
innovations/moores-law-technology.html
---------------------------------------------------------------------------
    IoT is defined as endpoint devices such as cars, machinery or 
household appliances that connect to the Internet and generate data 
that can be analyzed to extract valuable information. There are three 
sub-definitions emerging out of the IoT space; however, all three 
definitions overlap. The ``Mobile IoT'' comprises devices like cars, 
wearables, sensors and mobile phones, which all connect directly 
through broadband wireless networks. The ``Industrial IoT'' connects 
devices in industrial environments like factory equipment, security 
cameras, medical devices and digital signs. These devices are able to 
connect to the Internet and into the datacenter (cloud) through an 
industrial ``gateway.'' \2\ Finally, the ``Home IoT'' connects devices 
like game consoles, smart TVs, home security systems, household 
appliances and thermostats through a gateway to the internet.
---------------------------------------------------------------------------
    \2\ A gateway is a node on a network that serves as an entrance to 
another network.
---------------------------------------------------------------------------
    IoT presents staggering economic opportunities for the U.S. and the 
world. Market research firm IDC estimates there will be 50 billion 
connected devices in the marketplace by 2020 \3\, and Morgan Stanley 
forecasts 75 billion in that same time period.\4\ These estimates would 
equate to six to 10 connected devices for every person on earth. 
Whether the exact number of devices is 50 billion, 75 billion or 
something more, one thing is for certain: The number of connected 
devices will explode in the next five years. In just the automotive 
industry alone, it is projected that 250 million (or one in five) cars 
worldwide will be connected to the Internet by 2020--via technologies 
like LTE, satellite and 5G communications networks.\5\ To put this in 
perspective, there were roughly 250 million cars on U.S. roads in 
2013.\6\
---------------------------------------------------------------------------
    \3\ Business Strategy: The Coming of Age of the ``Internet of 
Things'' in Government, IDC (April 2013), http://www.idc.com/
getdoc.jsp?containerId=GIGM01V
    \4\ Morgan Stanley: 75 Billion Devices Will Be Connected To The 
Internet Of Things By 2020, Business Insider (Oct. 2 2013) http://
www.businessinsider.com/75-billion-devices-will-be-connected-to-the-
internet-by-2020-2013-10
    \5\ Gartner Says By 2020, a Quarter Billion Connected Vehicles Will 
Enable New In-Vehicle Services and Automated Driving Capabilities, 
Gartner Inc. (Jan. 26, 2015), http://www.gartner.com/newsroom/id/
2970017.
    \6\ Average Age of Vehicles on the Road Remains Steady at 11.4 
years, According to IHS Automotive, IHS (June 2014) (253M cars on U.S. 
roads in 2013), http://news.ihsmarkit.com/press-release/automotive/
average-age-vehicles-road-remains-steady-114-years-according-ihs-
automotive.
---------------------------------------------------------------------------
    This explosion of devices and technological revolution that is IoT 
is projected to have a staggering positive impact on the U.S. and 
global economy. McKinsey projects IoT will have a $2.7 trillion to $6.2 
trillion global economic impact by 2025.\7\ And what should most excite 
U.S. policymakers is that the U.S. and other developed economies are 
expected to capture a remarkable 70 percent of this economic impact, if 
we develop a leadership position.
---------------------------------------------------------------------------
    \7\ Disruptive Technologies: Advances that will transform life, 
business, and the global economy, McKinsey Global Institute (May 2013), 
http://www.mckinsey.com/insights/business_technology
/disruptive_technologies.
---------------------------------------------------------------------------
    On the other hand, with the growth of IoT, we are rapidly 
approaching 50 billion connected devices (with varying degrees of 
security) that are becoming more and more valuable to attackers. We 
have already seen the beginnings of this trend, as cyberattacks against 
physical assets--from cars to electric power stations--move from 
science fiction to reality.
    It is critical to recognize why IoT devices are interesting targets 
for a cyber attacker. Incentives may range from a cybercriminal 
monetizing an attack by holding a manufacturing facility for ransom or 
a terrorist or nation-state actor executing an attack on critical 
infrastructure or business assets to harm the U.S. economy or cause 
loss of life. As we will see, a key incentive for the bad actor may be 
to expand the attack infrastructure and weaponry they have at their 
disposal.
    One of the major issues in consumer IoT is weak market incentives 
to drive manufacturers to build strong architectures, as the consumer 
buying the device currently places little value on security, especially 
with tight margins in the consumer IoT industries. More worrisome is 
that manufacturers generally don't maintain the security of a device 
throughout its entire practical life. Although a smart TV or thermostat 
may have a three-year warranty, the device will likely function for 
many years beyond that. If security vulnerabilities are identified in 
year five, is the manufacturer compelled to release a fix? What about 
manufacturers that no longer exist? With the rate and pace of the 
creation of smart and connected devices, it is inevitable there will be 
millions of vulnerable orphaned devices that will be ripe for 
exploitation.
    One thing critical to understand is that this is not just a 
consumer problem. One of the questions I'm often asked is why someone 
should care if their light bulb is hacked. What data are they really 
going to steal? And the thing is, they're not going to steal data. 
That's not the concern. The concern is weaponizing that lightbulb to 
become part of the larger attack scenario. And that attack scenario can 
impact infrastructure, it can impact organizations and it can impact 
companies. The impact of insecure consumer devices is an issue that 
needs to be comprehended well beyond just the consumer who purchased 
the device.
    This is exactly what we saw in October 2016 with the Mirai attack. 
You may also hear it called the Dyn attack because it was targeting the 
Dyn DNS infrastructure. Mirai was a botnet that spread by finding 
generally inexpensive internet-connected consumer devices. These 
devices didn't have traditional vulnerabilities; they were vulnerable 
because the manufacturers had left integrated privileged accounts with 
weak passwords. The botnet grew by having compromised devices play two 
roles. They would search for other vulnerable devices and ``recruit'' 
them to join the botnet as well as check in with a command and control 
infrastructure to see if there were any attack actions they needed to 
take. The attackers who launched this attack issued a set of commands 
that flooded the Dyn infrastructure, resulting in major technology 
sites falling off-line for the better part of a day. The attackers 
could use this infrastructure to attack any organization, and we should 
think of the October incident as merely the beginning of this type of 
scenario.
    To prove this out, my team ran a test in January, months after this 
attack. The experiment consisted of placing a simulated vulnerable 
device on an open network to see how long it would take a device to get 
compromised by this botnet. Literally at the one minute, six second 
mark, it was exploited. If this were a real device it would now be part 
of the broader botnet infrastructure.
    When we think about attack scenarios it comes down to understanding 
one thing--risk. Security upgradability and patching are critical. 
Vendors need to design these critical capabilities into the products 
they offer to consumers. They also need a plan to deal with critical 
security vulnerabilities discovered even after devices are out of 
warranty. We also need to raise consumer awareness so that buying 
decisions have people consider security the way they think about other 
things today (e.g., is this device from a reputable manufacturer? How 
long will it last?, What is the warranty?).
    There are a number of technologies and approaches to device 
initiation and on-boarding that Intel, its partners and customers are 
working on. We look forward to working with organizations like NIST to 
standardize where appropriate. However, the issue of legacy devices is 
more difficult to resolve, especially since it is likely in the hands 
of consumers to address.
Artificial Intelligence
    Artificial intelligence (AI) comprises a broad field of technology 
that is enabling everything from our search engines to future self-
driving cars and everything in between. It is important to think of AI 
as a set of technologies as opposed to one thing. Just as with every 
other technology in computer science, the attacker and defender 
communities analyze how AI can be used to enhance the capabilities of 
their solutions.
    Attackers are using capabilities in AI to perform a wide range of 
tasks. AI can be used to automate capabilities that formerly required 
human analysis for high levels of effectiveness. For example, in spear-
phishing the attacker's objective is to craft a message that the victim 
will trust or interact with. AI also can be used to build customized 
content automatically for a specific user based on content found within 
their social media information or other feeds. This customized content 
has a much higher success rate than a generic phishing interaction that 
is not user specific. Additionally, in the past the attacker had to 
choose between sending a high-volume of low-quality phishing 
interactions or a low volume of high-quality interactions that were 
crafted by a human. AI allows the attacker to have the best of both--a 
high quality phishing interaction that can be sent to a large number of 
users.
    Another area where AI is an asset to cyber attackers is in victim 
selection. One capability AI is very well suited for is classification 
and scoring based on input data. One use case would be determining 
which of a set of potential targets or environments would be viable to 
breach. Attackers can train their data based on attributes about their 
environments and the effectiveness of past attacks and then focus their 
efforts where they will attain the highest return on their efforts and 
investment.
    By the same token, the characteristics of AI make it a powerful 
tool in defensive tools and technologies for the cybersecurity 
industry. A large portion of a defender's job is processing massive 
quantities of data within an organization and identifying threats. 
There are also many elements in cybersecurity that are ultimately 
classification problems: Is a file malicious? Is behavior malicious? Is 
a user acting differently than the tasks they normally perform? All of 
these questions require data inputs, analysis and a predictive 
conclusion. AI has numerous classification capabilities and algorithms 
that make it a perfect tool for these sorts of tasks. For example, 
Intel Security has recently launched products such as our RealProtect 
technology \8\ that can analyze both the structure and behavior of an 
application using AI techniques to classify it as malicious or benign.
---------------------------------------------------------------------------
    \8\ https://www.mcafee.com/us/resources/white-papers/wp-real-
protect-dynamic-application-containment.pdf
---------------------------------------------------------------------------
    We do need to be mindful that our current state of the art in AI 
and analytics capabilities have limits, both in the field of 
cybersecurity as well as in other fields. Simply having massive 
quantities of data does not necessarily mean there is an underlying 
signal that can be teased out by an algorithm. We have radically 
improved how we do analytics on hurricane forecasting. For example, 
three days before a hurricane makes landfall we can predict where it 
will land to roughly 100 miles of accuracy, whereas 25 years ago, we 
could predict accuracy only to 350 miles.\9\ Yet, although we have 
massive quantities of seismic data, we have not yet found a way to 
reliably predict that a major earthquake is about to occur. The same 
issue occurs in cybersecurity; sometimes there is not a way to detect a 
threat based on the data available.
---------------------------------------------------------------------------
    \9\ https://en.wikipedia.org/wiki/The_Signal_and_the_Noise
---------------------------------------------------------------------------
    There is one element of AI in cybersecurity that separates it 
significantly from AI in other fields. In cybersecurity, there is a 
human bad actor who creates evasion tactics and countermeasures with 
the intent to have the algorithm fail. We don't have this issue in 
other forms of goal-based analytics (e.g., water doesn't choose to 
change the way it evaporates as we get better at hurricane 
forecasting).
    In addition, in cybersecurity we see a trend where every new 
defensive technology loses effectiveness once deployment in the market 
drives adversaries to build countermeasures and evasion tactics. The 
cycle looks like this:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As we are on the leading edge of the deployment curve with many of 
the industry AI-based solutions, it is critical to use forethought into 
how bad actors will work to circumvent AI-based capabilities. Examples 
of techniques we are analyzing and tracking include machine learning 
poisoning and forcing defenders to recalibrate models or raise the 
noise floor. In the field of cybersecurity defense there is never a 
silver bullet defense, but rather a constant pipeline of innovation for 
both the attacker and defender.
Blockchain
    Blockchains have gained a lot of attention as they provide key 
benefits across a wide range of applications. Blockchains first emerged 
as the technology behind the cryptocurrency Bitcoin. Blockchains, 
however, have much broader use cases, including identity management, 
marketplaces and supply chain management. The potential of the 
technology is considered disruptive and has been described as 
potentially impacting transactions in the same way the Internet 
affected communications.
    Blockchain makes use of cryptographically supported immutable 
ledger and distributed consensus protocols to facilitate the exchange 
of assets between two untrusted parties, eliminating the need for 
intermediaries. Any networked ecosystem with a central authority for 
transaction authorization could potentially use a blockchain in the 
future as a replacement. In more detail, blockchain ensures the 
integrity of the ledger. It is an immutable series of transactions 
shared by all participants in the ledger. Cryptographic signatures 
ensure correctness and guarantee ``non-repudiation'' (that is, once a 
transaction is committed to the blockchain, it cannot be un-committed). 
Distributed consensus algorithms ensure all participants see the same 
series of transactions even if bad actors try to compromise the system.
    Blockchain technologies can provide a significant contribution to 
the improvement of efficiency and integrity in transactions in a 
variety of areas, including finance and healthcare. In addition, 
elements of blockchain technologies have been tested in a variety of 
use cases and contexts, including e-government and health data 
protection, notary services, supply chain; secure contracting and 
document delivery; identity; real estate systems, and many more. In 
order to ensure successful incorporation of blockchain in various 
technology ecosystems, it is necessary to improve reliability, 
scalability, security and privacy.
    These goals cannot be achieved without the support of the features 
in hardware. Intel has been paying close attention to the developments 
in blockchain. Intel is developing products for blockchain and 
participating in blockchain ecosystem development via a number of 
initiatives, including the Linux Foundation's Hyperledger \10\, the 
Ethereum Enterprise Alliance and an Intel's open source distributed 
ledger \11\. Intel is testing its open source distributed ledger in 
proof-of-concept (POC) environments in partnership with various 
external companies to improve the integrity and applicability of the 
technology. Intel's focus has been on developing hardware functionality 
that will make it possible to operate blockchains on a commercial scale 
with greater security and support for privacy, thus creating promise 
for commercial deployment in several segments.
---------------------------------------------------------------------------
    \10\ https://www.hyperledger.org/
    \11\ http://intelledger.github.io/0.8/
---------------------------------------------------------------------------
    While the core capabilities of blockchain add tremendous efficiency 
and de-centralized authorization of transactions, these same 
properties, like many other innovations, have also been used for 
nefarious purposes. Blockchain enabled crypto-currencies, such as 
Bitcoin, are the preferred financial instrument of cybercriminals 
focused on executing ransomware. Ransomware is an efficient cybercrime 
in which criminals are paid directly by the victim. From the 
cybercriminal's perspective, there is no need to digitally fence stolen 
data or worry about data becoming devalued (such as stolen credit card 
numbers being canceled).
    A typical ransomware scenario occurs when a cybercriminal gains 
access to a victim's (individual or organization) system and encrypts 
data that has value to the victim. The victim is then informed that 
their data is being cryptographically held hostage, and if they want 
their data back, they must pay a ransom. Ransom is typically paid in 
cryptocurrency based on blockchain, such as bitcoin, as it is easy to 
move the funds multiple times and difficult to map the underlying 
holder of a bitcoin wallet to a true individual. Ironically, market 
forces encourage cybercriminals to uphold their end of the bargain and 
typically do provide keys after payment to uphold the reputation of the 
ransomware model. Ransomware became practical when the usability of 
cryptocurrencies reached a level that victims were technically 
competent enough to use the system to make a payment.
    We see an interesting phenomenon in ransomware in that 
cybercriminals appear to be moving to harder targets as profit pools 
dry up on soft targets. Ransomware started by targeting consumers, then 
moved to soft target organizations such as hospitals, police stations 
and universities. We now see ransomware impacting corporations and 
organizations. This is a worrisome trend in that critical 
infrastructure now presents incentives to not only be targeted by 
terrorists and nation-states, but also by cybercriminals. Nation states 
are cautious about actively attacking critical infrastructure as an 
attributed response could cause an undesirable reciprocal response. As 
it becomes more difficult to monetize consumers and organizations, 
cyber criminals could see a path to hold power, water or other critical 
systems for ransom by demanding payment by the government. We should 
understand these scenarios and work to understand potential policy 
impacts and coordinated responses prior to these scenarios playing out.
Quantum Computing
    Quantum computing is a form of computing that relies on the 
principles of quantum physics to solve specialized classes of 
mathematical problems that are not practical to solve on traditional 
computers. Quantum computers use quantum bits (qubits), unlike digital 
computers, which are based on transistors and require data to be 
encoded into binary digits (bits). These qubits can exist in multiple 
states simultaneously, offering the potential to compute a large number 
of calculations in parallel, speeding time to resolution.
    It should be noted that quantum computers will not replace 
traditional computers, as they are only effective on certain classes of 
problems, and in many cases perform worse than traditional computing. 
However, quantum computing holds the promise of solving complex 
problems that are practically insurmountable today, including intricate 
simulations such as large-scale financial analysis and more effective 
drug development. It is an area of research Intel has been exploring 
because it has the potential to augment the capabilities of tomorrow's 
high performance computers.
    Another type of mathematical task that quantum computers are 
uniquely qualified to focus on relates to being able to break certain 
cryptographic algorithms. Today, data protection relies on a set of 
algorithms that secures everything from web connections to critical 
data stored or transferred in organizations or governments around the 
world. Some of these algorithms are called ``quantum safe,'' meaning 
the mathematics of the algorithm are not subject to attack by a quantum 
architecture. An example of a quantum safe algorithm is the symmetric 
AES algorithm used for bulk data encryption. Algorithms that are 
``quantum unsafe'' have properties that would create high levels of 
risk that a future quantum architecture could break the encryption. An 
example of a quantum un-safe algorithm is the public key algorithm RSA. 
Unfortunately, most encryption uses these algorithms in combination, 
and being able to break either one places data at risk.
    One might ask why we need to think about this now if the ability to 
have a practical quantum computer is still years off. The reason is 
that encrypted data today can be ``put on the shelf'' by enemy nations 
and bad actors who will wait for the technology to mature. We must 
start to ask, ``how long must data remain secure or secret?'' If the 
answer is one or two years, we are fine using current algorithms. For 
data that must be kept secret for decades or longer, now is the time to 
start the transition to quantum safe algorithms.
    No one company or organization will succeed alone in unlocking the 
path to advanced quantum computing. Instead, partnerships--such as the 
one between Intel and the QuTech institute in Delft, The Netherlands--
in addition to industry collaboration will help realize the promise of 
such a technically complex issue.
    Quantum computing is promising, but there are significant 
challenges to overcome. It is a subatomic scenario that requires 
suspending conventional wisdom around basic physics, where an electron 
can actually be two places at once, spinning clockwise and 
counterclockwise at the same time. This ambiguity is both promising and 
enormously complex--and of course, an incredibly exciting challenge to 
anyone who loves physics, as many at Intel do. How do we connect 
thousands of quantum bits, or qubits, together? How can we control 
them? How can we reliably fabricate, connect and control many more 
qubits? Even measuring qubit signals is going to require an entirely 
new class of low temperature electronics that don't exist today.
    This research is on the cutting edge of silicon, architecture and 
software. As Intel's entire history has been built on driving 
innovations in the very leading edge of all three of these, we're 
excited about the role that our and other great minds can play in 
shaping this technology--which has the potential to shape the world for 
the better and solve problems we cannot solve today.
Policy Recommendations
    Be wary of hard regulations--In cybersecurity the threat landscape 
changes very rapidly. The threat we deem the most serious today may not 
be the most important tomorrow. If regulation were to force 
manufacturers to guard against today's threats, tomorrow's might very 
well slip through the cracks. Additionally, if the government were to 
impose technology mandates, the result would likely be mere compliance 
rather than true security. Regulating in an area like cybersecurity is 
very tricky, and the unintended consequences could outweigh any 
benefits of the regulation.
    Encourage public-private collaborations--It is far better for 
policymakers to collaborate with the private sector on a voluntary 
basis to develop risk-based, flexible frameworks to enhance the 
security of emerging technologies. A best-in-class example is the 
Framework for Improving Critical Infrastructure Cybersecurity, known as 
the NIST Cybersecurity Framework. It is widely acknowledged as a highly 
successful model of public-private collaboration that is being adopted 
by government agencies and critical infrastructure companies. The NIST 
approach succeeded because policymakers and the private sector defined 
a real need, improving the security of critical infrastructures; the 
process was open, NIST listened to the private sector, built trust with 
key stakeholders; and the final product, a flexible framework, was 
based on voluntary collaboration, not rigid regulations. Policymakers 
should keep in mind the recent successes of the NIST framework as a 
positive way to get to their desired outcome.
    Implement Security and Privacy By Design--In addition to partnering 
with the private sector to develop and adopt flexible, voluntary 
security frameworks, policymakers should likewise champion the 
principle of security and privacy by design to help incent broad 
adoption by the key parts of the IoT, AI and quantum computing 
ecosystem. Proper protection of individual privacy in products does not 
just happen. It needs to be designed and engineered in from the 
beginning of the product development process. Security by design also 
means designing security in right from the start. Adding or `bolting 
on' security features to a system, network or device after it's already 
up and running has inherent weaknesses and inefficiencies. IoT is a 
great example where security and privacy protections need to be 
designed in from the start. Attributes such as location, activities, 
health monitoring, finance, etc. need protection from access and 
disclosure unless granted by the owner. AI applications need an 
architecture from the beginning that allows access to high valued data 
while protecting the private information it may be based upon. The use 
of AI for genetic medical research is an example where privacy 
considerations are critical to both protecting patients' privacy, while 
allowing researchers' access to valuable data for them to validate 
hypothesizes.
    Cybersecurity and privacy must be built into the innovative 
equipment, systems and networks at the very start of the design and 
manufacturing process. Both privacy and security must be intrinsic to a 
product development organization's thought processes, its business 
processes, and its design, development, and manufacturing processes. 
Both privacy and security must be embedded in a product or network 
element so they become integral parts of the product's or element's 
functioning. This approach is not only more effective; it is less 
cumbersome and less expensive than trying to lock down systems that are 
leaking personal information or are inherently insecure.
    Revise Vulnerabilities Equities Process--As with all technologies 
and more so with emerging technologies, vulnerabilities will arise that 
need to be corrected to assure proper operation of the solution, 
assuring its safety and security. The issue of vulnerability disclosure 
has been a subject of debate for some time. Currently there are 
concerns about how the U.S. Government deals with zero-day 
vulnerabilities that its agencies, and those acting on its behalf, 
discover. The government should revise its vulnerability equities 
review and disclosure policies to allow greater transparency on how the 
government is implementing the vulnerabilities equities process. A 
revised policy would do much to enhance trust in the IT eco-system, 
something particularly important in the context of the emerging 
technologies we have been discussing today.
Conclusion
    It has been an honor to testify before such a distinguished panel 
of legislators. We face a cybersecurity threat landscape that is 
constantly evolving with each new technology that is brought to market 
at a faster pace than ever before. Rapid advances in hardware and 
software are creating new categories of innovative technologies such as 
the Internet of Things, artificial intelligence, quantum computing, and 
blockchain algorithms.
    All of these innovative technologies merit attention from 
policymakers given their potential to solve complex problems, grow new 
markets and create high wage jobs. At the same time, these innovations 
can also create new security challenges and opportunities that need to 
be addressed in a thoughtful, prudent manner. Toward that end, we 
encourage policymakers to partner with the private sector to develop 
flexible, voluntary and market-based solutions, rather using regulatory 
models to address the challenges of emerging, innovative technologies. 
Policymakers are in a position to incent the ecosystem of emerging 
technology providers to adhere to the principle of security by design. 
By working together, policymakers and the private sector can harness 
the benefits of innovation while also addressing its challenges.

    The Chairman. Thank you, Mr. Grobman.
    Mr. Harkins?

STATEMENT OF MALCOLM HARKINS, CHIEF SECURITY AND TRUST OFFICER, 
                          CYLANCE INC.

    Mr. Harkins. Thank you, Chairman Thune, Ranking Member 
Nelson, and others of the Committee. I'm Malcolm Harkins, Chief 
Security and Trust Officer with Cylance Corporation.
    I'd like to start by telling you a story that I think will 
add some perspective to the promise and the peril of emerging 
technologies. The story starts in 2013 when the FDA approved an 
experimental eye surgery: high-tech sunglasses with a camera, 
video processing unit, a graphics processing unit, small 
operating system, a retinal implant.
    In June 2015, a 59-year-old gentleman in Ohio had that 
surgery. The concept was that with computing and with 
capabilities, we could perhaps transform this person's life, 
change their outcome, get them to regain their sight. That's 
the hope and the promise of technology. That's what computing 
can do, to connect and enrich lives, to create social benefit, 
to create economic benefit.
    Now, what happened in June 2015 when he had that surgery--
several weeks, a couple of months later--and I'll quote from 
him--``The other day, I asked my wife, Karen, to point me to 
the Moon to see if I could see it. I couldn't. But I turned 
around and I suddenly saw her face.'' That is what computing 
can do for us if we do it right. But the one thing that's true 
about computing is any device that computes can also execute 
code, which means it has the potential to execute malicious 
code.
    Now, imagine that visor, those high-tech sunglasses, on 
that gentleman. If it was poorly designed, developed, and 
implemented, and it had the ability to execute malicious code, 
and you hold a QR code in front of that person's face, you flip 
bits, and they get held hostage to paying Bitcoin to get their 
eyesight back. That's the peril.
    You know, we have problems today in the world that we're 
facing. We see them day in and day out across the headlines. I 
believe we can't solve tomorrow's problems until we look at the 
problems we have today. Otherwise, we'll carry forward the risk 
issues that we're seeing today.
    Having run risk and security in a large enterprise as well 
as a small enterprise now for 16-plus years, I can tell you 
there are two battlefields that the Chief Information Security 
Officer or Chief Security Officer faces in an organization 
today. There's the external battlefield that we see day in and 
day out. We see in the press, the threat actors and the threat 
agents that are coming after us.
    But let's look at some of the data on that external 
battlefield. A recent ISSA survey said that 45 percent of 
cybersecurity professionals, the people that run security in 
their organizations, said their organizations are significantly 
vulnerable, and 47 percent said they're somewhat vulnerable. 
Ninety-two percent of the cybersecurity professionals in 
organizations think that their organizations are vulnerable.
    Another recent survey: 61 percent of organizations today 
have ransomware in their organization. Another survey from 
Europol on the Internet Organized Crime Threat Assessment 
Report--their look at all the investigations they've done over 
the past couple of years--the majority of attacks are neither 
sophisticated nor advanced. Techniques are re-used, re-cycled, 
and re-introduced.
    On the internal battlefield, again, some additional 
surveys. Twenty-one percent of chief information security 
officers say that executive management treats cyber risk as a 
low priority. Sixty-one percent of the turnover for chief 
information security officers, which happens about every 2 to 3 
years, is predominantly because of the lack of a serious 
cybersecurity culture in their organizations.
    Now, I don't believe all is lost. I think there's hope. I 
think there's promise. We can do better. Dr. Paul Sieving, the 
Director of the National Eye Institute in the National 
Institutes of Health, said in September of 2015 after the 
surgeries to get people back their vision, ``When you know the 
cause of something, you can begin to think about how to 
ameliorate it.'' We know the cause. We know the cure. We can 
put better security development, lifecycle and privacy by 
design to lower the vulnerabilities in technology prior to its 
implementation.
    We also know the cure for today's problem. We can leverage 
advances in artificial intelligence and machine learning. 
Cylance is doing that today. We've already proven that we can 
unlock the DNA, have an atomic level of malicious code, and 
preempt prior to the execution of code its ability to do harm. 
We can do it in milliseconds.
    I think if we step back and look at all these things, and 
we put ourselves in a better position to drive business 
outcomes for the promise of technology, we'll be better apt to 
avoid the peril. And I think if we do that, and do that right, 
we can do three things. We can create a demonstrable and 
sustainable bend in the curve of risk. We can lower the total 
cost of controls in organizations that's growing unchecked and 
unmitigated, just like the risks are. And we can reduce the 
control friction that gets created because the security 
solutions that are deployed today disrupt the ability to 
compute, they disrupt the user experience, and they become a 
drag coefficient on the business velocity of organizations.
    Thank you.
    [The prepared statement of Mr. Harkins follows:]

    Prepared Statement of Malcolm Harkins, Chief Security and Trust 
                         Officer, Cylance Inc.
    Good morning Chairman Thune, Ranking Member Nelson, and other 
members of the Committee. Thank you for the opportunity to testify 
today. I am Malcolm Harkins, Chief Security and Trust Officer for 
Cylance Inc. I am pleased to address the Committee on how emerging 
technologies such as artificial intelligence, the Internet of things, 
blockchain (the technology behind Bitcoin), and quantum computing will 
drive a new generation of cyber vulnerabilities. Every evolution of 
technology holds the promise of innovation and creates unique security 
risks. However, with the proper design and forward looking 
considerations these emerging technologies can also be used to combat 
cyber threats more effectively.
    My testimony will focus on the following areas

  <bullet> The innovation cycle and how that is fueling emerging 
        technologies which are leading to digital transformations that 
        present tremendous opportunity for economic as well as societal 
        benefit.

  <bullet> The information risk and security implications for these 
        emerging technologies. The potential impacts and concerns to 
        individuals, business, and government agencies if the creators 
        do not provide proper security capabilities as they design, 
        develop, implement, and maintain these new innovations.

  <bullet> The cybersecurity opportunities these technologies offer to 
        enable better risk mitigation thru prevention rather than 
        today's norm of react and response.

  <bullet> How we should be framing the digital opportunities in front 
        of us so that we can achieve digital transformation and digital 
        safety to ensure tomorrow is better than today.

    First, I would like to provide some background on my experience and 
Cylance's commitment to cybersecurity.
    As Chief Security and Trust Officer for Cylance, I am responsible 
for enabling business growth through trusted infrastructure, systems, 
business processes and staff training. I have direct organizational 
responsibility for information technology, information risk and 
security, as well as security and privacy policy. I am also responsible 
for peer outreach activities to drive improvements and understanding of 
cyber risks. I work with business leaders, industry peers, security 
experts and regulatory partners to develop best practices for managing 
and mitigating those risks.
    Prior to joining Cylance in 2015, I spent almost 24 years at Intel 
Corporation. My last role at Intel, which I held for more than 2 years 
was Vice President and Chief Security and Privacy Officer (CSPO). In 
that role, I was responsible for managing the risk, controls, privacy, 
security, and other related compliance activities for all of Intel's 
information assets, products, and services. Before becoming Intel's 
first CSPO, I was the Chief Information Security Officer (CISO) 
reporting into the Chief Information Officer. Over my years at Intel I 
also held roles in Finance, Procurement, and other business operational 
positions.
    I have been fortunate to receive both peer and industry recognition 
over the years including the RSA Excellence in the Field of Security 
Practices Award, Computerworld Premier 100 Information Technology 
Leaders, Top 10 Break-away Leaders at the Global CISO Executive Summit, 
and the Security Advisor Alliance Excellence in Innovation Award. I 
have authored many white papers, blogs, and articles. In December 2012 
I published my first book, Managing Risk and Information Security: 
Protect to Enable. I was also a contributing author to Introduction to 
IT Privacy, published in 2014 by the International Association of 
Privacy Professionals. The 2nd edition of my book, Managing Risk and 
Information Security: Protect to Enable, was recently published in 
August of 2016.
Cylance's Commitment to Cybersecurity
    Cylance was founded in 2012 by Stuart McClure and Ryan Permeh with 
the sole purpose of revolutionizing cybersecurity by replacing outdated 
reactionary security models with proactive prevention based security 
using artificial intelligence and machine learning to stop attacks 
before they occur.
    Stuart McClure previously served as the Global CTO of McAfee/Intel 
Security business and is the founding/lead author of the international 
best-selling book Hacking Exposed. Ryan Permeh previously served as 
Chief Scientist at McAfee/Intel Security and is the brain behind 
Cylance's mathematical architecture and new approach to security. In 
building Cylance, Mr. McClure and Mr. Permeh brought together the best 
data science, security and executive minds from the likes of Cisco, 
Sourcefire, Google, Symantec, McAfee and several Federal intelligence 
and law enforcement agencies to create a new security model that is 
focused on prediction of attacks and preventing them from occurring.
    Cylance is the first company to apply artificial intelligence, 
algorithmic science, and machine learning to cybersecurity and improve 
the way companies, governments, and end-users proactively solve the 
world's most difficult security problems. Using a breakthrough 
predictive analysis process, Cylance quickly and accurately identifies 
what is safe and what is a threat, not just what is in a blacklist or 
whitelist. By coupling sophisticated artificial intelligence and 
machine learning with a unique understanding of an attacker's 
mentality, Cylance provides the technology and services to be truly 
predictive and preventive.
    Leveraging cutting-edge artificial intelligence and machine 
learning, our flagship product CylancePROTECT offers future-proof 
prediction and prevention of the most advanced threats in the world 
including advanced persistent threats, zero-days, and exotic 
exploitation techniques never seen before. CylancePROTECT also guards 
from everyday viruses, worms, ransomware, spyware/adware, Trojan horse 
attacks and spam.
    The problem with legacy security solutions is that adversaries can 
continually evolve their techniques and tactics to bypass them, leaving 
enterprises exposed to attacks. This means that traditional solutions 
are reactive in nature and rely on a constant stream of ``signature 
updates'' that tell these solutions what type of files to look for 
after an attack was successful on some other system, these are called 
``zero-day'' attacks. Traditional security solutions are built around a 
basic set of rules and signature files that are costly and high risk 
because they require a zero-day ``sacrificial lamb'' before they can 
create the ability to block an attack, meaning it is not possible to 
identify a new threat until after the damage is done. But 
CylancePROTECT is different--it can identify and defuse even never-
before-seen attacks prior to execution. This means that we can stop new 
variations of attacks without a zero-day sacrificial lamb. Our AI-based 
solution is flexible and can support new generations of technologies 
such as the Internet of things and many others.
    Our commitment to cybersecurity was well demonstrated and 
documented in September 2016 House Oversight committee report on the 
OPM data breach. ``The committee obtained documents and testimony that 
show internal bureaucracy and agency politics trumped security 
decisions, and that swifter action by OPM to harden the defenses of its 
enterprise architecture by deploying PROTECT would have prevented or 
mitigated the damage that OPM's systems incurred.'' OPM IT Security 
Officer Jeff Wagner said in an e-mail that Cylance was able to find 
things that other tools could not ``because of the unique way that 
Cylance functions and operates. It doesn't utilize a standard signature 
or heuristics or indicators, like normal signatures in the past have 
been done. It utilizes a unique proprietary method.'' The effectiveness 
of Cylance at OPM meant that upon our engagement in less than 10 days 
2,000+ pieces of malware were identified that had previously not been 
stopped or detected across 10,000+ hosts that are now protected by 
CylancePROTECT.
The Innovation Cycle Of Emerging Technologies
Understanding these innovations and the digital opportunities they 
        offer
    The march of technology can be viewed as a succession of major 
waves, each lasting roughly 100 years (Rifkin 2013). Each wave has 
brought transformative benefits to society, but also significant 
challenges. The first wave, starting in the 1760s, included steam 
power, railways, and early factories as well as mass education and 
printing. The second wave, starting roughly in the 1860s and continuing 
well past the mid-1900s, included automobiles, electricity, mass 
production, and had an even bigger effect on society.

 
   Version 1.0: 1760s       Version 2.0: 1860s      Version 3.0: 1990s
 
Steam and coal           Electric lights          The Internet
Railways                 Communications           Molecular biology
Factories                Oil & gas                Renewable energy
Printing press           Mass production          ``Smart'' everything
Mass education           Automobiles
 

    The third wave began in the 1960s, with early computers, but only 
really gained momentum in the 1990s. It includes the Internet and smart 
``things'', molecular biology and genetic engineering, and renewable 
energy. Arguably, this technology wave may have the broadest impact on 
society of any to date. Each previous wave lasted about 100 years, so 
history suggests that we are far from reaching the crest. To provide 
some perspective--if we thought of this wave as a movie, we'd still be 
watching the opening credits.
    The Internet of Things (IoT) has come upon us at a fast and furious 
pace. It gets discussed and hyped constantly, but sometimes without a 
clear definition. And, as such, the phrase can mean different things to 
different people. But a simple way to think about it is that any 
powered device will compute, communicate, and have an IP address--
meaning it is connected to a network. The Internet of things allow 
devices to be sensed or controlled remotely across the Internet. This 
has created opportunities for more direct integration of the physical 
world into computer systems. When IoT is augmented with various sensors 
we have what is often defined as smart grids, smart homes, and smart 
cities. Each IoT device has an embedded computing system and is able to 
interoperate within the existing Internet infrastructure. Many estimate 
indicate that the IoT will consist of more than 50 billion devices by 
2020, some estimates top 70 billion devices.
    IoT devices or objects can refer to a wide variety applications 
including everything from a heart monitoring implant or pacemaker to 
biochip transponders on farm animals or children's toys such as an 
Internet connected Barbie doll. Current market examples include home 
automation, such as Google Nest, which can provide control and 
automation of lighting, heating, ventilation, air conditioning (HVAC) 
systems, and appliances such as washer/dryers, robotic vacuums, air 
purifiers, ovens or refrigerators/freezers that use Wi-Fi for remote 
monitoring.
    In November of 2016, Louis Columbus from Forbe's wrote, ``This 
years' series of Internet of Things (IoT) and Industrial Internet of 
Things (IIoT) forecasts reflect a growing focus on driving results 
using sensor-based data and creating analytically rich data sets. What 
emerges is a glimpse into where IoT and IIoT can deliver the most 
value, and that's in solving complex logistics, manufacturing, 
services, and supply chain problems.''




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: Forrester--The Internet Of Things Heat Map 2016, Where IoT 
Will Have The Biggest Impact On Digital Business by Michele Pelino and 
Frank E. Gillett January 14, 2016

    Quantum Computing is also emerging quickly. In 2011 Microsoft 
created a Quantum Architectures and Computation Group with a mission to 
advance the understanding of quantum computing, its applications and 
implementation models. In February 2017, Brian Krzanich, CEO of Intel 
said he was ``investing heavily'' in quantum computing during a 
question-and-answer session at the company's investor day. Earlier this 
month in March 2017, IBM announced that it's planning to create the 
first commercially-minded universal quantum computer.
    Today's computers work by manipulating bits that exist in one of 
two states: a 0 or a 1. Quantum computers aren't limited to two states. 
By harnessing and exploiting the laws of quantum mechanics to process 
information a quantum computer can encode bits which contain these 
multiple states simultaneously and are referred to as Quantum bits or 
``qubits''. Quantum computing has the potential to be millions of times 
more powerful than today's most powerful supercomputers. Last year, a 
team of Google and NASA scientists discovered a D-wave quantum computer 
was 100 million times faster than a conventional computer.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: Universe Review

    This means that may computing challenges and difficult computation 
tasks, long to be thought impossible (or ``intractable'') for classical 
computers will be achieved quickly and efficiently by a quantum 
computing. This type of leap forward in computing could allow for not 
only faster analysis and computation across significantly larger data 
sets. It would reduce the time to discovery for many business, 
intelligence and scientific challenges which include improving energy 
grids, protecting and encrypting data, simulations of molecules, 
research into new materials, development of new drugs, or understanding 
economic catalysts. Quantum Computing can reduce time spent on physical 
experiments and scientific dead ends resulting lower costs and faster 
solutions that can provide economic and societal benefit.
    Blockchain as many people know it is the technology behind Bitcoin. 
A blockchain is a distributed database that maintains a continuously 
growing list of ordered records called blocks. Each block contains a 
timestamp and a link to a previous block. By design, blockchains are 
inherently resistant to modification of the data. Once recorded, the 
data in a block cannot be altered retroactively. Blockchains are an 
open, distributed ledger that can record transactions between two 
parties efficiently and in a verifiable and permanent way. The ledger 
itself can also be programmed to trigger transactions automatically.
    The technology can work for almost every type of transaction 
involving value, including money, goods and property. Its potential 
uses are wide ranging: from collecting taxes to more effectively 
managing medical records to anything else that requires proving data 
provenance.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: WEFORUM.ORG

    Artificial Intelligence is progressing rapidly with everything from 
SIRI to self-driving cars relying on it automate specific tasks. While 
there is a wide variety of definitions of AI. Artificial intelligence 
today is properly known as narrow AI (or weak AI), in that it is 
designed to perform a narrow task (e.g., only facial recognition or 
only Internet searches or only driving a car). However, the long-term 
goal of many researchers is to create general AI (or strong AI). While 
narrow AI may outperform humans at whatever its specific task is, like 
playing chess or solving equations, general AI would outperform humans 
at nearly every cognitive task.
    Machine learning is a branch of artificial intelligence (AI). 
Machine learning is also one of the most important technical approaches 
to AI. It is the basis of many recent advances and commercial 
applications of AI. Machine learning is a statistical process that 
starts with a body of data and tries to derive a rule or procedure that 
explains the data or can predict future data.
    A simple way to describe how ML works is as follows: In traditional 
programming, you give the computer an input--let's say 1+1. The 
computer would run an algorithm created by a human to calculate the 
answer and return the output. In this case, the output would be 2. 
Here's the crucial difference. In machine learning, you would instead 
provide the computer with the input AND the output (1+1=2). You'd then 
let the computer create an algorithm by itself that would generate the 
output from the input. In essence, you're giving the computer all the 
information it needs to learn for itself how to extrapolate an output 
from the input. In classrooms, it's often stated that the goal of 
education is not so much to give a growing child all the answers, but 
to teach them to think for themselves. This is precisely how machine 
learning works.
    AI has applications in everything from Agriculture for crop 
monitoring, automated irrigation/harvesting (GPS-Enabled) Systems to 
the Media and Advertising industry with Facial Recognition Advertising.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: BofA Merrill Lynch Global Research
The Information Risk and Security Implications
The digital disasters that could be created if we don't manage the 
        risks ahead
    These day, it's hard to read an online news source, pick up a 
newspaper, or watch TV without seeing reports of new threats: 
cybercrimes, data breaches, industrial espionage, and potential 
destruction of national infrastructure. These reports inevitably leave 
the impression that we are drowning in an inexorable tide of new and 
terrifying threats. Reports such as; ``CloudPets' woes worsen: Webpages 
can turn kids' stuffed toys into intrusive audio bugs'' read the 
headline on March 1, 2017 posted on The Register by Richard Chirgin. 
``Fatal flaws in ten pacemakers make for Denial of Life attacks'' wrote 
Darren Pauli on December 1, 2016. Whether it is these headlines or the 
ones from June 2015 reporting ``that hacker's show how to remotely 
crash a Jeep from 10 miles away'' or the countless other headlines 
communicating vulnerabilities found or the breaches that have occurred, 
there is one common denominator that exists today and will exist 
tomorrow. Any device that executes code has the ability to be 
compromised and execute malicious code.
    Emerging technology such as IoT, Blockchain, quantum computing, and 
artificial intelligence offer tremendous promise for benefit, but if 
poorly designed, developed, and implemented and there is a likely 
ability to execute malicious code harm will occur. The variety of risks 
and impacts to individuals, to our businesses, the economy, and 
potentially to society could be wide ranging and financial significant.
    When assessing risk, I think it is important to look at data. Here 
is some data from recent surveys and studies:
2016 Europol Internet Organized Crime Threat Assessment Report

  <bullet> Increase acceleration of previous threat and vulnerability 
        trends

  <bullet> APT and cybercrime boundaries blur

  <bullet> Majority of attacks are neither sophisticated nor advanced: 
        techniques are reused, recycled, and re-introduced

  <bullet> Investing in prevention may be more effective than 
        investigating
2016-2017 National Association of Corporate Directors Public Company 
        Governance Survey

  <bullet> Cybersecurity threats are expected to have the fifth 
        greatest effect on a company in the next 12 months

  <bullet> 75 percent of respondents report short term performance 
        pressures compromise management and the board's ability to 
        focus on the long-term

  <bullet> Directors continue to wrestle with effective oversight of 
        cyber risk. Many of them lack confidence that their companies 
        are properly secured and acknowledge that their boards do not 
        possess sufficient knowledge on this growing risk
ISSA--Through the Eyes of Cyber Professionals--Part 2

  <bullet> 45 percent of cyber professionals think their organizations 
        are significantly vulnerable to cyberattacks

  <bullet> 47 percent think their organizations are somewhat vulnerable 
        to cyberattacks

  <bullet> 40 percent of cyber professionals want goals established for 
        IT around cybersecurity

  <bullet> 44 percent of cyber professionals indicate they do not get 
        enough time with the board

  <bullet> 21 percent say that business and executive management treat 
        cybersecurity as a low priority

  <bullet> 61 percent of CISO turnover is due to a lack of a serious 
        cybersecurity culture and not active participation from 
        executives

    The conclusion that I can draw from this data, as well as all the 
headlines we see daily on breaches, including the March 9th 2017 
headline from Tara Seals at Information Security Magazine that read 
``61 percent of Orgs Infected with Ransomware'' is this: We are not in 
aggregate doing a good job today managing our risk. We need to do 
better. We have to do better. Not only do we need to make immediate 
improvements today we need to get in front of our future risks. 
Otherwise, the potential we have in front of us with technological 
advancements, which can benefit individuals, business, government and 
our society will be called into question.
We Can Do Better at Controlling for Risk Today as Well as Tomorrow
Emerging technologies, coupled with the right risk profile and control 
        assessment frameworks enable better risk mitigation.
    In the world of cybersecurity, the most frequently asked question 
focuses on ``who'' is behind a particular attack or intrusion--and may 
also delve into the ``why''. We want to know whom the threat actor or 
threat agent is, whether it is a nation state, organized crime, an 
insider, or some organization to which we can ascribe blame for what 
occurred and for the damage inflicted. Those less familiar with 
cyberattacks may often ask, ``Why did they hack me?''
    These questions are rarely helpful, providing only psychological 
comfort, like a blanket for an anxious child, and quite often distract 
us from asking the one question that can really make a difference: 
``HOW did this happen?''
    The current focus on the WHO and the WHY does the industry and 
everyone else in general very little service. We need to rethink and 
refocus the Security Risk Equation to examine how the attack occurs to 
prevent them in the future.
    Let's start by looking at the popular ``risk equation'' commonly 
used when assessing the possibility of a breach or cyberattack:

        Risk = Threat x Vulnerability x Asset Value or Consequence/
        Impact

    As someone who has been responsible for managing information risk 
and security in the enterprise for 15-plus years, I have thought 
through this equation countless times strategically, as well as 
tactically, during an incident. The conclusion I have arrived at over 
and over and over again is that I have little control or influence over 
threat actors and threat agents--the ``threat'' part of the above 
equation. The primary variable I do have control over is how vulnerable 
I am--meaning the strength of my present as well as my future control.
    From a consequence and impact perspective there are only three 
primary consequences we need to focus on Confidentiality, Integrity, 
and Availability. Each of these have different potential impacts to an 
individual, to an organization, or more broadly to society depending on 
the technology or data attacked. When we examine ``how'' attacks are 
accomplished we see three core targets for attacks:

  <bullet> Attacks on identity credentials

  <bullet> Attacks focused on the execution of malware

  <bullet> Attacks that create a Denial of Service

    So what must always be analyzed and reported on is HOW an intrusion 
or attack was successful, so we can give attribution to either the 
control(s) that failed, the lack of control(s), and to those 
responsible for maintaining proper control.
    A great example of this sort of investigation and analysis is the 
House Committee on Oversight and Government Reform OPM breach report 
which occurred in September of 2016 and in the subsequent report 
published in January 2017 by the Office of the Director of National 
Intelligence on Background to ``Assessing Russian Activities and 
Intentions in Recent U.S. Elections: The Analytic Process and Cyber 
Incident Attribution.'' There are a few important items to note from 
the upfront background section:

  1)  ``Intelligence Community judgments often include two important 
        elements: judgments of how likely it is that something has 
        happened or will happen (using terms such as ``likely'' or 
        ``unlikely'') and confidence levels in those judgments (low, 
        moderate, and high) that refer to the evidentiary basis, logic 
        and reasoning, and precedents that underpin the judgments.''

  2)  The nature of cyberspace makes the attribution of cyber 
        operations difficult, but not impossible. Every kind of cyber 
        operation--malicious or not--leaves a trail. U.S. Intelligence 
        Community analysts use this information, their constantly 
        growing knowledge base of previous events and known malicious 
        actors, and their understanding of how these malicious actors 
        work and the tools that they use, to attempt to trace these 
        operations back to their source.

    The government--which has badges, guns, jails and laws to enforce--
should continue to focus law enforcement and other government agencies 
on attribution related to the source(s) of attacks, so they can take 
action to deter (via conviction and jail time) the threat actors who 
wish to do harm. They can also post an incident if enough evidence 
exists, attempt to detain and prosecute those responsible. However, 
this alone is a completely insufficient forum of attribution and per 
the report itself, has a degree of judgment.
Learning from the History of Attribution
    One thing that can be done with complete certainty is to look 
closely at HOW the threat actors were successful, and hold those people 
and organizations accountable. We can also look back in history and 
learn how every other reported intrusion occurred in the past decade, 
including the now-infamous attacks on Sony, Home Depot, OPM, Yahoo, 
Target, Anthem, and JPMC. This attribution is irrefutable, and the only 
question we now have left to answer is why the same story has presented 
itself over and over again, and why are we (as an industry) failing to 
pay attention to it.
    All of these intrusions have been successful due to one or both of 
the following incidences occurring:

  1)  Control(s) that failed, and/or

  2)  Incomplete or lack of control(s)

    We can attribute the source of these items very simply and with 
certainty by answering two basic questions:

  1)  Who is accountable for the control environment?

  2)  Who created the control(s) that failed?

    So, whom should we really hold accountable for the success of all 
these intrusions? The none-too-flattering answer is that while the 
breached organizations or the creator of the technology that was 
vulnerable may shoulder some of the blame, we can attribute the success 
of these attacks to the in many cases to cybersecurity industry itself.
    Here is the simple reason: the security industry sells controls 
that fail, and do so repeatedly. And here's the rub. These products and 
services don't just fail in extreme conditions or due to highly unusual 
or sophisticated attacks. Every one of the organizations that suffered 
a breach was relying on the capabilities of a security provider that 
failed to prevent the attack.
    Why are these vectors so easy? The simple reason is that in many 
cases, the security solutions deployed don't work with high enough 
success rate to make an attack difficult or even challenging.
Disengaging from the Blame Game
    In order to move forward and refocus our industry's energies on 
making attacks more difficult for malicious actors, we need to break 
free from our own obsessive infatuation with attribution. By investing 
all of our resources into finding out ``whodunnit,'' we get to play the 
victim card to minimize our own responsibilities and limit our 
liabilities. None of that helps the organizations that have been 
breached or the customers and clients who trusted those companies with 
their private information.
    Instead, we need to focus on WHY those intrusions were successful, 
so we can give attribution to the real source of the intrusion--the 
controls that failed or lack of control.
    This form of attribution will bring real accountability, and 
recalibrate our collective sights to take aim at the one variable in 
the risk equation that we have real influence over--our strength of 
control. Then, and only then, can we start to make a difference and put 
a bend in the curve of risk we have been witnessing, versus continuing 
to let it grow unchecked.
Control frameworks that add value
    I have said for years that the core of business-driven security and 
the mission of the information risk and security team is ``Protect to 
Enable.'' When you are protecting to enable people, data, and the 
business, you are proactively engaged upfront and aligned with the 
business on the evaluation of how to achieve the business objective, 
while best optimizing your controls.
    I achieve that through my ``9 Box of Controls'' approach that was 
published in September of 2016 in the second edition of my book--
Managing Risk and Information Security: Protect to Enable. Let me 
explain my perspective on controls. My perspective is rooted in my 
experiences as a business leader and in my many years in Finance, 
including my role as a profit and loss manager for a billion dollar 
business unit in the late 90s. It is a control philosophy that I have 
carried forward in my roles in security, but one that I believe is 
lacking in the industry.
    An important aspect of this perspective is the concept of control 
friction. I've developed a simple framework called the 9 Box of 
Controls, which takes the issue of control friction into account when 
assessing the value as well as the impact of any control, including 
information security.
    I believe that the 9 Box of Controls includes some actionable 
perspective that may be valuable to many organizations facing these 
universal risk challenges. My conversations with peers at other 
companies have validated this view. Many of them are now using the 9 
Box to drive not only tactical, but also strategic discussions in their 
organizations around where they are spending their resources today, and 
where they should be headed long term.
Types of Security Controls
    There are three primary types of security controls: prevention, 
detection and response:

  <bullet> Prevention occurs when an action or control prevents a 
        vulnerability up front in the design and development, or 
        prevents an infection or cyberattack in its tracks before it 
        affects users or the environment

  <bullet> Detection means identifying the presence of a vulnerability 
        or detecting something malicious that has already entered the 
        environment

  <bullet> Response is a reaction to the discovery of a piece of 
        malicious code, attempting to remove it after it has already 
        affected the user or the organization

    From a risk perspective, prevention focuses on minimizing 
vulnerability and the potential for harm, while detection and response 
focus on minimizing damage. When you are focused on minimizing damage, 
the main variables to turn the reactive risk dials are (a) time to 
detect and (b) time to contain.
    There are also three primary approaches one can take to implement a 
control: automated, semi-automated, and manual.

  <bullet> Automated control occurs entirely through machines

  <bullet> Semi-automated control involves some level of human 
        intervention

  <bullet> Manual controls are managed entirely by hand

    The combinations of these control types and automation levels 
comprise the cells of the 9 Box, as shown in the figure below. Risk 
increases as we move from prevention, to detection, to response. Cost 
increases as we move from automated to semi-automated to manual 
controls.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

A Note on Control Friction
    However, there is a third dimension to the 9 Box: control friction. 
As we know, friction is the force that causes a moving object to slow 
down when it comes into contact with another object. Similarly, 
controls can impose a ``drag coefficient'' on business velocity--they 
can slow the user or a business process. Just think of the groan issued 
by PC users when they switch on their machine to complete an urgent 
task, only to find it indisposed for the next half hour due to a patch 
or virus scan. Or think of the impact on time to market if your design 
or development practices are bogged down with slow and cumbersome 
security development lifecycle or privacy by design efforts.
    However, friction is not a fundamental, immutable force like 
gravity or electromagnetism. Instead, we have the ability to determine 
exactly how much control friction we apply. Apply too much control 
friction, and business users may choose to circumvent IT security 
controls or the product security controls in the upfront design of 
technology. This adds not only cost but it also adds risk: because the 
security team lacks visibility into the technology being created or 
used. So it cannot prevent vulnerabilities or compromises, detection 
becomes difficult due to lack of visibility, and in many cases, 
response after the fact becomes the only option.
    If a business adheres to high-friction controls, the long-term 
effect can be the generation of systemic business risk. High-friction 
controls can hinder business velocity; the organization can lose time 
to market and the ability to innovate, and over the long term it may 
even lose market leadership.
    Implementing the NIST (National Institute of Standards and 
Technology) Cybersecurity Framework and continuously walking through 
the macro steps that it outlines is also another approach we should all 
continue to adopt and promote.

  <bullet> Prevention Steps: Identify and Protect.

  <bullet> Reaction Steps: Detect, Respond, and Recover.

    If implemented properly, the NIST framework can set the stage for 
having the right discussion within an organization on information risk. 
It can also, when viewed in the context of the 9 Box of Controls, drive 
a ``shift left and shift down'' to better enablement, which results in 
the lowest risk, lowest cost, least amount of liability, and lowest 
control friction spot--so we can all ``Protect to Enable'' not only our 
organizations for today and tomorrow but also our customers.
    I also hope that with the right discussion we can all focus on 
``not'' positioning the work of managing risk as an ``either this or 
that'' function. We need to recognize and remember compliance does not 
equal security. We need to avoid positioning business velocity vs. 
business control. We need to avoid positioning privacy as a balancing 
act against the need for security. If we start with a mindset of 
trading these items off against each other, we will not be successful, 
because we will design our digital transformation to be at odds with 
the digital control needed to do this right. And then, we will be left 
with throwing money at symptoms after the fact, reactively detecting 
and responding to risk rather than fixing the problem from the ground 
up.
How emerging technologies can help
    Any future security architecture we implement must provide better 
prevention, and it must also be more flexible, dynamic, and more 
granular than traditional security models. A new architecture also 
needs to greatly improve threat management. We need to do this in the 
upfront design, development, and validation during the creation of 
technology to reduce vulnerabilities well before the technology gets 
deployed. And as new attacks appear, we need a security system that is 
able to recognize good from bad in milliseconds, so that it can stop 
the bad and allow the good. For any attack that gets past these 
preventive controls, we need to be able to learn as much as we possibly 
can without compromising the user's computing performance or privacy. 
This information enables us to investigate exactly what occurred, so we 
can take immediate action to mitigate the risk whilst also learning how 
to prevent similar attacks in the future.
    A control architecture should assume that attempts at compromise 
are inevitable--but we should also understand that it is possible to 
achieve real prevention for 99 percent or more of risks that could 
occur, including that of malicious code and zero-day attacks caused by 
mutated malware. Should a piece of malicious code attempt to execute, 
we can then instantly apply artificial intelligence and machine 
learning to analyze the features of files, executables, and binaries to 
stop the code dead in its tracks before it has a chance to harm the 
environment. For the remaining attacks--representing less than 1 
percent of malware--we need to focus heavily on survivability.
    Blockchain as explained early has significant value well beyond 
well beyond the implications a new form of money. By design, 
blockchains are inherently resistant to modification of the data. Once 
recorded, the data in a block cannot be altered retroactively. The 
implications then to use blockchains as a method to overcome many of 
the current weaknesses and vulnerabilities of the Internet and usher in 
a new age of trusted secure transactions is significant.
    Quantum computing also offers exciting possibilities to enhance 
security as well. As mentioned earlier this type of leap forward in 
computing could allow for not only faster analysis and computation but 
across more data sets. Reducing the time to discovery in simulations 
can be used not only to aid research into things like new materials, 
drugs, or industrial catalysts. The tactic can reduce time spent on 
finding vulnerabilities in the design and development cycle for 
technology. This will then lower control friction on the developers of 
technology and increase the probability that they can find and fix a 
vulnerability prior to deployment. Doing so will not only lower secure 
design costs, it will speed up an organizations time to market with 
technology that is inherently less vulnerable to attack. The final 
result will be a broad reduction of societal and individual risks.
    Artificial intelligence and more specifically machine learning are 
here today and Cylance is already demonstrating the impact it can have. 
As I mentioned in the initial section of my testimony Cylance is the 
first company to apply artificial intelligence, algorithmic science, 
and machine learning to cybersecurity and improve the way companies, 
governments, and end-users proactively solve the world's most difficult 
security problems. Using a breakthrough predictive analysis process, 
Cylance quickly and accurately identifies what is safe and what is a 
threat, not just what is in a blacklist or whitelist. By coupling 
sophisticated artificial intelligence and machine learning with a 
unique understanding of an attacker's mentality, Cylance provides the 
technology and services to be truly predictive and preventive.
    In the future artificial intelligence and machine learning will 
also be able to solve other vexing issues that we face today such as 
passwords and identity management used to authenticate and authorize 
users. We will also be able to mitigate distributed denial of service 
attacks using the ability to predict and thus prevent in automated 
fashion the flood of requests that can so easily disrupt an 
organization today.
    JFK once said, ``The problems of the world cannot be solved by 
skeptics or cynics whose horizons are limited by the obvious realities. 
We need men who can dream of things that never were and ask why not.'' 
When AI, quantum computing, and blockchain are combined with right 
approach and right architecture the reduction in risk, the reduction on 
the cost of control, and the reduction in the control friction 
experienced by users and business will be dramatic.
Making Sure Tomorrow Is Better Than Today
The Perils and the Promise of Emerging Technologies for Cybersecurity
    I read an article by Forbes leadership advisor and author Mike 
Myatt just a few weeks ago. I was reminded of something I was told a 
long time ago; ``If there is a conversation you have been avoiding, 
that's the one to have.''
    I think there is a broader conversation that we as a security 
industry, as well as a tech industry, have avoided, and in some cases 
have intentionally distracted others away from having. In reality, 
there are two discussions--one for the creators/users of technology and 
one for the security industry. Both share a common conclusion that 
results in harm to others. Beyond that, both problems have a path 
forward that can address these failings.
What Every CEO Should Know
    Myatt wrote a great piece last month titled Digital Transformation 
or Digital Free Fall: What Every CEO Must Know.
    In the article, he astutely explains, ``Innovation has always been 
synonymous with business survival and that hasn't changed. What has 
changed is the pace and scale at which businesses must innovate to 
remain competitive in a digital world. The speed of technology advances 
in the market are making the old paradigm of first mover versus fast 
follower largely irrelevant--every business must now become some 
version of a first mover.''
    He also goes on to point out that ``Digital transformation is 
really more of a leadership, culture, strategy, and talent issue than a 
technology issue. Real digital transformation occurs when business 
models and methods are reimagined by courageous leaders willing to 
manage opportunity more than risk, focus on next practices more than 
best practices and who are committed to beating their competition to 
the future.''
    In my second book, I published a set of 9 Irrefutable Laws of 
Information Risk. Law #9 states: ``As our digital opportunities grow, 
so does our obligation to do the right thing.'' I believe this is a 
crucial point that was left out of Myatt's piece.
    Courageous leaders in digital transformation realize that business 
survival is also about managing risk, not just managing or chasing 
opportunity. Too many organizations today are chasing digital 
opportunities while risking their customers, and in some cases, 
society. Richard Rushing, CISO at Motorola Mobility, posted in December 
a picture from a presentation that read, ``We're building self-driving 
cars and planning Mars missions--but we haven't even figured out how to 
make sure people's vacuum cleaners won't join botnets.''
The Real Life Implications of Digital Transformation
    Digital transformation as discussed throughout my testimony is 
embedding technology into the fabric of our lives. Typically, these 
technologies are meant to help or assist users, but one key element is 
often overlooked: Exploits that take advantage of technological 
vulnerabilities will increasingly impact the well-being of almost 
everyone in our society. So, it is incumbent upon all of us to properly 
shape the way we design, develop, and implement digital transformations 
to best manage and mitigate the information security, privacy, and 
other risks that are being generated, while still challenging ourselves 
to create technology that helps people.
    The World Economic Forum 2017 Global Risk Report had Cyber 
Dependence in its top five risk trends, just below climate change and 
polarization of societies. It also indicated that ``. . . technology is 
a source of disruption and polarization.'' I also believe technology is 
a tremendous opportunity for economic and societal benefit. I believe 
that technology can connect and enrich peoples' lives--if done 
correctly and for the right reasons.
    The 2017 Edelman Trust report, published recently, agreed that ``we 
have a trust collapse'', adding, ``We have moved beyond the point of 
trust being simply a key factor in product purchase or selection of 
employment opportunity; it is now the deciding factor in whether a 
society can function . . . the onus is on business to prove that it is 
possible to act in the interest of shareholders and society.''
    A growing digital economy relies on trust. Breaking someone's trust 
is like crumpling up a perfectly good piece of paper--you can work to 
smooth it over, but it's never going to be the same. I have said it 
before and I will say it again: Managing information risk isn't about 
saying ``No,'' it's about protecting to enable people, data, and 
business. We have to run towards risk to shape the path of the risk 
curve. CISO's need to do this, ideally, in front of business and 
technological opportunities or, at a minimum, in line with them. That 
is the best way we have to understand the risk dynamics to our 
organizations, shareholders, customers, and society. That is the best 
way to prevent risk that is avoidable in a proactive fashion.
    If we carelessly implement technology in order to chase 
opportunities or simply prove that we can, we won't be successful in 
realizing digital transformations that can change lives and protect our 
people. Instead, we will be setting ourselves up for a digital 
disaster. By focusing on the opportunities along with our obligations 
to implement them right way, we can achieve digital transformation and 
digital safety to ensure tomorrow is better than today for everyone. 
With this mindset, we can avoid not only the digital free fall about 
which Myatt discussed, but also avoid the digital disaster that could 
lie ahead.
Conclusion
    Thank you again for the opportunity to provide testimony. I will be 
happy to answer any questions.

    The Chairman. Thank you, Mr. Harkins.
    Mr. Rosenbach?

 STATEMENT OF HON. ERIC ROSENBACH, FORMER DOD CHIEF OF STAFF, 
FORMER ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND DEFENSE AND 
                        GLOBAL SECURITY

    Mr. Rosenbach. Good morning, Chairman Thune, Ranking Member 
Nelson, distinguished members of the Committee. Thank you very 
much for holding this important hearing, and thank you for the 
invitation. You've heard up until now from a lot of experts on 
the technology and the ecosystem in the United States, and I 
thought it might benefit the members of the Committee to hear 
the cyber perspective at a little bit of a more strategic 
level, based on some of my impressions in cyber issues in the 
last 7 years at the Department of Defense.
    The rapid rise of emerging technologies and the Internet of 
Things will result in essential economic growth for America. 
This is important. The United States must continue to 
outperform competitor nations like China in the development and 
adoption of emerging technologies. These technologies must be a 
true economic center of gravity.
    But as the number of Internet-connected, artificial 
intelligence-driven devices increases, policymakers and 
legislators need to address the associated increase in the 
nation's vulnerability to strategic cyber attacks. The 
fragility of our national cybersecurity posture combined with 
our adversaries' perception that Russia's recent successful 
cyber attacks on the United States will increase the likelihood 
that we will experience more serious attacks in the coming 
years.
    As we unlock new technological innovation, we will live in 
a glass house that must be better protected, and without an 
improved defensive posture, this vulnerability may impact the 
calculus of U.S. national security policymakers down the road. 
Thus, it's important to understand the strategic perspectives 
of two competitors and sometimes adversaries in the cyber 
domain: China and Russia.
    Over the past decade, China has pursued a national strategy 
to challenge the United States world leadership in emerging 
technologies. The Chinese government has invested heavily in 
research and development of technology that underpins 
supercomputing, artificial intelligence, and blockchain. Those 
investments have resulted in genuine achievements. Last year, 
for example, China unveiled the world's fastest supercomputer 
and announced that it owned more of the top 500 supercomputers 
than any other nation in the world.
    Chinese firms and research institutions, nearly always 
supported by state funds, have made advances in artificial 
intelligence that some corporate leaders believe will make 
China the world leader in hardware-based AI within the next 
several years. Over the past 3 years, China has also 
strategically established itself as the world leader in the 
research and deployment of blockchain technologies, 
particularly in the area of financial technology, known as 
Fintech.
    China currently leads the world in the number of citizens 
using Internet payment and Fintech applications, and the 
government continues to facilitate the growth of this sector 
with a permissive regulatory environment and strong investments 
in Fintech firms. China recognizes that the Fintech Revolution 
is about more than fancy payment apps and Bitcoin. It has the 
potential to disrupt the American-dominated financial sector 
and increase Chinese economic influence around the world.
    Although the vast majority of Chinese investment and 
research in these emerging technologies focuses on improving 
the country's economic competitiveness, China also has programs 
dedicated to integrating new technology into security-focused 
cyber capabilities. For example, the Chinese have incorporated 
AI and supercomputing technology into the Great Firewall of 
China. These advances give China an upper hand not only in 
defending their domestic critical infrastructure, but also in 
taking offensive actions against key targets, including the 
United States.
    Moving on to Russia, investment and research in emerging 
technologies are likely a decade behind the U.S. and China. 
However, President Putin has taken a deep personal interest in 
quickly closing this gap. In the meantime, Putin's recognition 
that his military does not have the ability to go head-to-head 
with U.S. next-generation military capability drives the 
Russian strategy to develop cyber capabilities to disrupt new 
technologies in both civilian and military environments.
    In short, the Russians know that they can impact American 
strategic calculus--and control the escalation ladder of 
conflict--by attacking civilian targets in the Internet-of-
Things and the military networks that connect AI-enabled 
weapons. Combined with the Russians' proven deep experience 
with spreading strategic disinformation, this form of cyber 
warfare should be a serious concern.
    Russia's demonstrated willingness to conduct cyber attacks 
against civilian targets is unprecedented and has serious 
implications for a world that relies on the Internet-of-Things. 
Recent Russian cyber attacks against Ukraine took down a 
significant portion of that country's power grid and 
represented one of the first known cyber attacks that resulted 
in a physical effect. But these attacks barely drew criticism, 
let alone action, from the international community.
    Additionally, every American should be deeply concerned 
that the United States democratic system of government was 
attacked by Russia during an important Presidential election. 
This is not a partisan matter. Our democratic system serves as 
an example to the free world. We must overcome politics and 
protect ourselves and allies from being undermined by 
adversaries in the future.
    Without clear action in the near term, the Russians' 
inevitable perception will be that they can conduct strategic 
cyber attacks with impunity. This will likely result in further 
attacks in the future.
    Mr. Chairman, in the interest of time, I'll submit the rest 
of my statement for the record to allow you all to ask as many 
questions as possible.
    [The prepared statement of Mr. Rosenbach follows:]

 Prepared Statement of Hon. Eric Rosenbach, Former DOD Chief of Staff 
  and former Assistant Secretary of Defense for Homeland Defense and 
                            Global Security
    Chairman Thune, Ranking Member Nelson, and distinguished members of 
the Committee, thank you for calling this important hearing on ``The 
Promises and Perils of Emerging Technologies for Cybersecurity'' and 
for the invitation to testify today.
    The rapid rise of emerging technologies and the internet-of-things 
will result in essential economic growth for America. This is 
important: the United States must continue to make the development and 
adoption of emerging technologies an economic center of gravity. But as 
the number of internet-connected, artificial intelligence (AI) driven 
devices increases, policymakers and legislators need to address the 
associated increase in the Nation's vulnerability to strategic 
cyberattacks. The fragility of our national cybersecurity posture, 
combined with our adversaries' perception that Russia's recent 
cyberattacks achieved unprecedented success, increases the likelihood 
that the United States will experience more serious attacks in the 
coming years.
    As we unlock new technological innovation, we will live in a glass 
house that must be better protected. Without an improved defensive 
posture, this vulnerability may impact the calculus of U.S. national 
security policymakers. Thus, it's important to understand the strategic 
perspectives of two competitors and adversaries in the cyber domain: 
China and Russia.
Chinese and Russian Strategy for Emerging Technologies
    Over the past decade, China has pursued a national strategy to 
challenge the United States world leadership in emerging technologies. 
The Chinese government has invested heavily in the research and 
development of technology that underpins supercomputing, artificial 
intelligence, and blockchain. Those investments have resulted in 
genuine achievements. Last year, for example, China unveiled the 
world's fastest supercomputer--and announced that it owned more of the 
top 500 supercomputers than any other nation in the world. Chinese 
firms and research institutions, nearly always supported with state 
funds, have made advances in artificial intelligence that some 
corporate leaders believe will make China the world leader in hardware-
based AI.
    Over the past three years, China has also strategically established 
itself as the world leader in the research and deployment of blockchain 
technologies, particularly in the area of financial technology (known 
as Fintech). China currently leads the world in the number of citizens 
using Internet payment and fintech applications, and the government 
continues to facilitate the growth of this sector with a permissive 
regulatory environment and strong investments fintech firms. China 
recognizes that the ``Fintech Revolution'' is about more than fancy 
payment apps and Bitcoin. It has the potential to disrupt the American-
dominated financial sector and increase Chinese economic influence 
around the world.
    Although the vast majority of China's investment and research in 
these emerging technologies focuses on improving the country's economic 
competitiveness, China also has programs dedicated to integrating new 
technology into security-focused cyber capabilities. For example, the 
Chinese have incorporated AI and supercomputing technology into the 
massive ``Great Firewall of China'' used to isolate Chinese Internet 
users from the outside world. These advances give China an upper hand 
in not only defending their domestic critical infrastructure networks, 
but also in taking offensive actions against key targets, including in 
the United States.
    In Russia, investment and research in emerging technologies are 
likely a decade behind the U.S. and China; however, President Putin has 
taken a deep personal interest in quickly closing this gap. In the 
meantime, the clear recognition that Russia's military does not have 
the ability to go head-to-head with next-generation U.S. military 
capabilities has driven the Russian strategy to develop military cyber 
capabilities to disrupt new technologies in both civilian and military 
environments. In short, the Russians know that they can impact American 
strategic calculus--and control the escalation ladder of conflict--by 
attacking civilian targets in the internet-of-things and the military 
networks that connect AI-enabled weapons. Combined with the Russians' 
proven deep experience with spreading strategic disinformation, this 
form of cyberwar should be a serious concern.
    Russia's demonstrated willingness to conduct cyberattacks against 
civilian targets is unprecedented and has serious implications for a 
world that relies on the internet-of-things. Recent Russian 
cyberattacks against Ukraine, which took down significant portions of 
that country's power grid and represented one of the first known 
cyberattacks that resulted in a physical effect, barely drew 
criticism--let alone action--from the international community. The 
Russians' inevitable perception that they can conduct strategic 
cyberattacks with impunity is likely to encourage further attacks in 
the future.
    Every American should be deeply concerned that the United States' 
democratic system of governance was attacked by a foreign nation during 
an important presidential election. This is not a partisan matter. Our 
democratic system serves as an example to the free world. We must 
overcome politics to protect ourselves and our allies from being 
undermined by our adversaries in the future.
    Chinese and Russian strategies for dealing with emerging 
technologies present the United States with two very different 
challenges: In China, the U.S. faces a competitor who is focused 
primarily on developing next-generation technologies more quickly than 
the U.S. in order displace us as the world's economic and military 
leader. In Russia, the U.S. faces an adversary who seeks use advanced 
cyberattacks and information operations to undermine the strength of 
our democracy and the efficacy of next-generation military 
technologies.
    Although the challenges posed by these nations differ, both cases 
underscore the need for a new national cybersecurity strategy that 
forces bold action and cooperation by the government and private 
sector. To mitigate the risk of cyberattacks, one essential component 
of this strategy should be for the government and private sector to 
invest in and adopt new technologies that will aid cyber defense, such 
as AI-enabled cybersecurity, cloud-based security-as-a-service 
solutions, blockchain and super/quantum computing. Facilitating the 
development of these technologies will not only improve our 
cybersecurity, but also strengthen one of the few remaining American 
economic centers of gravity.
    Additionally, a new strategy for national cybersecurity cyberspace 
contains at least three other components: (1) the U.S. must immediately 
bolster deterrence of cyberattacks that threaten vital national 
interests; (2) Congress must clarify key regulatory issues that would 
promote the growth of key technologies with large potential to 
facilitate economic growth, such as blockchain and FinTech, and; (3) 
Congress must pass targeted legislation that provides the private 
sector with a framework for improved cybersecurity standards and 
incentives for information sharing.
    The U.S. has enjoyed extraordinary economic success because of the 
open Internet we created--it is imperative we lead the world in 
securing it for decades to come.

    The Chairman. Thank you, Mr. Rosenbach, and I'm going to 
yield my time in the interest of giving as many people an 
opportunity to ask questions to Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, let me just ask all of you to tell us 
what needs to happen in the workforce and in our American 
education system to meet these opportunities and challenges. 
And we might as well just start with Mr. Barlow and go down the 
line. Are we ready? Are we anywhere where we need to be?
    Mr. Barlow. Thank you, Senator. Well, as I stated earlier, 
we've got a 1.5 million person gap globally, and there are a 
couple of things we need to do. One of the things we've got to 
recognize is we need more women in this field. You know, the 
number of women in the cybersecurity space and technology in 
general is far too low. We also have to look at----
    Senator Wicker. What is that figure here in the United 
States?
    Mr. Barlow. I don't know, but I could get it to you in our 
comments. It's very low, sir, particularly in the technical 
security ranks. When we look for things like security 
operations professionals that would sit in an operation center, 
the number is very, very low.
    But in addition to that, when we look toward universities, 
one of the things we really need to do is have universities 
step up and start producing degrees at scale. You know, the 
last time we saw an entrant in the C suite, it was the chief 
information officer. Well, now we have a chief information 
security officer. Where are the departments? Where are the 
degree programs?
    But I think the last and most important thing is we've also 
got to look toward what we call at IBM new collar jobs, ways in 
which we can bring people in that maybe don't have a 
traditional 4-year degree in computer science and train them up 
to work in a security operations watch floor. And we think that 
that's absolutely possible when we augment those people with 
technology that can help bring them up to speed quicker and 
help them learn.
    Senator Wicker. Where are we going to find these people? 
What level of education do they need to have before we bring 
them into training for new collar jobs?
    Mr. Barlow. Well, I think that, you know, one of the things 
we have to recognize is in the cybersecurity space, we need not 
only traditional technologists, but we also need people like 
linguists. So we're going to find them from all over. I think 
the real question is: Do they have the willingness to learn the 
forensics, learn the technological, and learn the science 
behind it?
    What I find that I think is so fascinating is that the kind 
of mindset that you bring into a security operations center is 
much more analogous to what you might find in a traditional law 
enforcement career. You need people with an investigative 
brain, and I think we can find those people well beyond where 
we've traditionally looked for IT talent.
    Senator Wicker. Others?
    Mr. Ganesan. Thank you for the question, Senator. I 
actually think this is a tremendous opportunity for us. Yes, we 
have a shortage of cyber skills, but there's an opportunity to 
create a million-plus, maybe 2 million jobs in this country 
that are going to be high-paying, high-skilled, and cannot be 
outsourced. Because of various reasons, you want people doing 
cybersecurity to be based here.
    I think the opportunity is: you don't need to go to 
college. You can, but you don't need to. You don't need a four-
year degree. A two-year program, a one-year vocational program 
can get people good enough to do a lot of the security 
operations jobs we're talking about, and I think these can be 
skilled jobs that are high-paying, resident here, and I think 
if you put a collective focus on it, this will be both an 
offensive move in making sure we have the right cybersecurity 
infrastructure in this country and a move to re-energize our 
economy and create jobs in America.
    Mr. Grobman. I would agree with many of the statements made 
that we do need to look to non-traditional methods to get 
people into the cyber workforce. One thing that's unique about 
cybersecurity as a profession is it rapidly changes, so the 
skills that you need today are not going to be the skills that 
you need tomorrow. The typical individual in cybersecurity 
needs to be able to continuously learn and adapt to the ever-
changing threat landscape.
    Unlike a civil engineer who may use the principles of 
statistics and dynamics that will suit them well for their 40-
year career, what you know about today will need to be 
completely retooled. So partnering with our government, looking 
at things such as the potential for a cyber national guard as 
well as really focusing on community colleges as well as 
traditional educational institutions are key things.
    Mr. Harkins. I would like to add some perspective to the 
1.5 million job gap that we have. If you look at that--and, 
again, from a perspective of somebody who has run this--the 
reason why we have that gap is because we haven't prevented the 
problems. Most of those job openings are reactive--to detect 
and respond.
    I think the bigger skill gap that we have is, again, how do 
you design and develop technology with less vulnerabilities to 
begin with? If you did that, we wouldn't have as big of a skill 
gap. If we had better technology that actually prevented the 
harm, we wouldn't have as big of a skill gap.
    Now, I still think we're going to always need the fireman 
and the responders, and we're going to need the investigators, 
and I agree with the comments that we need people with a 
diverse set of backgrounds. But I also think we need to go 
earlier in the education cycle. We need to start at the grade 
school and high school level and teach basic skill and acumen, 
how to do coding and how to do it right, and then further that 
education when people get into undergraduate and postgraduate 
work.
    Mr. Rosenbach. I'll be very quick. We struggled with this 
problem at the Department of Defense when building Cyber 
Command and trying to protect all our networks. So there are 
two strategies, in brief. First, we decided to grow these 
individuals internally, which meant that we put them through 
high-end training. After a year and a half, they would have 
pretty high-end skills, the equivalent of a Special Forces 
operator in the cyber world.
    Now, we want them to stay in the military, but if they 
decide to get out, that's a great pipeline for that highly 
skilled workforce that benefits the rest of the economy. You 
see that model very pervasive in a lot of other countries, 
Israel in particular.
    Second, we've worked very closely with the National Guard 
to have citizen soldiers that will go in and out of the 
military, develop skills, but then also take those skills back 
to the private sector. Building on those two models is 
something that I think holds promise.
    Senator Wicker. Thank you.
    The Chairman. Thank you, Senator Wicker.
    Senator Nelson?
    Senator Nelson. Yesterday, the Director of the FBI outlined 
what the Russians had done in this past election, and he opined 
they may be planning to do it to us again in 2020 and possibly 
2018. Just 4 days ago, four Russian citizens were indicted in a 
scheme that took 500 million accounts from Yahoo. So they now 
have the capability of spying on White House officials, 
military officers, bank executives, and airlines. So the 
actors, Russia and China--this, of course, is pretty serious 
business.
    So what, really, Mr. Rosenbach--if they can get access to 
the personal, financial, and health information, then they 
really have the keys to being able to manipulate citizens as 
well as the government. So why is the country not alarmed?
    Mr. Rosenbach. Senator, I don't know as much about why 
there's not more alarm about this. To me, personally, this is 
something that is very, very serious. And, as you heard from my 
opening statement, I think deterrence is a very important 
aspect of this. Deterrence is something that is an inherently 
governmental role, and we need to think about how to bolster 
our deterrence posture so that not only the Russians, but other 
adversary states do not have the perception--because deterrence 
is based in perception--that they can influence the American 
democratic system for either way, and I don't mean this in any 
partisan manner, but that is a core national interest, 
defending our democracy.
    Senator Nelson. Do you think the structure that we have 
now, which we passed, but it's voluntary--a cybersecurity 
bill--it's voluntary. Do you think voluntary cybersecurity 
efforts in the private sector are going to meet this challenge?
    Mr. Rosenbach. Sir, I don't. I believe that the framework 
that NIST put together, which uses public-private 
collaboration, is very strong and is important and is something 
that should be in legislation. I also believe that there should 
be a system of incentives for increased threat information 
sharing, as you heard one of the earlier witnesses talk about, 
and that there's some liability protection put in place for 
that. Otherwise, I don't think there's a mechanism that will 
influence things to change.
    Senator Nelson. So you don't think that these are just 
private cyber intrusions? These are threats to national 
security.
    Mr. Rosenbach. Yes, sir, absolutely. As you saw from the 
DOJ action, these were both FSB-affiliated individuals, FSB 
agents, and then people affiliated with FSB, probably from some 
criminal organization. The nexus between those two is tight. 
That's the standard MO for the Russians.
    Senator Nelson. And what they have been doing is changing 
or manipulating data to influence public discourse, in this 
case, in the election, and to create confusion. So, obviously, 
Russia took advantage of this. Do you think that these 
technologies can help us, our country, defend from future 
election tampering?
    Mr. Rosenbach. Yes, sir, I do, and you could ask some of 
the folks who are deeper into the technology. But, for example, 
the idea behind blockchain, that there would be a ledger in 
which you cannot manipulate the outcome of things, is 
attractive when it comes to election and perhaps electronic 
voting. However, I would say that technology is very, very 
important. There's a lot more to this than just the technology.
    Senator Nelson. Any comment from--Mr. Grobman?
    Mr. Grobman. Senator, the one thing I would add, which was 
in your opening remarks, is one of the big shifts that we see 
right now is cybersecurity is moving away from just being about 
theft of data and data being used as a weapon itself. Using the 
data to extort or cause harm is one of the things that we've 
not only seen in the election cycle, but that is the same type 
of damage that is done through the Yahoo attack. So it's 
important when we think about cybersecurity that we're thinking 
about it broadly in terms of many areas, especially in this 
emerging field of using data as a weapon.
    Senator Nelson. How would you defend if someone put child 
pornography onto someone's data system, their laptop, and then 
tipped the police that this person is a child pornographer? How 
would you defend against that?
    Mr. Grobman. I think one of the biggest risks that we have 
today is the general public treating leaked data as having 
integrity. One of the big challenges is especially around 
intermixing legitimate data with fabricated data. You can 
increase the confidence that data is real by having part of 
that data be accurate, that can be independently verified, but 
then overlaid with fabricated data. Whether that fabricated 
data is included to cause political harm or to falsely indict 
someone in a criminal case, it is critical that we treat any 
leaked data with suspicion until every element of it is 
independently validated.
    Senator Nelson. Thank you.
    The Chairman. Thank you, Senator Nelson.
    Senator Cantwell and then Senator Inhofe.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and continuing 
along this same line, I wanted to make a point that I'm glad to 
hear this 2 million job number. The Energy Committee has 
already been on this task, and we definitely passed a very good 
bill out of the United States Senate that was all about the 
various elements that we need to do on workforce; information 
sharing; supply chain security, which we haven't spent a lot of 
time talking about this morning thus far; and R&D.
    Unfortunately, our House colleagues just did not get the 
urgency of this. So if any of my colleagues here can help us 
with our House colleagues--I mean, literally, in negotiations 
and conference, they didn't even--I mean, they almost looked at 
it as like some sort of political issue on our side or 
something. I don't know. It was just very, very disappointing 
that they did not see the urgency of this issue.
    The reason I bring that up--and I do want to allude to the 
earlier comments by Mr. Barlow and Mr. Ganesan--the University 
of Washington Tacoma, which happens to be also the area of 
Joint Base Lewis-McChord, our National Guard--so there's a lot 
of defense and education overlap on security, so they're 
working very well.
    But they do have a master's of cybersecurity and 
leadership. They have a bachelor's of engineering and 
cybersecurity, and then a two-year certificate in cybersecurity 
operations. So we've definitely heard--I would throw on an 
education person, too, that we need the educators to educate 
the people. So they've already identified at that school these 
various workforce issues, and, as I said, DOE in our energy 
bill was supposed to add to those workforce requirements.
    But back to this issue of the grid and Russia, because what 
we've identified, too, is we want DOE to be a lead role on 
critical infrastructure because the issues that we all just 
discussed here require DOE and the grid to be modernized and 
continue to have that security discussion with various 
providers.
    So I don't know if we start with you, Mr. Rosenbach, but 
the Ukrainian attacks, Kiev, are something that we could very 
easily see here in the United States by a government actor, if 
not Russia, others. Is that correct?
    Mr. Rosenbach. Yes, ma'am, absolutely. The malware that was 
used in the Ukraine attack was actually a variant of something 
that we've seen on the networks of critical infrastructure 
operators in the United States--so-called black energy--even in 
power grids. So it's not just a theoretic case that it could 
happen. It could happen, and in the case of the United States, 
because the critical infrastructure networks are so much more 
highly automated, the damage could be even more severe. In 
Ukraine, they were able to manually bring things back up.
    Senator Cantwell. Right. I've heard people discuss the 
possibility of a cyber 9/11, which I'm assuming they're 
referring to the context of a great-scale disruption and chaos. 
But in some cases on this critical infrastructure, they've 
talked about the disruption that such malware could do to an 
actual natural gas or oil pipeline or other critical energy 
infrastructure.
    I always find it interesting when you see these movies, 
like Black Hat or what-have-you, it's always connected to 
energy. It's always connected to disrupting energy supply as a 
way to also send a shockwave--I don't know if either of the 
other witnesses want to comment on the security of that and how 
important it is to have DOE play a role on the critical 
infrastructure development.
    Mr. Harkins. Senator, I think it is absolutely critical, 
and I think you're right, and I think that critical 
infrastructure, as it was mentioned, does have risks. But, 
again, going back to the context of where we're thinking about 
emerging technologies and Internet of Things, let's just say we 
hardened the electrical grid and hardened the traditional 
critical infrastructure. The same effect could occur if I 
attacked my home that's fully automated, and take out my 
heating, air conditioning, take out the smart meter on my house 
that's connected to the Internet. And if you do that en masse 
across a metropolitan area, you could keep the grid up, but if 
you still affected, let's say, a million people in the greater 
Phoenix area during a 120-degree heat wave because you're able 
to shut off the refrigerator, shut off their air conditioning, 
shut off the electricity in their house, you could have the 
same effect.
    Senator Cantwell. You're making my point for me.
    Mr. Harkins. Yes.
    Mr. Ganesan. If I could add, Senator?
    Senator Cantwell. Thank you.
    Mr. Ganesan. I think critical infrastructure is--I mean 
that broadly, as in dams, power grids, electrical grids. That 
is a big area of vulnerability for us, and I actually don't 
think we are fully prepared. I think what Stuxnet showed--that 
you could have access to these--what they call PLCs and static 
control systems that are not connected to the Internet, and 
once you're in, you could impact them. And I do think we need 
to think about both standards and evolution there.
    In addition to that, you mentioned something equally 
important, supply chain security. If you think about it and 
look at some of the major hacks, those hacks came in because 
the vendors were compromised. So I think we need to have a 
better way of knowing the supply chain, if people have access 
to a network, and making sure the entire supply chain is secure 
because in cybersecurity, you're only as strong as your weakest 
link.
    Senator Cantwell. Exactly. That's why we want this DOE 
upgrade, and to make sure that we do that. And then to Mr. 
Barlow's point, having this larger discussion, which is very 
hard to have, you know, necessarily, with our utilities and 
some of our other critical infrastructure with the R&D side. 
People don't want to talk about their vulnerabilities, but yet 
we need to get best practices out there based on the latest and 
most significant risks.
    Mr. Barlow. I think this raises a really key point, in that 
part of what I would encourage you to go back and really think 
about is speed. You know, whether we're talking about black 
energy, whether we're talking about other forms of attacks--I 
mean, you know, if we look right now at what's going on in 
Saudi Arabia and the Gulf states as they respond to Shamoon and 
Shamoon 2, which is affecting the petroleum and chemical 
industries, you know, these are, in many cases, significant 
attacks that have a kinetic outcome in terms of their impact on 
business, or they may stop various manufacturing lines.
    At the end of the day, what actually makes the difference 
is the speed at which the private sector and the public sector, 
across multiple governments in many cases, work together. And 
by having that threat intelligence with speed--now, think about 
what that requires. That requires not only the culture and the 
ecosystem to move fast, having an on-mission culture across the 
board, but it also requires having the security clearances in 
place for people to have those dialogs at an operational level, 
and it requires the clearinghouse in order to manage those 
vulnerabilities.
    The Chairman. Thank you, Senator Cantwell.
    Senator Inhofe?

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    At the risk of sounding redundant, which I will, for the 
benefit of the witnesses, there are two very significant 
committees, the Commerce Committee and the Environment and 
Public Works Committee. There are nine committee members on 
both committees, and we always have our meetings at the same 
time. So the disadvantage is you get--you miss all--I would 
miss, in this case, all of the opening statements and what 
questions have already been asked. So that's one of the 
problems that we're going to try to get the leadership of both 
committees together to try to rectify since we deal with very 
similar subjects.
    Let me go ahead and just cover some of the--it may have 
been covered. Stop me if it has been.
    Mr. Grobman, cybersecurity is enhanced when products are 
built from the ground up protected from cyber attack instead of 
trying to impose cybersecurity protections after the product 
has been developed. I think we understand that. Unfortunately, 
there are not always strong market incentives for companies to 
build products from the ground up with a focus on 
cybersecurity, which has encouraged sentiment for hard 
regulations to force the integration of cybersecurity into the 
development of consumer products.
    So, first of all, do you agree that is a problem? And can 
you speak to the harm that structured hard regulations would 
have on cybersecurity innovation?
    Mr. Grobman. Absolutely. To the first point, one of the big 
challenges that we see is sometimes the attack on a device 
isn't going to harm the individual that purchased the device. 
In the case of the Mirai attack back in October, although a 
consumer purchased a DVR, they weren't the ones harmed when 
that DVR turned and attacked Dyn and then provided denial of 
service against Spotify and Twitter. So there would be a 
natural sentiment to look for ways to regulate the way you 
build those devices.
    One of the challenges that we see with hard regulation in 
cybersecurity is, given that the threat landscape continuously 
changes, being overly prescriptive on how to build a device can 
make it so that companies are focused on being compliant and 
removing opportunity costs they would otherwise apply to 
addressing the most critical threats of the day, making their 
device less secure.
    Our recommendation is to focus more on a framework very 
similar to what we've done with the NIST framework that can 
provide a blueprint for manufacturers to ensure they're looking 
at the key areas, but be flexible enough so that it's 
constantly tracking the latest threats of the day, and that the 
manufacturers and organizations always have the ability to 
focus on the most profound threats versus specific elements 
that are imposed in a regulation.
    Senator Inhofe. So what you're pointing out is that, yes, 
it is true that if you have to do this--but if you do it to 
that detail, they'll forget what the real purpose is, whether 
it's safety or other elements. Do the rest of you agree with 
that kind of a----
    Mr. Ganesan. If I could add, Senator, I completely agree 
with Mr. Grobman. Because cybersecurity is so dynamic, if you 
try to do hard regulations, it's sort of like closing the barn 
door after the horse has bolted, because you're fighting the 
last war instead of the next war. So I think it's much better 
to have guidelines and visibility and flexibility and let the 
market forces determine----
    Senator Inhofe. That makes sense. That does. That's a good 
comment.
    Some of you talked about the value of the public and 
private partnership. Usually, you're talking about government 
and industry. However, as was brought up by Senator Cantwell, 
the universities are getting involved now, and it happens to be 
that the University of Tulsa--and I assume some of you are 
aware of this--has won the Southwest Regional Collegiate Cyber 
Defense Competition for the second year in a row. Any comments 
you would make about the inclusion of programs like that one 
that has been very successful in Tulsa University?
    Yes, sir?
    Mr. Barlow. Well, I was very disappointed to see their win 
because they won against my alma mater, Rochester Institute of 
Technology.
    [Laughter.]
    Mr. Barlow. But that aside, you know, all kidding aside, I 
think it's really exciting to see these kinds of competitions, 
and----
    Senator Inhofe. I think so, too.
    Mr. Barlow. Well, you know, because part of what we have to 
all understand in this, right, is that in order to be good 
defenders, we have to understand how offense works. We have to 
understand both sides of the game, and this is a great way to 
give students the opportunity to learn, to do something a 
little bit different. And, interestingly enough, we're trying 
now to take this, frankly, to adults as well, which is why IBM 
has built the Cyber Range in Cambridge, Massachusetts, to give 
people the opportunity to practice and rehearse not just the 
technical side of this, but how to deal with regulators, how to 
deal with unhappy customers, how to deal with the press and 
media post-breach. I mean, I would argue that in many, if not 
most, breaches we see, the response to the breach often causes 
more damage than the breach did itself.
    Senator Inhofe. And you would agree that you are actually, 
in this program, leading some of these young people into that 
career.
    Mr. Barlow. Absolutely. This is actually one of the reasons 
why we have been active sponsors of these types of university 
competitions.
    Senator Inhofe. Yes, and we appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe.
    Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I want to follow up on the question asked and the sort of, 
I think, consensus view of the panel that if we try to lock in 
a regulation, either through rule or statute, that the 
technology will just outrun it, and I'll stipulate to that.
    But the question I have is if NIST is our framework, the 
real challenge is we don't know what the adoption rate is in 
the private sector. I'd like, if you wouldn't mind, just a 
quick yes or no and maybe a few comments on whether or not each 
of the panelists think it would be in the public interest for 
NIST to collect data on adoption rates so we know whether or 
not this NIST framework, private sector-driven, innovative, 
nimble, is being adopted, because all of that makes theoretical 
sense, but if it's not being adopted, or we don't even know the 
adoption rates, then we're working in the dark.
    It seems to me that all of you are data people, so you 
might be amenable to the idea that we should know what private 
sector actors are doing here.
    Mr. Barlow, to start.
    Mr. Barlow. Well, I think it's an excellent question, 
Senator, and we've actually studied it, and we'd be happy to 
provide you with the details of that study, where we didn't 
look specifically at just the NIST framework. We looked at 
frameworks overall, because I think one of the things that the 
NIST framework excelled at was giving people a guideline and 
allowing them to customize it.
    Senator Schatz. But the question is do you think that we 
should be collecting data on the percentage of companies in the 
private sector that are adopting the NIST framework?
    Mr. Barlow. I think you need to ask the question a little 
differently, in my opinion, which is how many companies have a 
framework that they're following? I think it's OK if they use 
it as a guideline and tweak and tune it based on industry or 
based on what their particular threats are. But what is 
absolutely critical is that private sector companies and 
governments have a framework that they're following so that 
they have both breadth and depth across all----
    Senator Schatz. Whether it's NIST or some other framework--
--
    Mr. Barlow. Exactly. COBIT, whatever.
    Senator Schatz. Fine. But we need to know where we're at, 
and it seems to me that we're operating in the dark as 
policymakers here. We'll just go down the line as quickly as 
possible.
    Mr. Harkins. Senator, I totally agree with you. I think the 
collection of that data is useful, and I also agree with Mr. 
Barlow that there are multiple frameworks. We need to think 
about which ones. And just having a framework by and of itself 
doesn't mean that you're actually applying the framework 
appropriately. So it would be like giving somebody a calculator 
and saying, ``Are you using the calculator?'' It doesn't mean 
they're doing the calculation correctly.
    Senator Schatz. No, but we know they're not doing the 
calculation correctly if they don't possess a calculator. 
Right?
    Mr. Harkins. I absolutely agree, yes.
    Mr. Ganesan. I like market forces, Senator, and so one of 
the reasons why I've been pushing cyber insurance is now you 
have a market force for people to get cyber insurance. The 
insurance companies will need to underwrite, and one of the 
questions they will ask when they're underwriting is, ``Are you 
following the NIST framework?'' And your premiums will be based 
on how well you follow this.
    So market forces which actually have money at risk will 
drive people's behavior than regulatory purposes, because what 
that becomes is compliance, as opposed to having a market 
dynamic that feeds into what you do.
    Senator Schatz. As quickly as possible, please. Thank you.
    Mr. Grobman. I agree with Mr. Barlow. I think the challenge 
with assuming NIST is the only framework is NIST is a great 
solution when customers are looking to improve their 
cybersecurity posture. It's something that, very often, if I go 
to a customer, and they ask, ``Do you recommend a framework?,'' 
I will point them to NIST. But for other organizations that 
have been operating for many years using another methodology, I 
would not hold them at fault for that. So I think studying it 
is good, but I don't think one size fits all.
    Senator Schatz. Right. But we should be collecting data.
    Mr. Rosenbach, I want to ask you a different question. One 
of the policy recommendations from the panel has been to revise 
the process that the administration uses to determine whether 
to disclose a vulnerability to a vendor or to retain it for 
national security purposes. Senator Johnson and I are working 
on a bill that would improve and codify the process. Can you 
tell us why you think this process is important to codify and 
why it's useful to business?
    Mr. Rosenbach. Yes, sir. I do think the process is 
important. So I'll state up front there are cases in which the 
government needs to keep zero-day vulnerabilities to ourselves 
for national security reasons. I'll caveat that by saying if we 
can't keep those secret, and there are going to be a lot of 
insider disclosures as there have been, then we undermine our 
credibility for saying that we can't disclose vulnerabilities.
    Second of all, in the Department of Defense, Secretary 
Carter took very, very seriously the need to rebuild bridges 
with Silicon Valley after the Snowden disclosures, and part of 
that is transparency. And if we know that the greater good is 
disclosing some vulnerabilities to vendors and firms that are 
U.S. firms, that's good for the country, because we want it to 
be the center of gravity for the economy, and if we don't do 
that, we're kind of shooting ourselves in the foot.
    Senator Schatz. Mr. Grobman?
    Mr. Grobman. I think the key thing is transparency, because 
what we do need to recognize is some vulnerabilities the 
government is aware of will make sense to keep private, and 
others will be in the greater good to use responsible 
disclosure and get addressed. We need to look at things such as 
what is the probability it will be independently found by other 
adversaries. There are many elements that need to go into that 
decision, and being transparent on the criteria is a great way 
to be open about what it is we're doing while keeping the 
classified information classified.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Mr. Rosenbach, I'm working on a piece of legislation right 
now that I'm going to call Cyber Shield, and it's with this 
idea--because of the spread of the Internet of Things, whether 
it be an automobile, a toaster, you name it, they're all going 
to be vulnerable to hacking. Right now, the American public 
doesn't know how vulnerable they may be.
    So on cars, we've got--here's your fuel economy sticker, 
here's the safety of the car sticker, and so people can make a 
judgment. So what would you think about that idea, that on a 
voluntary basis, but here it is, like kind of Energy Star--it's 
on the car, it's on the toaster, and it gives you kind of a 
one-star through five-star rating as to the level of 
cybersecurity that has been built into that device? That would 
incentivize companies to kind of meet the higher standard as 
people get more concerned about it.
    What would you think about that as an idea?
    Mr. Rosenbach. Yes, sir. I'm a huge fan of creative ideas 
that allow people to understand the problem and facilitate the 
flow of information about cybersecurity, so I think that sounds 
good. In particular, if it's worked in conjunction with the 
private sector so that everyone understands how the evaluation 
would work, it seems like a good idea.
    Senator Markey. What do you think about that, Mr. Harkins?
    Mr. Harkins. You know, I think it's a great idea, and I was 
smiling when you were saying that, because a few years ago when 
I was at Intel as Chief Security and Privacy Officer, we had 
floated the idea of creating a security star rating. It's an 
interesting concept and I think one that has merit.
    I think it can be practically hard to implement, though, 
because it would be like the miles per gallon. Because the 
technology is evolving, there might be a deterioration of the 
rating, and so how do you keep that up to date.
    Senator Markey. I appreciate that. We'd have to figure it 
out, but----
    Mr. Harkins. Yes, we would.
    Senator Markey.--the public has a right to know as well.
    Mr. Harkins. Absolutely.
    Senator Markey. Do you agree with that, Mr. Grobman?
    Mr. Grobman. Senator, I would note a tone of caution. I 
think that there is a risk in that sort of approach, in that 
even devices that were built with high levels of quality in 
their security architecture are still subject to having 
vulnerabilities in the future, and if having the five-star 
rating on a device at the time of manufacture gives the user of 
that device the thought that it is going to be good, I think it 
can lead to issues----
    Senator Markey. Assuming that we could do it with that 
caveat, that, you know, over time it could erode, but just so--
it's a 2014, here's the standard for that.
    Mr. Grobman. I just don't know if the general public is 
able to comprehend that level of intellect that even if they 
had a five-star rating when they bought the device, it still 
may become vulnerable in the future.
    Senator Markey. One of the criteria would be whether or not 
the technology has an ability to alter to changing threats, 
too. That could also be up there, so that the public could 
understand that.
    Let me go to you, Mr. Ganesan.
    Mr. Ganesan. Senator, I find this nuance because I always 
think of the perspective of the small entrepreneur. That's the 
companies we back, and a lot of well-intentioned government 
regulations end up putting a lot more burden on small companies 
and their ability to innovate, because those companies don't 
have expensive lawyers and they don't have----
    Senator Markey. This would just be voluntary.
    Mr. Ganesan. So I understand, Senator, and I would say that 
I find that market-driven initiatives are better than 
government regulations.
    Senator Markey. Right. But if there is no--right now, 
there's nothing, so the market's had years to do something and 
they don't do anything. So in the substitution for that, you 
introduce something that's voluntary, so that would be my 
point.
    Mr. Barlow, quickly, please?
    Mr. Barlow. So I think at the end of the day, what you need 
to do is hold manufacturers responsible for a few key things. 
When products ship, they need to ship not with default user IDs 
and passwords. We need to understand how the data that these 
devices collect--how it's being used, where it's being stored, 
what the security posture is around it.
    And we also have to recognize that these devices--I mean, 
how old is your computer, sir? It's probably only a year or two 
old, right? I mean, I've got a 10-year-old car. We've got to 
have the ability to update things. The thermostat that goes in 
your house might be there for 20 years.
    Senator Markey. I got it. I just have one more question. I 
just will say this is actually going to give small companies a 
chance to stand out and say, you know, we've got this new 
device so you can--not only--we're selling it, and the small 
companies could kind of just move it. So that would be a great 
venture capital entrepreneurial opportunity.
    Finally, on the question of cybersecurity vulnerabilities 
directed to the--you know, in the airlines. It's a huge issue 
now. We're reading more and more about it.
    Mr. Rosenbach, do you agree that the airline industry 
should share information about cybersecurity threats, attacks, 
and protections to the FAA and to other airlines when they're 
identified?
    Mr. Rosenbach. Yes, sir. In principle, more information 
sharing is better. Whether you want the FAA to be the nexus, I 
think you should work with the private sector to make sure that 
they're up and able to do all that. But there are threats to 
the airlines, and it's very important to try to find some way 
to address those.
    Senator Markey. And do you also agree that the FAA should 
establish cybersecurity framework for aircraft and ground 
support equipment?
    Mr. Rosenbach. They should, as long as they do that with 
the private sector, too, so that it's within the technology 
that they work with.
    Senator Markey. And that's the Cyber Air Act that Senator 
Blumenthal and I have introduced so that we can figure out what 
that framework should be so that information gets shared. If 
there's a cyberattack on United, American should learn about 
it, the FAA should learn about it, so all the vulnerabilities 
that might be identical would be shut down.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Next up is Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
each of the panelists. This is a fascinating discussion.
    I want to focus on an area that I have been doing a great 
deal of work on, and actually working with Chairman Thune on, 
and that is automated vehicles. We've talked about, generally, 
some frameworks in looking at these kinds of products.
    But, obviously, this is a piece of critical infrastructure. 
These vehicles will be highly connected. They'll not only be 
talking to each other. They're going to be talking to the 
roadbed and will be in complete control, and it's much 
different if there's a cyberattack on an automobile than your 
bank account. We're all mad when our bank account is attacked 
and some money is stolen, but this could be existential if they 
take over your automobile.
    I know the auto companies are focused on this a great deal. 
But I want to kind of get your assessment as to what you are 
seeing, if you've been working with them, and what you are 
seeing in terms of the work that they are doing. I know that 2 
years ago, the auto industry and NHTSA developed an Auto ISAC, 
which, from my understanding, is working well. It's successful. 
It has now been expanded to suppliers as well, understanding 
that in order to get consumer acceptance for this product, 
you're also going to have to make sure that they are fully 
protected.
    Mr. Ganesan, I believe you have some familiarity with this 
area. Do you think the auto industry is taking the right steps 
with that ISAC, and what role do you see in data sharing in 
connected vehicles among a variety of companies?
    Mr. Ganesan. That's a very important question, Senator. I 
do wish to state for the record that we're investors in Uber 
which is developing self-driving cars, and so we do have an 
interest in this.
    But I think that, yes, some progress has been made. I would 
actually say more progress needs to be made because, in 
essence, cars actually end up having a much longer timeframe. 
You keep them for longer and so, in essence, you need to have a 
way of updating them post facto. And the very fact that you 
need to update them also means there's a security risk, because 
if you can update them, so can the bad folks. I think that 
while progress has been made in terms of getting together, I 
think more needs to be done, and I do agree that having someone 
taking over an unmanned vehicle poses a much bigger risk, and I 
would say that more work needs to be done.
    Senator Peters. Although updating, as you said, is 
problematic, and the fact that you should try to design these 
right from the get-go to be secure--obviously, you need some 
updates--but it is a problem, as was mentioned by Mr. Barlow 
and others, when you have older vehicles out there as well that 
may have some interfaces with vehicles. So that's a challenge 
we've still got to deal with.
    Mr. Barlow?
    Mr. Barlow. Well, you know, I think one of the fascinating 
things about the auto industry is this is a good proxy as we 
look across many other industries, whether we're talking about 
airlines or vessels at sea, of the types of things we need to 
consider. But we also have to consider not just the vehicle and 
the kind of kinetic actions that may occur, but what's 
happening to that data that's coming off those cars. Where is 
it being stored in the cloud?
    You know, our X-Force threat researchers recently disclosed 
that we were able to identify multiple vehicles that once you 
sold them, you were still connected to them. So someone buys a 
used car, and the old owner is still connected to the vehicle. 
They can find out where it is. They can unlock it and in some 
cases could even drive off with the vehicle. You know, there's 
a good example of working with industry to obviously get this 
fixed, but it's a good example of new challenges and new 
thoughts that we have to take into account.
    What I would encourage you to think about is this isn't 
limited to what happens in the vehicle. It's just as important 
to think about what's happening in the cloud. A good proxy for 
this that gets even more interesting is when you start looking 
at vessels at sea. A cruise ship is a floating data center with 
all kinds of information and IoT devices on it, and we've 
really got to think about all the aspects of how that is 
managed.
    Senator Peters. Mr. Grobman?
    Mr. Grobman. So the one thing that I would like to add is 
we really do need to think about autonomous vehicles as being 
new platforms. It's not that we're taking the cars of today and 
making them self-driving. It's one of the reasons that we are 
sponsoring a new organization, the Future of Automotive 
Security Research, to partner with the industry to figure out 
what are the new building blocks that are needed, everything 
from what is the right architecture for field upgrade ability, 
because we recognize if you're going to have a car in field for 
10 years, you're going to need ways to remotely update it as 
well as have secure communications across the board.
    The one other point that I think is critical is to 
recognize that the general public looks in aggregate at the 
risk that autonomous driving can lower as it relates to death 
in automotive cases, where we see autonomous driving as being 
much safer than human driving in the long run, and based on 
studies, we see things such as 95 percent of accidents are 
caused by human failure, not machine failure. So we need to 
look at that element as much as the new risk related to the 
cyber elements.
    Senator Peters. My time has expired. Thank you.
    The Chairman. Thank you, Senator Peters.
    Next up is Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here. I appreciate the 
conversation. I was the Attorney General of Nevada for years. 
This was an important issue for me to address and I still look 
forward to working with all of you in this space. One of the 
things--there are a number of topics. I'm going to try to get 
through them very quickly with your help.
    Small businesses, in general. I was just home in Nevada, 
and one of the questions I repeatedly get from our small 
businesses is this is a space that they want to address and try 
to protect against, but, as you can imagine, there are concerns 
about resources, the ability, and then just understanding 
cybersecurity, in general, and being able to implement it.
    Can you address a way that we can help to work with our 
small businesses to give them the opportunities that they need 
to protect against cyberattacks? And I'll open it up to anyone 
who would like to comment.
    Mr. Harkins. Senator, I think you're right, and I think 
small business has a challenge just like consumers have a 
challenge. I've long thought that there's a security poverty 
line that exists, like a societal poverty line, and those that 
have the resources, the skills, the technical competencies to 
deal with these issues and those that don't. And I think in 
many cases small business is well below that poverty line, just 
like we see a lot of large businesses below that poverty line.
    I think the only way we can get them to essentially punch 
above their weight limit and do better is to get them better 
technology that preempts the execution of malicious code and 
stops the bad things from occurring that can harm their 
business and harm their customers.
    Senator Cortez Masto. So that goes back to your security in 
the design and architecture, correct?
    Mr. Harkins. Not only in the design, development, and the 
implementation, but post-implementation. Any device that 
executes code has the potential to execute malicious code. We 
have to look at that code execution prior to it happening and 
determine good from bad. We've proven it can happen in 
milliseconds, and we've proven we can preempt the execution of 
malicious code.
    Senator Cortez Masto. OK. Mr. Grobman?
    Mr. Grobman. One of the big advances that we're focused on 
along with the rest of the industry right now is shifting the 
way that we build cybersecurity defense solutions for cloud-
based offerings, and one of the reasons that that is key to 
small business is what the cloud does is it abstracts the 
complexity to the organizations that are running the cloud 
implementation, whereas you don't need the same level of 
expertise within the small business that you traditionally did.
    So one of the things that I would strongly advocate for the 
industry is to continue to move down that trajectory, but make 
sure that we're designing our systems with a wide enough 
dynamic range that they scale not only to large businesses and 
organizations, but also to the very small businesses as well.
    Senator Cortez Masto. Thank you.
    Mr. Ganesan. I'll be brief, Senator. I think the easiest 
way is to make sure that capital formation and the ease of 
capital is easily available for entrepreneurs, because I think 
the way you bring down the cost for small businesses in terms 
of cybersecurity is by having more innovators focus on the 
market and making capital formation easier is a key to that.
    Senator Cortez Masto. Thank you. And then the topic on the 
skills gap, which clearly is an issue for the future. We are in 
the age of technology. It's going to continue to evolve, and we 
need to do a better job really training and preparing the 
workforce for the future.
    I am proud that in Nevada, for the first time, our 
Governor's Economic Development Agency partnered with the 
private sector and our system of higher education, so we're 
working together. Let me give you an example. We went out and 
were able to incentivize Tesla to come to Nevada. Part of that 
arrangement was also partnering with the private sector as well 
as our system of higher education to develop the curriculum 
that Tesla will need for that skilled workforce. So we put them 
all in a room and work together. I think that's how it should 
happen all the time. But that's not necessarily the case in 
every community.
    I'm curious--and I'll open this up again--how we here at 
the Federal level can incentivize that type of coordination to 
ensure we are focusing on that skills gap and the curriculum 
that's necessary.
    Mr. Barlow. So I think there are a couple of key things 
that we can do, Senator. And, by the way, just to answer an 
earlier question on the percentage of women in the 
cybersecurity workforce--I was able to find that while we were 
talking--it's 10 percent today. There's a great example of a 
real opportunity, right?
    But if we look at the things government can do, certainly 
incentives for universities to start to develop programs, and I 
don't just mean kind of a couple of classes--full-on 
cybersecurity programs. In addition to that, really looking at 
the transition from veterans into the security workforce. Not 
that any of us want to steal people out of the government, but 
when people are ready to retire from their time in government, 
there's an excellent opportunity for that transition. So I 
think those are two really simple things we can do.
    But the other thing we can really look at is how can 
government, working with the private sector, help to influence 
these new collar job opportunities, where we're finding people 
above and beyond just people that pursued a traditional 
computer science degree, to bring them into this space and help 
solve the problem.
    Senator Cortez Masto. Thank you. I know my time is up. And 
one final thing I'm just going to throw out there, and we'll 
follow up on--I'm also concerned about patchwork regulation and 
legislation. We see the states--Nevada has done it. We had 
concerns, and so we developed legislation at the state level, 
then the Federal level coming in. There needs to be the 
ability, I think, to coordinate so we aren't stifling 
entrepreneurship, so we are working together to share 
information when it comes to that, the cybersecurity threat. So 
I'm just throwing that out there and would love to follow up 
with you to get your thoughts on that as well.
    Thank you, Mr. Chair. I appreciate the opportunity.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Thune.
    This has been an excellent panel here today. Thank you for 
all your testimony.
    In this committee, we have a bipartisan track record of 
promoting innovations and new technologies, but we cannot 
ignore that our new reliance on Internet-connected technologies 
can make us more vulnerable to cyber-attacks. So it's important 
that we explore ways to ensure basic consumer protections and 
cyber hygiene for new technologies.
    Cyber threats are more than individual identity theft, 
stolen credit card information, or other cybercrimes. We also 
face cyber terrorism threats to our electric grid, to 
pipelines, and other critical infrastructure, and, most 
dramatically, the U.S. intelligence community is stating in no 
uncertain terms that we face threats from state-directed actors 
seeking to influence and undermine our election process by 
manipulating social and online media. In our modern 
capitalistic economy, all of the important private sector firms 
in front of us today, play a role in defending America and our 
freedom, not just from cybercrime, but from cyber war.
    Mr. Rosenbach, your testimony discusses how Russia has 
become increasingly emboldened in its use of cyber-attacks. You 
cite a lack of forceful response following cyber-attacks 
against Ukraine that took down portions of the power grid. 
Could you share more about the relationship between Russian 
cybercrime organizations and Russian intelligence operations?
    Mr. Rosenbach. Yes, sir. There's a long history of the 
Russian intelligence services cooperating with Russian 
organized crime in order to carry out things that are within 
the Russian national interest. So you saw that clearly in the 
evidence behind the DOJ Yahoo case, but you see that in many 
other ways, too, but in cyber, in particular, because there 
will be members of the FSB or the GRU that also make money on 
the side or are part of those criminal organizations. So it 
makes it complicated, but it also makes it very important that 
the government understands that and have some type of response 
to it.
    Senator Udall. Thank you. The Federal Government spends--
and I'm changing over to a new topic here, on legacy IT. The 
Federal Government spends $80 billion annually on major IT 
systems. The bulk of that money goes to maintaining and 
operating legacy IT. GAO has noted that legacy IT systems 
result in higher costs and create security vulnerabilities. 
Some tech companies have sold IT that is still being used by 
Federal customers, even though the product is no longer 
supported. That means no customer support, no automatic 
software updates with security patches, for example.
    Mr. Grobman and Mr. Barlow, is it a good idea for Federal 
agencies to use vulnerable IT products that are no longer 
supported by the manufacturer? And do you agree that it makes 
sense to replace outdated IT systems when they create cyber 
risks and when a new technology is more cost effective?
    Mr. Grobman. It's absolutely critical to rapidly move to 
new, modern technologies, not only for the reason you cite, 
that older technologies have vulnerabilities that could be 
exploited by bad actors, but also the technology itself. The 
new, modern systems they are built on are inherently more 
secure than being able to retrofit or try to defend those 
legacy systems.
    So think of it in terms of our physical infrastructure. 
Occasionally, we'll have an old bridge. We can do a retrofit to 
it in order to make it seismically stable. But sometimes 
there's no alternative but to build a new bridge, and that's 
the same mindset that we need to think about as we triage the 
systems in our Federal Government and focus on replacing the 
ones at most critical risk.
    Senator Udall. Mr. Barlow, please?
    Mr. Barlow. I think the biggest challenge is really 
understanding the vulnerability of any system. There are plenty 
of brand new systems that come out that are chock full of 
vulnerabilities. Now, obviously, the older things get, the more 
likely they are to degrade. One of the things, though, I think 
we've been talking about as a group today is the importance of 
making sure that systems can, for their useful lifetime, be 
updated.
    Now, whether that useful lifetime has exceeded itself in 
the commercial sector or not is really immaterial. It's about 
making sure that we have the security posture; the 
vulnerability assessments in place; we understand the risk; 
we're using a security framework so we've got breadth and depth 
in our security posture; and, last and probably the most 
important thing that people often forget about, that you've got 
a relationship with incident response forces, whether that's in 
the government or private sector, that can monitor that 
environment continuously and respond when there is a problem.
    Senator Udall. Thank you very much.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Grobman, in your written testimony, you state that 
manufacturers of connected devices need to think about security 
by design--we've heard some comments here today--so that these 
protocols will be in the devices from the beginning rather than 
adding them later on. How can companies that are innovating in 
the Internet of Things space mitigate the burdens of security 
by design? For example, when is the use of patches or other 
security upgrades sufficient to combat those new threats that 
we face really every single day, as opposed to redesigning the 
devices wholesale in the future?
    Mr. Grobman. So, very much like the NIST framework coming 
up with a specific list of areas that an organization must pay 
attention to, that is the same sort of process that we need to 
instill in our embedded Internet of Things devices. There's a 
set of requirements that almost any IoT device will have, even 
though those requirements and what makes up those requirements 
will evolve over time, so, just as an example, the general 
category of field repair ability, making sure that when a 
device is installed in the field that it is possible to get the 
updates to it in a secure manner.
    One of the large problems that we do recognize, though, is 
what is reasonable for a manufacturer to take care of a device. 
If a manufacturer sells a device for $30 with a 3-year 
warranty, if a vulnerability is discovered in year seven, are 
they still subject to being required to deploy fixes? What 
about in the case where manufacturers no longer exist, and we 
are still left with millions of vulnerable devices? Very 
challenging problems.
    Senator Fischer. Do you have suggestions on how we're 
supposed to handle that, especially in the future, when 
companies come and go, when we see technology being developed 
so quickly and the innovation taking place? How are we going to 
address that? Because those devices will still be out there.
    Mr. Grobman. I think one of the most important things that 
we can do in the near term is have consumers think about 
security in much of the same way that they think about 
reliability or safety in other products. We really need to 
raise awareness that security in all devices is key. I do think 
there are some real practical challenges, though, especially 
given the global nature of product development, that products 
developed in other countries will not have the same 
forethought.
    Senator Fischer. That leads me to my next question, Mr. 
Ganesan. I expect that many companies that you work with are 
investing in the Internet of Things and you're developing all 
these great innovative products in the area, and we're looking 
to make sure that these devices are secure and they're not 
going to be vulnerable to cyber threats.
    We've heard about the importance of the security of the 
supply chain. We've heard about making sure that the systems 
can be updated during their useful lifetimes. That said, I'm 
concerned that innovation is going to be hindered because 
consumers aren't going to buy these devices because they're 
going to be very concerned about security.
    So how do you believe the investment into the Internet of 
Things has been deterred because of those security concerns, 
and what can the private sector do to make sure that we ensure 
that the investment that we're seeing in the Internet of Things 
is going to continue?
    Mr. Ganesan. Excellent question, Senator Fischer, and I 
agree with you that making sure that we have a secure 
infrastructure, a secure framework for IoT is going to be 
critical for adoption. One of the market-based approaches we 
have taken at Menlo is we have funded a company called BitSight 
that does security ratings, and one of the things that BitSight 
does is actually like Moody's and Standard & Poor's. It gives 
you a security score at a company level and at individual 
product levels so that people can get a sense.
    I like market-based approaches like that where people can 
have a feedback loop, where you can get a score, you can 
improve it, and consumers have visibility to that so that they 
can decide whether they want to work with a certain company or 
not, if they want to work with certain products or not.
    Senator Fischer. So as long as we can see the private 
sector stepping up and providing those security options for 
consumers, you believe that that development in the Internet of 
Things and the reliability that consumers would feel in that 
development would be sufficient?
    Mr. Ganesan. I do, Senator.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Hassan?

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chairman, and good day to 
all of our panelists. I thank you so much for being here.
    I want to follow on a little bit of what Senator Fischer 
was beginning to discuss. Last December, a company in my state, 
Dyn, in Manchester experienced a series of distributed denial 
of service attacks. Since Dyn directs global Internet traffic 
for some of the top social media, e-mail, and streaming 
services, the impact of the attack, as I'm sure all of you 
know, was felt throughout the country. Perhaps most unsettling 
about this attack was that hackers turned everyday Internet 
devices into a force multiplier that targeted Dyn, a very 
sophisticated technology company. So this isn't just about 
consumers being disrupted.
    So, Mr. Rosenbach, if groups of criminal hackers can 
mobilize the Internet of Things to help advance an attack like 
this, then, clearly, countries like Russia and their teams of 
state-backed hackers could use the Internet of Things to 
mobilize a far more catastrophic attack. So what are your 
thoughts about what we can do to prevent against state-
sponsored attacks of this nature?
    Mr. Rosenbach. Yes, ma'am. So this is a great example of 
where the Internet of Things has a dark side that the 
government needs to play some role in, because you can't expect 
a firm like that--if it were the Russians or the Chinese or the 
Iranians, who are also very active in putting together the bot 
networks--to be defending itself. So it doesn't mean that it 
should always be the Department of Defense. In fact, we should 
probably be the last people you call in, because we want to be 
very respective of civil liberties and the constitutional 
tradition.
    But there needs to be a hard conversation about when the 
government is going to defend a firm like that in New 
Hampshire, because, otherwise, the investment they would need 
to make in defending themselves will put them out of business. 
That's not the role that they should be in. There is a role for 
government when it comes to state-based attacks.
    Senator Hassan. Thanks.
    Mr. Barlow?
    Mr. Barlow. Well, Senator, I think one of the other 
challenges we have to recognize that was very unique about the 
Dyn attack is that many of the devices that were used were 
everything from everyday nanny cameras, however, they had the 
default user IDs and passwords on these devices. Now, it's 
incredibly easy to write a script to go scan the internet 
looking for these devices and then check if it is--you know, 
literally, if the password is still admin and password.
    You know, one of the challenges is the bad guys can use 
these tools to not only scan, but to go try to log in to these 
devices and then identify them for potential inclusion in their 
botnet. The good guys can't do that, because the minute I try 
to log in with a default user ID and password, I'm breaking the 
law.
    Now, I'm not saying I want to go enter into these devices, 
but I certainly--whether it's working with government or 
working with other private sector entities, I want to know 
where these devices are, so we can potentially notify the 
manufacturers, who probably have some responsibility here, 
notify the end users or where these are deployed, or worse yet, 
just identify these devices so they can be black listed so they 
can't be used in an attack like this. That's a critical area 
where the threat has evolved past the good intentions of the 
prior law.
    Senator Hassan. Well, thank you. I want to just take my 
last minute or so to talk a little bit more about bots. I am 
referencing a McClatchy report on this from earlier this week 
that the FBI is investigating Russia's use of bots to blitz 
social media and try to influence the public discourse 
surrounding the 2016 Presidential election. So if the 
allegations are true, it shows that Russia had made use of a 
powerful tool to disseminate misinformation and fabricated 
stories on truly a mass scale.
    The University of Oxford study found that on Twitter during 
the period of October 9 through 12, 2016, there were over 
850,000 tweets from suspected bot accounts. It would seem that 
some of the emerging technology discussed today could be used 
to counter the proliferation of Twitter bots and the Russian 
misinformation campaign.
    So, again, I'll start with you, Mr. Rosenbach. Can you 
please take a minute and discuss how we can use these 
technologies to address this problem?
    Mr. Rosenbach. We have experience in this in the government 
from a bot-based campaign that the Iranians conducted against 
U.S. banks several years ago. So the technical solution to 
taking out bot networks is not actually that difficult. But, 
one, you need the willingness to do it, you need to make sure 
that it's transparent under the law, and then you have to work 
with a lot of international partners because the bot network on 
its face is located in many different countries around the 
world.
    But that is where there's a role for the government to 
play, because, otherwise, it won't happen, and you can't expect 
one private sector firm to counter the Russian government's 
effort to influence our elections.
    Senator Hassan. Thank you. Anyone else want to comment?
    [No verbal response.]
    Senator Hassan. Well, then, thank you very much.
    And thank you, Mr. Chair.
    The Chairman. Thank you, Senator Hassan.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    We've talked a little bit, I think, about the kinds of 
dangers posed by devices that are insufficiently secure in the 
Internet of Things world, and as we usher in this new era, 
there will be an explosion of devices that are connected to the 
internet. Everything will be. Cisco has said 50 billion things 
will be connected to the Internet by 2020. We're not talking 
about something in the far distant future. It's upon us now.
    But we're only as strong as the weakest link. We know that 
from experience. And even if only a tiny percentage of these 
devices have weak cybersecurity, they can cause very 
significant harm to consumer privacy and security and even to 
national security.
    In October, an array of popular websites and services, 
including Amazon, PayPal, The New York Times, and Twitter, were 
shut down, and it turned out that the shutdown was the result 
of a hack. The hack was powered by multiple massive botnets 
which operate by commandeering thousands, tens of thousands, of 
vulnerable devices, baby monitors, routers, printers, DVRs, the 
most common household devices, seemingly often the most 
innocent, and the devices were directed to conduct criminal 
activity unbeknownst to the consumer. I'm telling you something 
everybody on this panel knows. Very few Americans know.
    The question I have is: Shouldn't insecure devices be 
regarded as, in effect, defective products, consumer products 
that are perhaps as dangerous as a toy with small parts that 
children may swallow, or blinds that can strangle them because 
they're improperly constructed, or baby toys that have lead? In 
other words, shouldn't they be subject to recall, taken off 
shelves, if they're insufficiently secure, and out of 
consumers' homes if they can't be patched through to a software 
or firmware update?
    So let me ask the panel, in no particular order. But I 
notice that you have your hand up, so go ahead.
    Mr. Grobman. So I think there are some differences that we 
need to be very aware of in looking at IoT devices as compared 
to traditional consumer devices. One is their global nature. In 
the example that you gave with a toy having lead, it is only 
going to do damage within its direct vicinity, whereas the 
challenge that we have, such as in the Mirai attack, it wasn't 
just machines that were located in the U.S. or IoT devices that 
were located in the U.S. executing the attack, but from all 
over the world.
    My team actually ran a test 2 months ago where we created a 
fictitious vulnerable device that we put on an open network in 
January. Within a minute and 6 seconds, it was infected with 
the same botnet that ultimately took down the sites that you 
mentioned. We ran the test from Amsterdam, and we were attacked 
from Vietnam, not the country, but from some infected DVR that 
happened to be in Vietnam.
    So although, I think, on the surface, thinking about some 
of the correlations to the physical world are good things to 
think about, I do think there are many, many differences that 
we need to pay attention to.
    Senator Blumenthal. Why don't we begin at that side and 
just go down the panel.
    Mr. Barlow. Thank you, Senator. So I think at the most 
basic level, if it connects to the internet, you've got to have 
a way to secure it and update it for the lifetime of the 
device, hard stop. Now, what that may evolve into is some sort 
of freshness date or some sort of subscription date for the 
device.
    The challenge I think we face is that no matter how much 
effort and work you put into securing the device when it's 
originally produced--let's take a thermostat installed in 
someone's home. Who knows what vulnerabilities, what 
techniques, what solutions are going to be available 10, 20 
years down the road? So, you know, that's part of what we've 
really got to think about, is the time factor of how long is 
that device viable and how is it going to be updated.
    Mr. Ganesan. Very briefly, I think the challenge from a 
regulatory framework is even if you could have some sort of 
guidelines for the U.S., there are webcams in Singapore that 
could still affect companies here, and there would be no way to 
figure out how to manage that. So we don't want to do something 
that will unfairly put burdens on American companies that 
doesn't apply globally.
    Mr. Harkins. Just to add, I agree with all of what was said 
here, and I think it's also important to note that beyond just 
updating, there is the potential for patching. But, again, as 
Mr. Grobman indicated, patching after the fact, long after the 
fact, might be difficult. So the real question becomes not only 
updating, but really how do we protect it. Updating is one 
potential mechanism to protection, not the only mechanism.
    Mr. Rosenbach. Sir, this isn't my area of expertise, but 
I'd say if you could find a way to put more on individuals and 
make individuals responsible for some of their own 
cybersecurity, that would be another way to turn it around, 
that probably even under the complexities of litigation law 
would get at what you're going to.
    Senator Blumenthal. I very much appreciate these answers. I 
recognize that my question is a very complex and broad one, and 
in a couple of minutes you've suggested some areas, some 
directions, we should go. But I agree that it is a global 
problem. We don't want to put American companies at any 
disadvantage.
    I also agree that individuals bear a part of the 
responsibility, and I agree that, fundamentally, the problem 
may be viewed as different from a toy that just affects a 
single child or family. Maybe that makes it even more 
dangerous, although one life at risk could be judged to be as 
important--certainly as important as a global shutdown of 
Internet devices.
    But I think we're just beginning to grapple with this 
issue, and I'm suggesting a recall type of procedure, because 
very soon, it will be not just a matter of individual security 
or family security or town or city, but it will be truly 
national security, and, indeed, it already is, as we've seen 
from some of the attacks mentioned here--Russians--you 
mentioned Vietnam, a hacker in Vietnam. We're at the point 
where we don't know whether that hacker is a free agent or 
somebody operating under the auspices of a government, not to 
say about Vietnam, but certainly about Russia. That's been the 
experience.
    So we're very much in dangerous uncharted waters, and I 
hope we'll continue this conversation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Let me just ask--as I understand it, blockchain relies on a 
decentralized or distributed database of transactions. And, Mr. 
Barlow, you testified that blockchain has potential 
applications for the sharing of cyber threat intelligence 
because it maintains data security and integrity without 
revealing its source. How could this technology facilitate 
information sharing between industry and Federal agencies and 
within industry-specific information sharing and analysis 
centers?
    Mr. Barlow. Thank you, Mr. Chairman. That's an excellent 
question. I think one of the things we have to recognize is 
whether we're talking about, let's say, a large bank or an 
energy company or even a government, everyone has concerns 
about people looking at the threat information they're sharing 
and trying to decipher other activities, you know. What's the 
acquisition they're about to maybe--the company they're about 
to acquire or a particular form of intelligence they may be 
under.
    One of the things that we look at blockchain with a lot of 
optimism around is the ability to aggregate that data together. 
And when you aggregate it together, all of a sudden, even the 
anonymous becomes even more anonymous. But any time you have a 
big collection of data, you really need to be able to maintain 
that reputation. You don't want people just throwing things in 
there that are either duplicates or throwing out extraneous 
information or, worse yet, false flags.
    One of the real promises of blockchain is it gives people 
the ability to share with cryptographic integrity and integrity 
around the reputation of the source, but with only a few 
people, if any, actually knowing who the source is. So that's 
one of the things we really look at, because you could take 
government data, you could take data from a large bank, and you 
could take data even from small boutique cybersecurity firms, 
aggregate it all together, and it would be nearly impossible to 
figure out who presented this data into the collective, but 
you'd understand that it's a high reputation source and that 
you need to take action immediately.
    The Chairman. Mr. Grobman, Intel is currently conducting 
research on the future deployment of blockchain for security 
applications. What are some of the current hardware limitations 
that you have encountered?
    Mr. Grobman. So one of the things that we're looking to do 
is combine what blockchain can do from an infrastructure 
perspective, so providing greater levels of resiliency and 
immutability on the infrastructure side along with greater 
levels of trust on the device that actually creates the data to 
begin with. So there are a number of hardware technologies that 
are in Intel's upcoming hardware lines that make it so you can 
cryptographically sign data, secure data before it moves into 
the blockchain. So it's really the combination of those two.
    One note just on Mr. Barlow's answer on threat 
intelligence. I do think this is a very good example of using 
hardware to be able to ensure how the data was collected, has a 
high degree of integrity, along with blockchain, but also 
recognize some of the challenges inherent in threat 
intelligence-sharing. It's one of the things that we call a 
free-rider problem, meaning that everybody wants threat 
intelligence, but there's generally very little incentive to 
give up threat intelligence.
    So figuring out how to not only remove the barriers, but 
actually create incentives to provide threat intelligence, much 
like your point on cyber insurance, is a good way for us to 
think about the problem at the next level.
    The Chairman. Mr. Ganesan, we often hear the terms, AI and 
automation, mistakenly used interchangeably. Currently, to what 
extent are the cybersecurity startups and companies that you 
encounter actually using AI and machine learning, and how much 
further do they have to go?
    Mr. Ganesan. Senator, I think there has been a lot of 
progress in AI, in the sense that I would say that even a few 
years ago, a lot of the things that we do today were not 
possible, and that's a combination of things including having 
great cloud services, having data, and then having 
sophisticated algorithms. So where I think the progress is 
being made is in very vertical AI use cases.
    Specifically, I think the exciting areas to me are on 
automation of security alerts. There are just too many security 
alerts in the world. There are not enough people in the world 
to run down every one of these alerts. Every one of these great 
companies create alerts that go out, and I think what AI has 
been good at focusing on is vertical problems where they can go 
in and automate.
    So I think of the progress being made as man plus machine 
as opposed to man versus machine, and so here AI is going to 
work on the mundane stuff so that our security professionals 
can focus on the higher value threat.
    The Chairman. Yes, sir?
    Mr. Barlow. The average security operations center sees 
200,000 security events a day. A large bank would be several 
millions. Human beings simply can't get through that. So one of 
the real promises of artificial intelligence above and beyond 
cognitive systems is the ability to help security operations 
professionals dig through that.
    In our early findings with our Watson project, we're 
finding that Watson's capabilities are 60 times faster than 
manual complex analysis, with 10 times more actionable 
indicators identified. It's bringing that kind of ability to 
sift through this data that can really take the threat 
intelligence that we all need to share and help make an 
actionable difference.
    The Chairman. I think we could all use a Watson in our 
office, probably, to keep sorting all these things out that we 
have coming at us all the time.
    Let me just ask a generic question, and that has to do with 
if you thought about, kind of, what is the thing that keeps you 
up at night, biggest fear, biggest concern, and then maybe to 
put a brighter note on it, kind of, what your biggest hope and 
opportunity is as well. But just kind of a general question, 
but as you think about the space that you work in, what is it 
that concerns you the most? What's the biggest fear?
    Mr. Barlow. My biggest fear is that as security 
professionals, we often become very enamored with the problem. 
It's very easy and very quick to focus on things like nation-
state activity, espionage, and all these types of things, 
which, let's face it, at the end of the day are accepted 
international practices. What I worry about is we also have to 
recognize the level of organized crime in this neighborhood is 
unbelievable, and I really firmly believe that if we work 
together, which is something that we can all agree on 
regardless of which side of the political aisle anyone sits on, 
that the organized crime has got to go, then we can make a real 
and substantial difference. And then the only thing left to 
focus on is the nation-state activity.
    Now, the positive side of this, as much as we talk about 
all the negative, is this is fueling an enormous new economy of 
new talent, of STEM skills, of high-paying jobs, and I think 
it's incumbent on all of us to work together to ensure more of 
that work, more of that skill, more of that new talent lands 
here in the United States.
    The Chairman. Mr. Ganesan?
    Mr. Ganesan. Senator, my biggest fear is critical 
infrastructure. There are many problems we can solve 
individually, but critical infrastructure is something that can 
only be protected at the government level, and, therefore, that 
would be my biggest fear.
    But my biggest hope and optimism is the fact that we have 
the best entrepreneurial ecosystem in the world by far. Every 
major security innovation, every major cybersecurity company 
are funded and created in America. We have the world's best 
venture capital system and the best set of entrepreneurs. What 
we just need to do is to make sure that we enable these people, 
make sure we can attract the best and brightest to come to this 
country, that we have the capital available for them to fund 
it, and give them the room to grow and innovate, because when 
we do that, we can solve anything.
    Mr. Grobman. I think my biggest concern is that what we 
call the threat surface area continues to grow. So much of what 
our discussion was on today dealt with new areas of innovation, 
whether it was self-driving cars or automation in factories or 
connecting our critical infrastructure capabilities. The 
implications of a cyber attack on any of those would be 
catastrophic. But yet our traditional systems are not taking 
care of themselves. So it's not that we can shift our focus 
from the old to the new, but rather we're forced to expand our 
comprehension of what we need to secure in order to survive as 
a nation.
    What gives me hope is this concept that has been discussed 
a bit today on human-machine teaming, where we use technology 
to amplify the effectiveness of our cyber warriors, our cyber 
defenders, that will ultimately enable us to secure this new 
scale of capabilities that we ultimately need to defend.
    The Chairman. Mr. Harkins?
    Mr. Harkins. My biggest fear, honestly, is that we 
perpetuate the cyber risk curve that we see today, and that we 
don't fundamentally address the problem, and we continue to be 
reactive and responsive at a cost to our business, at a cost to 
our customers, at a cost to society.
    My biggest hope, though, honestly, even in this discussion 
today--I've long believed that the biggest vulnerability we 
face today and in the future is the misperception of risk. I 
think we've misperceived it 10, 15 years ago, and I think by 
having the dialogs like we're having today, we'll start a 
better discussion. We'll better understand where new 
technologies, the blockchain, quantum computing, artificial 
intelligence, and machine learning, not only can add benefit in 
other areas of the digital economy, but can be used and tuned 
to prevent issues from occurring to begin with and then better 
detect and respond to them if damage was to occur.
    Mr. Rosenbach. Yes, sir. I would say what keeps me awake is 
that right now, we're watching the evolution of cyber warfare, 
something where there are hacks and the spread of 
disinformation, and that if something bad were to happen either 
to the democratic system or to our financial system in which 
trust in those two systems is undermined to the point that the 
U.S. loses two things that are incredibly valued, and that then 
the country's reaction to those things and maybe even the 
Congress', if I could be so candid, would be so strong that it 
might actually stifle some of the innovation and everything 
good that is happening right now. So that keeps me awake.
    The thing that always makes me feel good--in particular, 
when I was in the Pentagon, if you go to CYBERCOM and you go to 
NSA, and you see really talented, hardworking soldiers and 
civilians who are very talented and could go make several 
hundred thousand dollars on the outside, but they want to stay 
there, they want to keep working on it, they want to defend 
duty networks, and they want to go after the bad guys, that 
always gives me hope.
    The Chairman. Good. All right. Good answers.
    Senator Cruz?

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman. I'd like to thank 
each of the witnesses for being here today, and, Mr. Chairman, 
thank you for holding this important hearing.
    Last November, my Subcommittee on Space, Science, and 
Competitiveness held the first congressional hearings on 
artificial intelligence, both the opportunities and the 
challenges and threats posed by artificial intelligence. Among 
the promise artificial intelligence presents is the opportunity 
to unleash a technological revolution that the world has not 
seen since the creation of the internet, and it could impact 
every sector of our economy.
    A 2016 Accenture report predicted that artificial 
intelligence could double annual economic growth rates by 2035 
and boost labor productivity up to 40 percent. So these are 
exciting new opportunities for our economy, but at the same 
time, this technology produces challenges that could have very 
significant impacts in labor markets and a real need to secure 
the privacy of individuals and to guard against threats, in 
particular, in the cybersecurity space.
    In an interview with Wired magazine last year, President 
Obama stated, ``Then there could be an algorithm that said, `Go 
penetrate the nuclear codes and figure out how to launch some 
missiles.' If that's its only job, if it's self-teaching, and 
it's just a really effective algorithm, then you've got 
problems. I think my directive to my national security team is 
don't worry as much about machines taking over the world. Worry 
about the capacity of either non-state actors or hostile actors 
to penetrate systems, and in that sense, it is not conceptually 
different than a lot of the cybersecurity work we're doing.''
    My question for each of you is: What impact is artificial 
intelligence having on how we currently approach cybersecurity, 
and how will that approach have to change over the next decade?
    Mr. Grobman. So, Senator, I think one of the points you 
make is a very good one, which is, we can't be naive to think 
that artificial intelligence will only be used by defenders, 
and one of the things that we see in cybersecurity is very 
often the attackers are able to implement new technologies more 
rapidly. So having an attacker use artificial intelligence for 
what we call victim selection, essentially the scenario you 
outlined, where it's identifying the place in an organization 
or an environment where they'll be most successful, is some of 
what we're starting to see today.
    The good news is if we recognize that and start planning 
for the bad actors to have that weaponry in their arsenal 
today, we can build strong defenses and most effectively use 
the same technology to build strong capabilities as well, and 
that's what a lot of us at the table are doing in our 
businesses to try to get ready for those scenarios.
    Mr. Harkins. Senator Cruz, I think it's important in what 
you talked about in terms of the potential, and I agree with 
Mr. Grobman. But I also think that we've proven today that we 
can use artificial intelligence to stop malicious code from 
happening. I think it's also possible to use artificial 
intelligence and machine learning to deal with the identity 
problem and do continuous authentication to know that Malcolm 
is Malcolm, his machine is his machine, and allow him to do the 
things that he needs to do as a user.
    I also think it's possible to use artificial intelligence 
and machine learning to disrupt and stop denial of service 
attacks, like what we saw with Dyn. I think we have to use 
these technologies, use the advanced algorithms, use the math 
and the science, and place them in the right spots to really 
get at the heart of the problems and better predict and prevent 
these problems to begin with. And then if we can't, because you 
cannot eliminate the full vulnerabilities, then you have to use 
that technology to speed up the detection and response and 
mitigate and slow the potential for harm.
    Senator Cruz. One of the threats that we heard testimony 
about at the November hearing on artificial intelligence was a 
cybersecurity threat as more and more decisionmaking is based 
on big data, a cybersecurity threat that doesn't come in and 
shut down a system in a way that it's obvious that it has been 
hacked, but rather that goes and alters the dataset that is 
being relied upon for artificial intelligence to make 
decisionmaking and to alter the dataset in a way that it's not 
immediately evident, but changes the decisionmaking in a way 
that could have significant consequences. That struck me as a 
particularly difficult form of cyber threat to respond to. I'd 
be interested in your comments.
    Mr. Grobman. So I think one of the things that we see in 
any new cyber defense technology, is as soon as it gains 
traction in the industry, the attackers look for ways to create 
countermeasures, evasion tactics. A few years ago, the industry 
was very focused on what we call sandbox detonation, 
essentially trying to run an unknown executable in a safe 
environment to see if it had malicious behavior. Very quickly, 
the adversaries would try to fingerprint to detect ``am I 
running in that environment.'' And I think we can expect that 
same mindset for the adversaries as the industry embraces AI-
based defenses.
    So one of the things we're looking at is really 
understanding the attacker's point of view. How will they use 
machine learning poisoning? How will they poison the models? 
How will they force defenders to recalibrate their defenses 
because they sent a lot of false positives that are very costly 
for their operations center? And really recognizing that at the 
beginning will allow us to build more resilient capabilities.
    Mr. Ganesan. Senator Cruz, if I can add a different 
dimension, we are, I think, in the golden age of AI. In the 
next probably 15 to 20 years, we'll get to the point where we 
can do a lot of really impressive things. But now it's a war 
for talent. We need to make sure that we get the best AI folks. 
From where I come from in Silicon Valley, Facebook, Google--
they spend--I'm not kidding you--millions of dollars trying to 
get the best AI folks to join them.
    This global talent is spread all over. My point of view is 
let's figure out a way to make sure that we can get the best AI 
talent from all over the world to come here to our universities 
and, more importantly, stay here and create companies here.
    Mr. Harkins. Senator Cruz, specific to your question around 
a data integrity attack, we have to look at how would a data 
integrity attack occur. One would be I own your system, and I 
own the data base, which means malicious code was placed on 
that. So the way to mitigate that is to prevent malicious code 
from executing.
    The other way that would be simply there is I own your 
identity, or I'm an insider and I changed the data. And, again, 
there are ways to do the authentication to validate the 
individual, and then there's backend detection on the data 
integrity, and I think--as was mentioned earlier with 
blockchaining, I think that's a great way to ensure some level 
of data integrity out in the future and use that for critical 
data to give you a higher level of trust.
    Mr. Barlow. I think one of the challenges in the question 
you posed is that there's a lot of data behind that, and you're 
not looking for the needle in the haystack. There's no one 
sending up a big red flare. You're trying to find a needle in a 
stack of needles with everything else that's going on. And, 
interestingly enough, I think the solution to the problem is 
also artificial intelligence and cognitive systems.
    I've had the opportunity over the last year to watch Watson 
grow up, and, literally, it was like watching a child grow up. 
There was an early day where we--it couldn't understand what 
ransomware was, because it wasn't in the dictionary. So it 
thought ransomware was a city. Right? OK. Well, I can kind of 
see how it would make that mistake. And then we got to the 
point, almost like it was in college. We were grading papers, 
going, ``Hey, you got an A on this one. This one, you still 
need a little work to do.''
    But we're at the point now where we're putting this up 
against talented security teams, augmenting their skills, and 
what it's doing is giving them that peripheral awareness to go, 
``Hey, something very unusual and obscure''--very much to your 
example, Senator--``happened over here. Why is that happening? 
Have I seen it before? Is there a research paper that talks 
about this? Is there another threat intelligence company that's 
identifying this?'' And it's bringing that level of awareness 
right to the surface, but with an evidence-based conclusion, 
and that, ultimately, is the type of thing we need to combat, 
the exact same threat.
    Senator Cruz. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cruz.
    I think we've exhausted members and their questions, so 
thank you all very much, panel.
    I want to, before we wrap up, ask unanimous consent to 
place in the record three pieces of additional testimony. The 
first is from Professors Scott Shackelford and Steve Myers of 
Indiana University. The second is from Larry Clinton, the 
President and CEO of the Internet Security Alliance. The third 
is from Theresa Payton, the CEO of Fortalice Solutions. So 
without objection, it'll be so ordered.
    [The information referred to follows:]

  Prepared Statement of Professors Scott Shackelford and Steve Myers, 
                           Indiana University
    Chairman Thune, Ranking Member Nelson, distinguished members of the 
Committee, thank you for the opportunity to offer this statement for 
the record to help inform your Committee's important work with regard 
to the risks and opportunities of emerging fields for cybersecurity.
    We are professors at Indiana University-Bloomington engaged in 
cybersecurity and emerging technologies research. Our work touches on a 
number of fields of interest to this hearing, including Internet of 
Things (IoT) security, cryptography, the promise and pitfalls of 
blockchain technology, and supply chain cybersecurity. For purposes of 
this statement, we will limit our remarks to the IoT context.
Introducing the Internet of Broken Things
    On July 21, 2015, there was a car crash. This in and of itself is 
not newsworthy given that there are, unfortunately, some 15,000 car 
accidents daily in the United States.\1\ What made this episode 
different, though, was the fact that this crash was not the result of 
drunk driving or human error; rather, code was to blame.\2\ Hackers 
Charlie Miller and Chris Valasek took advantage of fundamental flaws, 
so-called ``zero-day exploits,'' \3\ in the software running a Jeep 
Cherokee and used these entry points to turn on the car's air 
conditioning, change the radio station while cranking the volume, turn 
on the windshield wipers, display a picture of themselves on the car's 
navigation screen, and eventually disable the car's transmission.\4\ 
All of this was done from a laptop some ten miles away from the 
targeted Cherokee.\5\ And this episode was far from unique. Flash 
forward to late 2016 and the appearance of the Mirai botnet, which 
paralyzed much of the web in late 2016 by overwhelming Dyn, an 
Internet-services firm, in an attack that has shown an even harsher 
spotlight on IoT insecurities.
---------------------------------------------------------------------------
    Professor Scott Shackelford
    Associate Professor, Indiana University Kelley School of Business
    Cybersecurity Risk Management Program Chair, Indiana University-
Bloomington
    Director, Ostrom Workshop Program on Cybersecurity and Internet 
Governance
    Affiliate, Harvard Kennedy School Belfer Center Cyber Security 
Project
    Affiliated Scholar, Stanford Center for Internet and Society

    Professor Steve Myers
    Associate Professor of Computer Science & Security Programs 
Director
    Indiana University School of Informatics and Computing

    * This statement was adapted from Scott J. Shackelford et al., When 
Toasters Attack: Enhancing the `Security of Things' through Polycentric 
Governance, 2017 Univ. of Ill. L. Rev. 415 (2017); Scott J. 
Shackelford, When Toasters Attack: 5 Steps to Improve the Security of 
Things, Cyber Magazine (Sept. 8, 2016), http://magazine.milcyber.org/
stories/whentoastersattack
5stepstoimprovethesecurityofthings; Scott J. Shackelford, Opinion: How 
to Fix an Internet of Broken Things, Christian Science Monitor Passcode 
(Oct. 26, 2016), http://www.cs
monitor.com/World/Passcode/Passcode-Voices/2016/1026/Opinion-How-to-
fix-an-internet-of-broken-things, L.Jean Camp et al, TWC: Large: 
Collaborative: Living in the Internet of Things, Proposal for NSF Award 
#1565375.
    \1\ See Nat'l Highway Traffic Safety Admin., Fatality Analysis 
Reporting System, http://www-fars.nhtsa.dot.gov/Main/index.aspx (last 
visited Aug. 6, 2015).
    \2\ See Andy Greenberg, Hackers Remotely Kill a Jeep on the 
Highway--With Me In It, Wired (July 21, 2015), http://www.wired.com/
2015/07/hackers-remotely-kill-jeep-highway/.
    \3\ In a zero-day attack, a hacker creates an exploit before the 
vendor knows about the vulnerability, so the attack base is broader. 
There is little that users can do to slow down zero-days once they are 
unleashed, so an attacker ``can wreak maximum havoc.'' Gregg Keizer, 
Microsoft's Reaction to Flame Shows Seriousness of `Holy Grail' Hack, 
Computerworld (June 7, 2012), http://www.computerworld.com/s/article/
9227860/Microsoft_s_reaction_to_Flame_shows_serio
usness_of_Holy_Grail_hack.
    \4\ See Andy Greenberg, Twitter Hires Elite Apple Hacker Charlie 
Miller To Beef Up Its Security Team, Forbes (Sept. 14, 2012), http://
www.forbes.com/sites/andygreenberg/2012/09/14/twitter-snags-elite-
apple-hacker-charlie-miller-to-beef-up-its-security-team/. Christopher 
Valasek is ``the Director of Security Intelligence at IOActive, an 
industry leader in comprehensive computer security services.'' Chris 
Valasek, RSA Conf., http://www.rsaconference.com/speakers/chris-valasek 
(last visited Aug. 6, 2015).
    \5\ See Greenberg, supra note 2.
---------------------------------------------------------------------------
    Together these and other instances highlight the extent to which 
smart products hold the promise to revolutionize business and society. 
In sum, from 2013 to 2020, Microsoft has estimated that the number of 
Internet-enabled devices is expected to increase from 11 to 50 billion, 
though estimates vary with Morgan Stanley predicting 75 billion such 
devices in existence by 2020.\6\ To substantiate the coming wave, 
Samsung recently announced that all of its products would be connected 
to the Internet by 2020.\7\ Regardless of the number, the end result 
looks to be a mind-boggling explosion in Internet connected stuff. But 
the burning question now is whether security can scale alongside the 
fast pace of innovation.
---------------------------------------------------------------------------
    \6\ See Tony Donava, Morgan Stanley: 75 Billion Devices Will Be 
Connected to The Internet Of Things By 2020, Bus. Insider (Oct. 2, 
2013), http://www.businessinsider.com/75-billion-devices-will-be-
connected-to-the-internet-by-2020-2013-10#ixzz3i4CApJsg.
    \7\ See Rachel Metz, CES 2015: The Internet of Just About 
Everything, Tech. Rev. (Jan. 6, 2015), http://www.technologyreview.com/
news/533941/ces-2015-the-internet-of-just-about-everything/.
---------------------------------------------------------------------------
Enhancing the Security of Things
    What role do policymakers have to help enhance IoT security? We 
have outlined eight areas for your consideration, including a number of 
IoT specific initiatives:

  1.  First, we need more cooperation amongst stakeholders, including 
        information sharing within defined boundaries to build trust, 
        along with graduated sanctions being in place for rule 
        breakers. The auto industry Information Sharing and Analysis 
        Center (ISAC) is one example of this approach that should be 
        replicated in other IoT sectors, though broader IoT Information 
        Sharing and Analysis Organizations (ISAOs) would also be 
        beneficial to break down artificial silos and spread cyber 
        threat data and best practices more widely.

  2.  Second, Congress should consider certain baseline standards for 
        IoT devices, such as the ability to securely and easily accept 
        security updates, and only from authenticated and trusted 
        channels. An initial model is the National Institute for 
        Standards and Technology's (NIST) Cybersecurity Framework, 
        along with its work on Cyber-Physical Systems. Over time, these 
        standards could help establish a standard of IoT cybersecurity 
        care, including new approaches to proactive cybersecurity 
        measures.

  3.  Third, there is ongoing benefit in flexible, guidance-driven 
        frameworks in the IoT context over prescriptive regulation 
        given the fast-evolving nature of these technologies. Still, a 
        range of policy options are available to incentivize 
        cybersecurity investments, ranging from R&D tax breaks to 
        public bug bounty programs and grants to help establish 
        cybersecurity clinic collaborations between firms, research 
        universities, and community colleges across the Nation. Further 
        incentives include liability limitation for certain types of 
        information sharing in the IoT context,\8\ technical assistance 
        for critical IoT sectors, and offering priority consideration 
        to certain Federal grants all serve as examples of such 
        incentives.\9\ We note that security is not currently a 
        property of products that is easily signaled to or understood 
        by consumers, and so it is difficult, at least initially, for 
        consumers to make informed decisions on security, and thus for 
        the market to naturally select towards more secure products. We 
        also recommend that more attention should be paid to the 
        intersection of IoT and the need to secure supply chains. Since 
        IT systems control everything from phones to factories, 
        ensuring these systems are secure is of vital importance to the 
        global economy. Yet this is a daunting proposition given 
        varying sources of insecurity, from malicious--a 2012 Microsoft 
        report found malware being installed in PCs at factories in 
        China--to conflicting commercial incentives, such as Lenovo's 
        installation of advertising software that weaken security in 
        2015. Regardless, manufacturers will have no ability to assert 
        basic security properties of their products if supply chains 
        are not considered.
---------------------------------------------------------------------------
    \8\ This is already happening to an extent with the U.S. Government 
encouraging automobile manufacturers to work with one another through a 
new Information Sharing and Analysis Center and with consumers and the 
government to identify and share cybersecurity best practices. See Pete 
Bigelow, 18 Automakers Agree on New Safety Pact with Regulators, Auto 
Blog (Jan. 15, 2015), http://www.autoblog.com/2016/01/15/18-automakers-
agree-new-safety-pact/.
    \9\ See Michael Daniel, Incentives to Support Adoption of the 
Cybersecurity Framework, White House (Aug. 6, 2013), https://
www.whitehouse.gov/blog/2013/08/06/incentives-support-adoption-
cybersecurity-framework.

  4.  Fourth, IoT providers should be encouraged to undertake good 
        governance best practices, which can be accomplished by 
        effective monitoring of IoT peers and an active role for civil 
        society in shaming outliers. The power of supply chains and 
        private contractual relationships could be brought to bear to 
        help encourage the dissemination of best practices, such as 
        firms requiring NIST Cybersecurity Framework compliance from 
        their suppliers. Similarly, an active dialogue between public 
---------------------------------------------------------------------------
        and private sector supply chain governance is needed.

  5.  Fifth, government should be willing to allow industry to react to 
        data breaches without overly broad, harsh or punitive fines, 
        except in egregious circumstances as has begun to be defined in 
        the U.S. context through FTC Act Section 5(a) litigation. Firms 
        should also be encouraged to make use of existing tools from 
        other contexts, such as integrated reporting schemes, to better 
        inform cybersecurity decision-making.

  6.  Sixth, government should consider the effects that emergent 
        properties of IoT attacks can have on populations when large 
        numbers of IoT devices are simultaneously attacked. For 
        instance, we note a few Internet devices being infected with a 
        botnet provides little security threat, but a large deployment 
        of such devices provides attackers the ability to disrupt the 
        services of even the largest Internet content providers. 
        Similarly, the ability of attackers to disrupt and break a 
        single IoT heating system in a home may be a nuisance, but the 
        ability of attackers to disrupt a large fraction of a 
        community's heating systems in the midst of winter could be 
        considered a local emergency. This is true, if local inventory 
        is not sufficient to replace broken components, or if the time 
        necessary to perform repairs is significant, and the local 
        workforce is insufficient to supply surging demand. We note 
        that emergent attacks on a wide variety of potential IoT 
        products lead to outcomes that can be worrisome. Some simple 
        examples include: (i) if many cars can be stopped in a 
        localized area, then roads can become impassible; (ii) if smart 
        meters can be bricked, then the full communities may lose 
        power; and, (iii) if refrigeration can be affected, communities 
        may lose perishable food stuffs.\10\ Emergent properties of 
        such attacks may necessitate the rethinking of what constitutes 
        critical infrastructure, or the need for minimum security and 
        safety standards in some IoT categories.
---------------------------------------------------------------------------
    \10\ See, Husted and Myers, Emergent Properties & Security: The 
Complexity of Security as a Science, Proceedings of the 2014 New 
Security Paradigms Workshop (2014), pp. 1-14, Victoria, British 
Columbia, Canada, ACM.

  7.  Seventh, government should consider the effects of IoT policy not 
        just on device manufacturers and consumers, but on integrators 
        and managers. IoT deployment ecosystems may comprise more than 
        just IoT devices and various stakeholders IoT devices' 
        environments; indeed, there may exist third parties that assist 
        with the integration and management of IoT devices within a 
        larger IoT ecosystem. These integrators already play a 
        significant role in corporate IoT deployments (for example, 
        building control systems for facilities), and we envision 
        integrators will soon play a critical role in many domestic IoT 
        deployments as well. As an early precursor to such domestic IoT 
        integrators, the Xfinity ISP currently offers its Home 
        package--a suite of home security and automation technologies. 
        However, it is clear that many of the large corporate 
        technology corporations would like to sell services that 
        incorporate consumer IoT devices--both monitoring and 
        supporting them. Ensuring that government policy allows and 
        ensures such integrators to securely and privately support 
        products while interacting with many vendors will ensure more 
        consumer choice and allow for more competitive markets, and 
        prevent vendor lock-in. We support this, even though it will 
---------------------------------------------------------------------------
        admittedly make security technically more difficult to achieve.

  8.  Eighth, government policy on IoT security needs to consider IoT 
        devices in their complete lifecycles. This lifecycle begins 
        with product conception and development; next is device 
        acquisition; the lifecycle proceeds to device deployment; and, 
        after deployment, the lifecycle proceeds to device 
        administration and maintenance. In some cases, the owner of an 
        IoT device might transfer the device to another party, in which 
        case the lifecycle loops back to device acquisition. 
        Eventually, the device manufacturer will end the supported life 
        of the device, thereby rendering that device a ``zombie''--
        where new attacks may be found in widely deployed devices, but 
        manufacturers are no longer willing to support the product for 
        economic reasons, leaving large deployed bases of knowingly 
        insecure products. Security concerns can arise anywhere in this 
        lifecycle, and hence a holistic approach to IoT security must 
        consider the full lifecycle. Additionally, the product 
        lifecycles for many IoT durable goods (e.g., kitchen 
        appliances, thermostats, etc. . . .) is much longer than the 
        typical high-tech gadget. The result is that security must be 
        planned over a longer period of time. For example, a 
        requirement for more stringent cryptography, that is perhaps 
        believed to be resistant to quantum attack, may be more 
        important to deploy in a furnace sold in the near future, than 
        a smartphone, as the smartphones are likely to be out of use in 
        2-3 years, while the furnace may have a 10 to 20 year 
        lifecycle. Again, the longevity of these products and the 
        implications for security are not easily signaled in the 
        marketplace, and may require appropriate incentives or policy 
        to help ensure the desired policy outcome of a secure and 
        private IoT ecosystem.

    Building from these steps, an overarching approach to enhancing the 
Security of Things may be promoted that considers IoT as an ecosystem, 
and encourages IoT providers to take responsibility for how their 
products impact the entire ecosystem (such as how a smart home 
interfaces with an autonomous vehicle). Entities that are information 
gatherers, information aggregators, and information transmitters/
communicators, for example, could be liable for misusing user data, 
especially when such misuse has downstream consequences or involves 
critical or highly sensitive information.\11\ Similarly, organizations 
that produce consumer products that enact poor physical outcomes, by 
interacting with users or their environments and produce damage while 
being used for their intended purpose, as deployed by a typical user 
(and not an expert), might be considered partially liable for such 
damages if their security posture did not meet some industry norms. The 
use of such an approach creates incentives for self-monitoring of the 
ecosystem and may encourage various industries across the IoT landscape 
to work together and gain a broader perspective on how IoT devices and 
data interact. The IoT ecosystem approach could help incentivize 
participants to develop and maintain an appropriate level of 
cybersecurity, is flexible to information type, and is malleable to 
changes in the environment, even as it insists upon ecosystem 
monitoring and taking accountability for the entirety of the system. 
Industry outliers could also find it difficult to purchase and/or share 
information with cooperative industry participants.
---------------------------------------------------------------------------
    \11\ See, e.g., Occupational Safety & Health Admin., https://
www.osha.gov/workers/index.html (last visited Jan. 5, 2015).
---------------------------------------------------------------------------
    Moreover, lessons from related areas should not be ignored since 
device management issues that arise in IoT also come about within other 
analogous fields. Consider two recent examples: Google and Mattel. 
Turning to Google first, under the Family Educational Rights and 
Privacy Act (FERPA), a schools needs to obtain written consent from 
parents before sharing personal information about students, except when 
the school sharing data with ``school officials'' have a ``legitimate 
educational interest'' in the data.\12\ This definition has been 
interpreted to include contractors, since schools now outsource some of 
their functions.\13\ And, Google--it seems--falls under that 
definition.\14\ The result is that Google has been gathering a great 
deal of information about students as a result of their use of certain 
Google products such as Droid-powered tablets and has been using that 
information within its own ecosystem of GoogleWorld, with parents 
having no ability to prevent such information gathering.\15\ How Google 
will use, protect, and store this student information, how or with what 
data sources will this information be aggregated, and to whom will it 
pass on this information remain open questions as of this writing.
---------------------------------------------------------------------------
    \12\ Family Educational Rights and Privacy Act (FERPA), 20 U.S.C. 
Sec. 1232g; 34 CFR Part 99, (1974).
    \13\ See Department of Education, Family Educational Rights and 
Privacy Act (FERPA), Final Rule, 34 CFR Part 99, 5 (2008) http://
www2.ed.gov/policy/gen/guid/fpco/pdf/ht12-17-08-att.pdf.
    \14\ See Andrea Peterson, Google, A `School Official?' This 
Regulatory Quirk Can Leave Parents In The Dark, Wash. Post, (Dec. 30, 
2015).
    \15\ Id.
---------------------------------------------------------------------------
    Mattel is another large corporate entity that has the ability to 
aggregate information across product lines and information sources. 
Yet, it seems unaware of the public's growing awareness of the `creepy' 
factor in the emerging IoT landscape. In 2015 Mattel released ``Hello 
Barbie,'' a smart doll that has a microphone and Wi-Fi connectivity 
that allows Mattel to host two-way conversations with children.\16\ And 
while one can assume the backlash was instant, in fact several privacy 
groups alerted individuals to the two-way communication feature in 
early 2015,\17\ yet the doll was released without major modification in 
time for Christmas 2015.\18\ This example serves as a reminder that 
industry self-monitoring can only serve as a mechanism to flag industry 
outliers; it cannot by itself change the behavior of multinational 
businesses that seek to take advantage of poorly constructed or 
antiquated policy, or individual user apathy. Consequently, while it is 
true that the desire for industry self-regulation seems justified given 
the still nascent state and rapid development of the underlying 
technologies, some IoT regulation may in fact be necessary, especially 
in critical areas of concern, such as transportation and healthcare. 
However, regulation should be limited to at-risk areas or populations 
(such as children) and should be crafted to reinforce existing best 
practice frameworks, as has arguably happened in the electricity 
regulatory context.\19\ Most important to a self-regulatory model, 
policymakers must create incentives to encourage the further refinement 
of best practices as part of an ecosystem of information system 
participants.
---------------------------------------------------------------------------
    \16\ See Benjamin Snyder, Activists Fight Release Of New High-Tech 
Barbie Doll From Mattel, Fortune, (Mar. 25, 2015).
    \17\ See Alejandro Alba, Mattel's Talking Hello Barbie Doll Raises 
Concern Over Children's Privacy, Daily News, (Mar. 16, 2015).
    \18\ See id.
    \19\ See Intelligence & Nat'l Sec. Alliance, Addressing Cyber 
Security Through Public-Private Partnership: An Analysis Of Existing 
Models 7 (Nov. 2009), www.insaonline.org/i/d/a/Resources/
Addressing_Cyber_Security.aspx.
---------------------------------------------------------------------------
    In the creation of the IoT regulatory interventions, policymakers 
must recognize one important behavioral element; individuals often 
behave in a less than protective manner when it comes to what they 
share online. Consider Wyndham as an example; individuals continued to 
provide information to Wyndham after the breach was discovered but 
before litigation ensued. What should Wyndham (and others) take away 
from that fact? Unfortunately, one lesson is that people, in general, 
are oftentimes unwilling or incapable of protecting their own 
information, especially given the recent deluge of data breaches.\20\ 
Yet consumers are at risk in data breaches, especially in the IoT 
environment, and that fact serves as an insulator to information 
security accountability. Thus, the ability to blame user error or to 
limit accountability for due diligence based on general use of service 
consent needs to be questioned. People are predictably apathetic when 
it comes to their online behavior, such as reading terms and 
conditions.\21\ As a result, businesses should accept some 
responsibility in protecting PII. For example, the Health Insurance 
Portability and Accountability Act (HIPAA) only covers patient 
information kept by health providers, insurers and data clearinghouses, 
as well as their business partners, but these definitions are vague. 
The result, in January of 2015 Jacqueline Stokes discovered the home 
paternity test results of 6,000 unsuspecting people openly available 
online.\22\ The individuals had consented to the use of the test, and 
had agreed to receive their results online, but had not consented 
(without ever reading the terms of use) to the information being used 
in aggregate for research and other search activities. As this example 
illustrates, policymakers need to create an information ecosystem that 
insists upon accountability while encouraging the reporting of data 
loss within a flexible regulatory model, while managers should be 
encouraged to plan for the likely behavior of users such as by 
designing automatic security and privacy opt-out protections. 
Similarly, policymakers should consider businesses responsibility to 
not only provide security and privacy features in their products, but 
to provide them in a manner that is ``on by default'' and easily 
understood by the average consumer--and not just technical experts. 
When wireless routers were initially being widely deployed throughout 
consumer households, they often came with many security features, but 
they were difficult and cumbersome to deploy. Laws at the state level 
requiring that manufacturers provide notice about wireless insecurity 
issues and to provide guidance on secure installation may have had an 
effect to prompt more user friend and easy to manage security services.
---------------------------------------------------------------------------
    \20\ See World's Biggest Data Breaches, http://
www.informationisbeautiful.net/visualizations/worlds-biggest-data-
breaches-hacks/ (last visited Jan. 5, 2015).
    \21\ See Rebecca Smithers, Terms and Conditions: Not Reading the 
Small Print can mean Big Problems, Guardian (May 11, 2011), http://
www.theguardian.com/money/2011/may/11/terms-conditions-small-print-big-
problems.
    \22\ See Charles Ornstein, Federal Privacy Law Lags Far Behind 
Personal-Health Technologies, Wash. Post (Nov. 17, 2015). 
Unfortunately, the tail of the lost medical information is a tale often 
told. For example, in 2011 an Australian company did not properly 
secure details of hundreds of paternity and drug tests, making them 
accessible through a public Google search. Id.
---------------------------------------------------------------------------
    Policymakers should also consider instances where the industry 
simply cannot make the decisions about what to do with a given type of 
information within the IoT ecosystem. For example, consider the case of 
a Florida woman's car that informed authorities after she allegedly 
rear-ended two vehicles and left the scene without reporting the 
accident to the authorities.\23\ In this instance, Ms. Bernstein had 
activated Ford's Emergency Assistance safety feature after she was 
involved in a ``sudden change of speed or movement.'' \24\ In these 
instances, the Emergency Assistance feature automatically places an 
emergency call to local first responders allowing emergency personnel 
to assist injured or otherwise incapacitated individuals. 
Unfortunately, Ms. Bernstein was neither and was instead allegedly 
intent on leaving the scene of the accident.\25\ While this information 
may be detrimental to Ms. Bernstein--and those similarly situated as 
her--such information must not necessarily be shielded from sharing 
given that it is serves a public good, in this case of promoting 
traffic safety and accountability. However, it is alternately easy to 
imagine a future where ubiquitous sensor monitoring of data that is 
available for the public good results in an Orwellian state, and policy 
will be needed to find appropriate balances--such decisions almost 
surely should not be left to corporations.
---------------------------------------------------------------------------
    \23\ See Trevor Mogg, Hit-And-Run Suspect Arrested After Her Own 
Car Calls Cops, Digital Trends, (Dec. 7, 2015).
    \24\ Id.
    \25\ Id.
---------------------------------------------------------------------------
    It is also important to encourage effective cybersecurity workforce 
development including the necessity of baking in proactive 
cybersecurity best practices from the inception of a new IoT product 
line. The lesson here is constant vigilance, e.g., letting an initial 
process of cybersecurity due diligence be the first, and not the last, 
word in an ongoing, comprehensive cybersecurity policy that promotes 
cyber hygiene along with the best practices essential for battling the 
multifaceted cyber threat.\26\ Such a policy should be widely 
disseminated and regularly vetted as part of an overarching enterprise 
risk management process, along with having an incident response plan in 
place that includes private and public information sharing 
mechanisms.\27\ These recommendations are in line with FTC guidance, as 
seen in the Wyndham settlement order, which should be considered the 
ground floor of compliance to be supplemented by the NIST Cybersecurity 
Framework and NIST IoT Framework to check for governance gaps that may 
then be filled in by industry best practices. Concrete steps for 
retailers, for example, in addition to the above could include 
installing software to deactivate RFID tags after a pre-determined 
period of time so as to avoid consumer privacy concerns. Powershelves 
could similarly limit real-time location tracking to only specific 
applications. Health data should be encrypted from end-to-end to help 
get ahead of the HIPAA-HITECH Act regulatory curve. Voluntary private-
sector driven certification schemes could also be created to signal to 
customers as to those IoT companies that have taken such basic 
cybersecurity measures.\28\
---------------------------------------------------------------------------
    \26\ See Gregory J. Touhill & Joseph Touhill, Cybersecurity For 
Executives: A Practical Guide 291 (2014) (``You should measure your 
cybersecurity posture as part of your efforts to practice due care and 
due diligence, monitor and control your information systems, maintain 
legal and regulatory compliance, meet contractual obligations, and 
maintain certifications.'').
    \27\ For more on this topic, see Amanda N. Craig et al., Proactive 
Cybersecurity: A Comparative Industry and Regulatory Analysis, 18 Am. 
Bus. L. J. 721 (2015).
    \28\ See David Inserra & Steven P. Bucci, Cyber Supply Chain 
Security: A Crucial Step Toward U.S. Security, Prosperity, and Freedom 
in Cyberspace, Heritage Found. (Mar. 6, 2014), http://www.heritage.org/
research/reports/2014/03/cyber-supply-chain-security-a-crucial-step-
toward-us-security-prosperity-and-freedom-in-cyberspace.
---------------------------------------------------------------------------
    Globally, the U.S. Government should build on the progress made in 
cybersecurity norm building such as in the critical infrastructure 
context with a new focus on IoT. This is already happening to an extent 
in several cross-border partnerships have emerged that may present yet 
another option to protect sensitive PII. For example, in December 2010, 
the U.S. Department of Health and Human Services (HHS) and the European 
Commission's DG CONNECT signed a Memorandum of Understanding (MoU) on 
Cooperation surrounding eHealth/Health IT.\29\ The MoU was signed to 
demonstrate a shared dedication to strengthening transatlantic 
cooperation in eHealth and Health Information Technologies. In 2013, DG 
CONNECT and HHS published a first Roadmap of specific MoU actions.\30\ 
Since then, this Roadmap has guided activities in two priority areas 
(work streams):
---------------------------------------------------------------------------
    \29\ Europa, Memorandum of Understanding (2010), http://
ec.europa.eu/digital-agenda/en/news/memorandum-understanding-eu-us-
ehealth.
    \30\ Europa, Transatlantic Ehealth/Health It Cooperation Roadmap 
(2013), http://ec.europa.eu/digital-agenda/en/news/transatlantic-
ehealthhealth-it-cooperation-roadmap.
---------------------------------------------------------------------------
  1.  Standards development to advance the development and use of 
        internationally recognized standards supporting transnational 
        interoperability of electronic health information and 
        communication technology, and

  2.  Workforce development to develop and expand the skilled Health IT 
        workforce in Europe and the U.S.\31\
---------------------------------------------------------------------------
    \31\ Id.

    In 2015, it was agreed between DG CONNECT and the U.S. HHS to add a 
third priority area: Transatlantic eHealth/Health IT Innovation 
Ecosystems.\32\ This work stream aims to encourage innovation in the 
eHealth/Health IT industry and ensure linkages to the other two Roadmap 
work streams.\33\ Over time, further linkages could be added to this 
and other IoT partnerships; indeed, the active collaboration 
surrounding the NIST Cybersecurity Framework could be extended with a 
special emphasis on IoT concerns as part of the growing bottom-up 
approach to enhance the Security of Things.\34\
---------------------------------------------------------------------------
    \32\ Id.
    \33\ Public Stakeholder Consultation on Next Phase of EU-US 
Cooperation in eHealth/Health IT, (Europa Press Release, Apr. 2015), 
https://ec.europa.eu/digital-agenda/en/news/public-stakeholder-
consultation-next-phase-eu-us-cooperation-ehealthhealth-it.
    \34\ See Scott J. Shackelford, Scott Russell, & Jeffrey Haut, 
Bottoms Up: A Comparison of ``Voluntary'' Cybersecurity Frameworks, 16 
Univ. of Cal. Davis Bus. L.J. 217 (2016).
---------------------------------------------------------------------------
Conclusion
    We have come a long way since Kevin Ashton first used the 
expression ``Internet of Things'' as the title of a presentation he 
gave for Proctor & Gamble in 1999. The promise of networked smart 
devices is finally being realized, but in order to avoid the same 
litany of cyber attacks and data breaches we have seen in other 
contexts it is vital to adopt proactive policies that help drive the 
evolution of effective and secure IoT governance before cyber 
insecurity becomes replete in the Internet of Everything.
                                 ______
                                 
        Prepared Statement of Larry Clinton, President and CEO, 
                       Internet Security Alliance
Cybersecurity Is Not An ``IT'' Issue. To Address IT Effectively We Need 
        To Look At Cybersecurity As An Economics Issue
    Expecting technology to provide the answer to our cybersecurity 
problems would be a perilous course. A more promising path would be to 
understand the true nature of the cyber threat and take a more 
enterprise wide approach to addressing it.
    Two months ago, the National Association of Corporate Directors 
(NACD) released the second edition of its Cyber-Risk Handbook, the only 
private sector cybersecurity document ever endorsed by both the 
departments of Homeland Security and Justice.
    The very first principle of the NACD Cyber Risk Handbook is that 
cybersecurity is not an information technology issue. While it has a 
substantial technological component, cybersecurity is an enterprise-
wide risk-management issue.
    Information technology is only the pathway for cyberattacks--the 
``how'' of cyberattacks.
    If we are to address the cybersecurity issue in a long term, 
sustainable fashion we need to not only address the ``how'' of 
cybersecurity, but also the ``why'' of cybersecurity: the reasons that 
attacks occur.
    From the private sector perspective, (and the core of the Commerce 
Committee's jurisdiction) the reason cyberattacks continue to occur is 
the unbalanced nature of digital economics.
    The basic equation of cybersecurity economics is this. Cyberattack 
methods are easy and cheap to access, they can generate enormous 
profits--in the hundreds of billions of dollars--and the business plan 
for the attackers is secure and sustainable as attackers reinvest in 
their enterprise to become ever more sophisticated and effective.
    On the security side, cyber defense must protect an inherently 
insecure system that is growing technologically weaker with the 
explosion of mobile devices and the Internet of Things. We are almost 
inherently a generation behind the attackers, our laws and regulations 
are not well suited to address international and often state-sponsored 
digital threats. Moreover, the government mandates being piled on the 
private sector are often counterproductive. Finally, there is virtually 
no effective law enforcement. We successfully prosecute less than 2 
percent of cyber criminals.
    So long as we continue to try to address the cybersecurity issue 
from a techno-centric perspective and ignore the fundamental economics 
that are driving the problem, we are destined to continue to fail 
badly.
    To effectively address this issue, we must frame it differently. 
The problem is not that the technology is bad. Modern technology is 
nothing short of amazing.
    The problem is that the technology is under attack. And the reason 
the technology is under attack is because all the economic incentives 
favor the attackers.
    That is a fundamentally different problem that demands 
fundamentally different set of solutions. Within the private-sector, we 
have begun to address the issue in a broader risk management 
perspective that includes technology but places it in the context of 
the overall enterprise operation, not at the center of it. We are 
already seeing positive results.
    For example, PricewaterhouseCoopers, in their 2016 Global 
Information Security Survey reported that ``Guidelines from the 
National Association for Corporate Directors (NACD) advise that Boards 
should view cyber-risks from an enterprise-wide standpoint and 
understand the potential legal impacts. . . . Boards appear to be 
listening to this guidance. This year we saw a double-digit uptick in 
Board participation in most aspects of information security. 
Respondents said this deepening Board involvement has helped improve 
cybersecurity practices in numerous ways. It may be no coincidence 
that, as more Boards participate in cybersecurity budget discussions, 
we saw a 24 percent boost in security spending.''
    The Internet Security Alliance believes the Senate Commerce 
Committee, indeed the full Senate and Congress can help facilitate 
further progress by addressing the cybersecurity issue in a less 
techno--centric, and more enterprise risk management/economic fashion. 
ISA would offer three paths for the Commerce Committee to pursue.
Steps Toward Creating Better Economics For Cybersecurity
    ISA would like to suggest three measures for improving 
cybersecurity that come within the jurisdiction of the Senate Commerce 
Committee.

  1.  Create a Rational Cyber Regulatory System

  2.  Promote incentives

  3.  Test the NIST Cybersecurity Framework for cost effectiveness.
Create a Rational Cyber Regulatory System
    No one, certainly not ISA, is saying we ought not to have cyber 
controls or assessments. But we need to have a rational and well-
thought out system or we will waste vital resources and undermine our 
security.
    Earlier this week ISA released a ``Cyber Regulation Fact Sheet.'' 
The fact sheet (attached) demonstrates multiple examples of how the 
tremendous growth in cybersecurity rules and regulations is diverting 
scarce security resources and undermines our Nation's cyber defenses.
    One of the unintended consequences for organizations like ISA that 
has been raising awareness of the cyber threat for 15 years, is that we 
now have cyber mandates spring up like weeds as virtually every 
governmental entity, Federal state and local fight to be the ``cyber 
guy.'' The result is an uncoordinated, inconsistent and often 
counterproductive setoff requirements that is actually hurting, not 
helping, to increase security.
    Research tells us we are experiencing more than a million cyber-
attacks a year and we don't have nearly enough cyber professionals to 
help protect us. We need to use our scarce resources efficiently and 
effectively. Yet some firms are now spending 30 percent of their 
budgets and 40 percent of their time of various compliance regimes none 
of which have been shown to empirically aid in securing our cyber 
systems.
    ISA's fact sheet offered numerous examples from multiple industry 
sectors of the growth on cyber regulations often inconsistent with the 
risk management philosophy that professionals overwhelmingly suggest is 
a more effective approach to cyber defense. Among the statistics cited 
are:

  <bullet> In financial services increases of over 300 percent in 
        cybersecurity and privacy related questions financial 
        institutions now need to answer.

  <bullet> In defense there are new rules for unclassified controlled 
        information that force companies to label bits of information 
        based on 23 categories, 84 sub-categories and hundreds of 
        different citations. Ironically these rules could actually make 
        it easier for attackers to find useful data.

  <bullet> In Energy DOE has proposed requirements (10 CFR 73.53) that 
        all networks in the sector meet controls (DG 5062) so overly 
        broad that the mandate will require the expenditure of millions 
        of dollars to implement controls not tailored for the risk of 
        the networks.

  <bullet> New defense acquisition rules will require small companies 
        to comply with extraordinary detailed requirements that may 
        well drive many smaller firms out of the defense business which 
        is both inconsistent with DoD policy to promote the use of 
        smaller companies but also harms national security as many of 
        these firms are the top suppliers who can find markets for 
        their services that don't require the extensive compliance

  <bullet> Various regulators are demanding public disclosure of 
        supposedly material cyber-attacks when in fact the attack 
        itself may not have a material effect, but the disclosure may 
        well trigger unjustified (and usually temporary) stock 
        fulgurations. As a result, it is the disclosure creating the 
        material effect and provides a path for stock manipulation 
        contrary to the regulator's mission.

    Our fact sheet is by no means an exhaustive list it sim early 
illustrative of the uncoordinated government response to the 
cybersecurity problem that need to be brought under control.
    Part of this problem is that the government itself is not properly 
structured for the digital age and hence digital age issues like 
cybersecurity run into legislative and executive jurisdictional 
barriers. However, the Commerce Committee with its overarching mandate 
to promote U.S. commerce may well be positioned to provide some of the 
needed coordination.
Promote incentives
    We believe that the most effective way for the private sector to 
improve the level of its cybersecurity is for the Congress and the 
Federal Government to consider what sets of incentives for better risk 
management can be brought to bear.
    Government incentives allocated to the private sector in exchange 
for behaviors that, without incentives, would be not economically 
sustainable are not unprecedented. They are responsible for the 
telecommunications and electric infrastructure that undergird much of 
American prosperity. We call this the ``social contract'' approach to 
infrastructure and the Internet Security Alliance has long argued that 
a similar approach is needed for cybersecurity.
    In the early twentieth century, the hot technologies of the time 
were telecommunications (phones) and distributed electricity. Initially 
these services were provided where the economies justified them: urban 
and affluent areas. The policy makers of the era not only understood 
that universal service of these technologies would have broad social 
benefit but also realized government couldn't accomplish this on its 
own. Moreover, compelling the private sector to provide the services 
without adequate compensation would be an unsustainable model. So a 
``social contract''--essentially an economic deal--was developed. 
Private companies agreed to provide universal service at regulated 
rates. In exchange, the government agreed to guarantee a substantial 
rate of return on their investments.
    And it worked. The broader systemic benefits of the social contract 
were enormous. The electric and telecommunications infrastructures were 
deployed at an accelerated pace compared with other nations that chose 
a government-centric model. Moreover, the infrastructures, adequately 
supported by the economic incentives imbedded in the contract, were 
continually made more sophisticated and innovative. The rapid 
development of these infrastructures provided the foundation for 
accelerated industrialization, job creation, and innovation. These 
systemic effects were essential to turning the United States from a 
second-rate world presence at the turn of the twentieth century into 
the world's leading superpower in a little more than a generation.
    More recently, the House GOP Task Force on Cybersecurity made their 
number one recommendation to develop a menu of incentives for the 
private sector to begin to address the economic incentive imbalance 
discussed above. To be fair there has been some progress since the 
House GOP report. In 2013 President Obama in his Executive Order 13636 
also embraced the notion of using market incentives as opposed to 
regulatory mandates to promote cybersecurity and in the last Congress 
bipartisan legislation on cyber information sharing used the market 
incentive of liability protection.
    As we move forward we need to enhance and accelerate the 
development of market incentives. While obvious techniques such as tax 
breaks for smaller companies to adopt sophisticated defenses not 
otherwise commercially justifiable can be used, there are many other 
models of incentives that can be adapted. For example, just as 
pharmaceutical companies with good records can gain access to an 
accelerated drug approval process perhaps good actors in technology 
could get patent approval preference, or utilities could gain access to 
a fast rerack permitting system. Regulatory forbearance could be 
offered for organizations meeting specified levels of maturity in 
traditionally regulated industries and streamlined audit and assessment 
process can also be developed.
    The reality is that many cyber-attacks are nation-state backed and 
no private organization can match the resources of a nation state. It 
may well be that private companies will have to take on traditionally 
governmental responsibilities in the digital age and government needs 
to find a sustainable and cost efficient mechanism to deal with this 
new reality.
    No less a source than the National Infrastructure Protection Plan 
(NIPP) has observed that the private sector and the public sector 
assess cyber risk on very different dimensions. For the private 
sector--operating under a mandate to maximize shareholder value--the 
cybersecurity calculus is largely economic. This reality generates a 
higher level of security risk tolerance in the private sector than the 
public sector. For example, a private entity maybe comfortable with 
allowing 10 percent of inventory to ``walk out the back door'' every 
month because it will cost 11 percent to purchase the additional guards 
and cameras to fully secure themselves. The public sector doesn't have 
this luxury. Government has enormous non-economic concerns it must 
accommodate such national security and citizen privacy.
    Today, we need a twenty-first-century systems approach to address 
the cybersecurity issue. The new model needs a much more dynamic 
motivator than backward-looking regulations and potential enforcement. 
Since 90 percent of infrastructure is owned and operated by the private 
sector and the principal problem with cybersecurity is economic, the 
best model to promote a forward-thinking risk-management approach to 
cybersecurity would be injecting positive economic incentives into 
continual upgrading and management of private cyber systems.
Test the NIST Cybersecurity Framework for cost effectiveness.
    The NIST Cybersecurity Framework rightly enjoys the praise of wide 
swaths of government and the private sector. We join in that praise, 
although we note that the Framework is not a standard but a broad 
framework that can, and ought to be, implemented in many ways depending 
on unique aspects of the system its being applied to and the threats 
that system is facing. As such, the specific way the Framework is used 
is not necessarily the most cost effective approach. This is why the 
executive order that called for the Framework's creation, E.O. 13636, 
also stipulates that the Framework ought to be cost effective--a direct 
call to address the economic imbalance causing the cybersecurity 
crisis.
    Unfortunately, three years after NIST released the Framework, there 
have been no efforts to evaluate it for cost effectiveness.
    This is even despite Section 104 (b) of the recently signed 
American Innovation and Competitiveness Act, which in states that NIST 
shall ``conduct research and analysis (A) to determine the nature and 
extent of information security vulnerabilities and techniques for 
providing cost effective information security'' (emphasis added).
    The lack of data in this area is a huge drag on cybersecurity since 
the commercial sector cannot afford economically unsustainable 
cybersecurity measures. It's likely led to an underinvestment in 
cybersecurity in many sectors, since it's impossible for companies to 
trace the quantitative reduction in risk exposure caused by 
cybersecurity measures.
    Most importantly, lack of cost data makes it impossible for the 
government to understand which specific areas of cybersecurity it 
should spend its considerable powers on encouraging within the private 
sector. In the absence of data, cybersecurity advice tends toward the 
general, along the lines of ``implement best practices.'' But abstract 
exhortation is not working. We now need to know which best practices, 
and why they're not being adopted. The ISA suspects cost is a major 
factor.
    After determining cost effectiveness, the government should move to 
create incentives to encourage adoption. Steps that improve the bottom 
line by diminishing quantifiable risk will find natural take up by the 
private sector. But measures that are effective but too expensive to 
justify economically--but necessary for securing the economic and 
national security of the United States--are precisely where targeted 
incentives should be deployed.
    We urge the Committee ought to use its tools and processes to test 
the cost effectiveness of NIST Framework implementation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Theresa Payton, CEO, Fortalice Solutions LLC
    Chairman Thune, Ranking Member Nelson, distinguished members of the 
Committee:

    It is an honor to submit this written testimony on behalf of 
Fortalice Solutions LLC (``Fortalice''). Fortalice is a cybersecurity 
and intelligence firm that provides and enhances national and economic 
security through the delivery of highly-focused, mission-critical 
cybersecurity solutions to top business and government entities. We are 
a team of cybercrime fighters, techies, geeks, policy wonks, and 
enthusiastic security and intelligence professionals, who strive to 
protect people, businesses, and nations against threats to their cyber 
footprint. Fortalice applauds the Committee for prioritizing 
cybersecurity and focusing on how the Nation can most effectively 
achieve the equally important goals of: (a) unleashing rapid, continued 
technological innovation, and (b) ensuring that technology is secure. 
Many in private industry and the government argue that achieving these 
goals requires a balancing act. Focusing on a solution that seeks to 
balance these goals, however, does a disservice to the nation: a 
balancing act insinuates that both sides of the equation--innovation 
and security--must give a little to achieve balance. Fortalice believes 
private industry and government need to move toward an integrated risk 
philosophy that accelerates and maximizes, not balances, innovation and 
security.
Explosion of Emerging Technologies and Challenges
    A few years ago when Ted Claypoole and I wrote our second book on 
Internet privacy and security, ``Privacy in the Age of Big Data: 
Recognizing Threats, Defending Your Rights, and Protecting Your 
Family,'' we predicted that the broken technology innovation lifecycle, 
combined with outdated security strategies, would be overrun by 
consumers' insatiable desire to rapidly integrate the latest digital 
advancements in apps, social media platforms, and smart devices at home 
and at work. We predicted this would create a security and privacy 
conundrum by 2020, but that prediction came sooner than we anticipated.
    In the Internet of Things (IoT) area alone, the predictions for the 
explosion of emerging technologies are staggering. Gartner predicts 
that by the end of this year, 8.4 billion ``things'' will be connected, 
a 31 percent increase from 2016, and that by 2020 we will reach 20.4 
billion connected ``things.'' \1\ Internet connected refrigerators have 
long been the poster child of IoT.
---------------------------------------------------------------------------
    \1\ Gartner. Press Release, ``Gartner Says 8.4 Billion Connected 
``Things'' Will Be in Use in 2017, Up 31 Percent From 2016.'' February 
7, 2017.
---------------------------------------------------------------------------
    Recent events indicate that there is more to it than just worrying 
about your home refrigerator spilling your dieting secrets to the 
world. This explosion in digital devices, the data they collect, and 
the integration into our every day workplaces and personal lives, 
provides numerous economic and societal benefits--but it will also 
require the security marketplace and practitioners to immediately 
change the paradigm they use to design security solutions to one that 
enhances security products and services. We cannot take a pause on 
innovation to integrate security. IoT creates new business value, 
improves customer experiences, and may possibly even save lives. For 
example, in the U.K., neighborhoods are testing an IoT street lamp that 
shines extra-bright when it detects noises such as banging and 
hollering. It's also armed with cameras that transmit a live video feed 
to the cloud for further review.
    Despite its wonderful impact on our lives, emerging technology 
creates more complexity for security teams because of lagging security 
approaches and infrastructure. The security company, RSA, released a 
Cyber Security Poverty Index in 2016 that indicated that 72 percent of 
large enterprises, and these are the ones with the budget and resources 
for a robust security program, are unprepared for all aspects of a data 
breach (including identifying the scope, recovery, and 
notification).\2\
---------------------------------------------------------------------------
    \2\ RSA. ``2016 RSA Cybersecurity Poverty Index.''
---------------------------------------------------------------------------
    Why do we need to act now? Security issues existed well before 
integrating emerging technology, including IoT. Candidly, if we do not 
make a commitment to a major shift in how we establish a new set of 
security protocols, human safety, not just data, is at risk. How many 
warnings do we need before we act? Many U.S. adults report they have 
had their data reported stolen in a data breach and, in some cases, 
have been victimized by identity theft. In fact, 2 in 5 Americans 
reported to Bankrate.com that they have either been an identity theft 
victim or know someone who has--this is a staggering statistic that 
continues to escalate.\3\ We also know from recent FBI reports that 
intellectual property theft, ransomware, and extortionware are on the 
rise. As seen in October 2016, random cybercriminal groups can impact 
major companies like Amazon, Twitter, and Netflix, who are almost 
solely dependent upon the reliability of the web, and render them 
unavailable to their customers via a Distributed Denial of Service 
(DDoS) attack. We must not wait to change how we protect and defend our 
emerging technology, data, and infrastructure until the next 
catastrophic attack impacts human safety. The safety of humans trumps 
cyber security. The time to act is now.
---------------------------------------------------------------------------
    \3\ Dickler, Jessica. ``41 Million Americans Have Had Their 
Identities Stolen, Survey Finds.'' CNBC. October 11, 2016.
---------------------------------------------------------------------------
    Fortalice believes there are several specific challenges overall 
for the security industry that this Committee should consider:

  <bullet> Marketplace demands for technological innovation are 
        outpacing security: An age old problem in the security industry 
        is the technology innovation lifecycle. For far too long, 
        industry has followed an inherently broken process for 
        producing new products. First, the great thinkers on the 
        innovation and design teams come up with an idea for the 
        marketplace. Second, the innovation and design teams develop 
        and build the product. Finally, once the product is already 
        built, the innovation and design teams consult the security 
        team during the testing phase. The security team may find 
        vulnerabilities, however, it is often too late or too expensive 
        to fix those vulnerabilities before going to market. 
        Cybercriminals know this technology innovation lifecycle is 
        flawed and take full advantage of it. Tomorrow's hot new IoT 
        item is today's target of cybercriminals. This flawed lifecycle 
        is exacerbated as emerging technologies hit the marketplace at 
        a dizzying pace. As we saw in the DDoS attack on October 21, 
        2016, when the Internet screeched to a slow crawl and in some 
        cases was inoperable, the lack of security in our emerging 
        technology hit critical mass. On that fateful day, baby cams, 
        smart devices from thermostats to security surveillance 
        cameras, and numerous IoT devices were weaponized and used to 
        target an Internet infrastructure company, Dyn. Dyn houses a 
        portion of the web's domain name system (DNS) infrastructure. 
        Companies, including but not limited to, CNN, Spotify, Reddit, 
        the New York Times, Netflix, Amazon, and Twitter were all 
        impacted that day. The DDoS attack was largely powered by the 
        Mirai botnet which took over the unsecured devices of innocent 
        consumers and businesses. This attack is considered the largest 
        DDoS attack ever to be reported.\4\ How do we prevent another 
        October 21st? The design phase must include security engineers 
        at the beginning. Implemented correctly, elegant security 
        design can enhance and improve the development cycle, 
        contribute to speed to market, and create a market 
        differentiator by focusing on privacy and security in the 
        design.
---------------------------------------------------------------------------
    \4\ Woolf, Nicky. ``DDoS Attack That Disrupted Internet Was Largest 
of Its Kind in History, Experts Say.'' The GuardianNews and Media. 
October 26, 2016.

  <bullet> Security marketplace often solves for past cybercriminal 
        behavior and does not anticipate new tactics: Security vendors 
        today provide critical services that help companies monitor 
        networks; these services are necessary but not nearly 
        sufficient for combatting dynamic cybersecurity threats. While 
        having coffee with my esteemed security colleagues recently, 
        one challenged all of us to name a single security problem that 
        has been 100 percent eliminated in the last decade by security 
        solutions. We couldn't. The focus has been too heavy on 
        minimizing risk, and as we saw when we hit a milestone of one 
        million new pieces of malware released daily in 2015,\5\ it is 
        challenging for the security industry to keep up. The best that 
        most legacy security services model can do is react. For 
        example, most security services scan for known vulnerabilities 
        and then layer on more rules and more tools to protect against 
        known vulnerabilities. While this is an important service, the 
        security industry must also proactively anticipate the next 
        wave of threats. We know something is wrong with our 
        cybersecurity approach when worldwide spending on cybersecurity 
        is predicted to top $1 trillion for the five-year period from 
        2017 to 2021 and the Global Cost of Cybercrime will hit $6 
        Trillion Annually in 2021.\6\ That is not a winning business 
        case. The emerging technology lifecycle and the legacy 
        approaches to security must be disrupted now.
---------------------------------------------------------------------------
    \5\ Harrison, Virginia and Pagliery, Jose. ``Nearly 1 Million New 
Malware Threats Released Every Day.'' @CNNTech, April 14, 2015.
    \6\ ``Global Cost of Cybercrime Predicted to Hit $6 Trillion 
Annually By 2021, Study Says.'' Dark Reading. October 26, 2017.

  <bullet> NIST Framework sets a floor: In 2014, this Committee 
        spearheaded the Rockefeller-Thune act and significantly 
        advanced cybersecurity by codifying a voluntary and risk-based 
        process that forms the basis of major aspects of today's 
        cybersecurity risk management landscape. Fortalice has 
        performed dozens of assessments against the resulting National 
        Institute of Standards and Technology (NIST) Cybersecurity 
        Framework, and as we've seen through our clients, the next 
        phase for the NIST Framework should be enabling companies to 
        develop functional plans of execution. In our work with private 
        sector companies large and small, many are familiar with the 
        NIST Framework and have performed the assessment, but they are 
        unclear on how to integrate lessons learned from these 
        assessments into their every day business processes.
A Framework for Maximizing Innovation and Security
    Fortalice offers the following framework for maximizing innovation 
and security:

  1.  Incentivize Security: One reason security is broken for all of us 
        is that security is not designed for the human psyche. We do 
        not expect untrained consumers to do their own dental work or 
        health physicals, but we expect them to know how to protect 
        themselves online. This is a fundamental design flaw that needs 
        to be changed through incentives. For companies that invest in 
        cybersecurity, either as a buyer or developer of emerging 
        technologies, offer R&D Tax Credits. For designers of emerging 
        technology, this will provide the financial incentive to speed 
        up and prioritize security engineering in design. For 
        businesses purchasing emerging technology, the R&D tax credit 
        for implementing security will incent them to ask the right 
        questions of vendors and product manufacturers. The questions 
        will lead to further adoption of best practices such as the 
        NIST framework. Financially incentivizing security ensures it 
        becomes a priority in the Boardroom in addition to the server 
        room. Additional tax or financial incentives should be awarded 
        to Internet Service Providers (ISPs) that agree to make 
        security for businesses and consumers work ``like an app''. 
        Imagine if businesses and consumers could update ISP routers 
        with vital security patches, block known bad traffic, and 
        receive alerts and warnings that Internet traffic is suspicious 
        and have the option to block it all via an app. That is how you 
        design for the human instead of asking the human to conform to 
        security.

  2.  Change the Narrative Regarding Data Breaches: The more we know 
        about a data breach, the more information we have to improve 
        security designs. Recognize that all companies that are victims 
        of cybercrime are truly victims. The media often vilifies 
        companies that have a data breach. This creates a huge 
        disincentive to companies that would otherwise come forward to 
        share their lessons learned from data breaches when they are 
        not compelled to do so.

  3.  Make Emerging Technologies Work for Security: Innovation and 
        emerging technologies can be leveraged to accelerate security. 
        For instance, IoT devices can be configured to produce 
        behavioral based analytics and monitor critical assets. IoT 
        security applications can also develop baselines for alerts and 
        notify security practitioners of key indicators, such as when 
        traffic volumes are high or when behavior patterns just don't 
        make sense. Policies should be crafted to further this end.

  4.  Promoting Risk Management Frameworks: Perhaps the most important 
        work that the Committee and Congress can do is to continue 
        leveraging the legislative process to examine and assess the 
        Nation's cybersecurity needs in the short- and long-term and 
        ultimately seek enactment of smart legislative solutions. 
        Fortalice commends the Committee on Rockefeller-Thune, and 
        codifying the NIST Framework process, and urges the Committee 
        to consider follow-on actions for this important legislation, 
        such as codifying incentives to promote further adoption of 
        risk-based cybersecurity models. Furthermore, private industry 
        would benefit from help with implementation in the form of case 
        studies with suggested implementation plans mapping out 
        suggested first, second, and third technical steps to help them 
        implement or transform their security programs. The Committee 
        could go even further--work to shift the emphasis in future 
        frameworks to making sure the basics are covered by providing 
        industry benchmarks that help explain how an organization is 
        protecting their data from the inevitable data breach.

  5.  Communication and Awareness: We encourage the Committee to 
        develop a communication campaign leveraging case studies to 
        continue to drive awareness. Examples include actively 
        promoting the work of this Committee through conferences, 
        social media sites such as LinkedIn, and opinion pieces in 
        local and national newspapers.
About Fortalice Solutions
    Fortalice Solutions was founded in 2009 by former White House Chief 
Information Officer, Theresa Payton, to provide and enhance national 
and economic security through the delivery of highly-focused, mission-
critical cyber security solutions to clients. She and her business 
partner, Vince Crisler, a former United States Air Force officer, 
former White House Communications Agency Presidential Communications 
Officer, and current cybersecurity subject matter expert to Fortune 200 
companies, strive to ensure that every service and solution is grounded 
in practicality and a real-world understanding of the threats to 
people, their business, and nation. The Fortalice team represents the 
highest quality of cyber security and intelligence talent available 
today, and delivers analysis, training, action, transparency and 
creative problem solving to keep what matters most safe. Fortalice has 
deep experience in the cybersecurity life cycle, from the keyboards in 
the server room to the boardroom.
    Fortalice services include:

  <bullet> Designing, Protecting, and Orchestrating Significant 
        National Security Events

  <bullet> Risk, Threat, and Vulnerability Assessments

  <bullet> Incident Response and Forensics Support

  <bullet> Adversarial Targeting through Red Teaming and Penetration 
        Testing

  <bullet> Payment Card Industry (PCI), HITECH, FFIEC and Other 
        Regulatory Compliance Support

  <bullet> Cybersecurity Crisis Communications and Public Relations

  <bullet> Business Protection Plans

  <bullet> Strategic Spend Plan for Security that Answers: ``How Much 
        is ``Enough''?''

  <bullet> Confidential and Sensitive Company & Personal Communication 
        & Data Protection Strategies

  <bullet> Digital surveillance including Cyber asset and data 
        protection for executives, high-net worth individuals, high-
        profile individuals (e.g., politicians and celebrities), and 
        victims of cyberstalking, revenge porn, and other cybercrimes

  <bullet> Vendor Management and Supply Chain Security Protection

    For more information visit us at: www.fortalicesolutions.com

    The Chairman. We'll keep the record open for a couple of 
weeks so if senators have additional questions that they want 
to submit for the record. If you would respond as quickly as 
you can to those questions, we'll try and wrap it up within a 
couple of weeks time. So we would appreciate you doing that.
    It has been a great panel. Thanks so much for your input. A 
lot of good interaction. Lots of questions, probably more 
questions than answers, but I think this is an issue that's 
going to be with us for some time, and it's important that we 
stay ahead of our adversaries and that we're constantly looking 
for new and better ways, not only of taking full advantage of 
the wonderful benefits of the innovation, the technologies out 
there, but also to make sure that we are securing and providing 
the right levels of security and safety for the American people 
and for users of these great systems.
    So thanks again. We appreciate it, panel. And with that, 
this hearing is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]

                            A P P E N D I X

                      Electronic Privacy Information Center
                                     Washington, DC, March 22, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We write to you regarding the Committee's hearing on ``The Promises 
and Perils of Emerging Technologies for Cybersecurity.'' \1\ American 
consumers face unprecedented privacy and security threats. The 
unregulated collection of personal data and the growth of the Internet 
of Things has led to staggering increases in identity theft, security 
breaches, and financial fraud in the United States. Artificial 
Intelligence implicates a wide range of economic, social, and political 
issues in the United States. These issues have a significant impact on 
the future of cybersecurity, and we commend the Committee for exploring 
them.
---------------------------------------------------------------------------
    \1\ The Promises and Perils of Emerging Technologies for 
Cybersecurity, 115th Cong. (2017), S. Comm. on Commerce, Science, and 
Transportation, http://www.commerce.senate.gov/public/index.cfm/
hearings?ID=E0E0BBA1-231C-42A4-AF33-FC4DDFCF43C3 (March 22, 2017).
---------------------------------------------------------------------------
    EPIC is a public interest research center established in 1994 to 
focus public attention on emerging privacy and civil liberties 
issues.\2\ EPIC is a leading advocate for consumer privacy and has 
appeared before this Committee on several occasions.\3\ EPIC is also 
focused on the impact of Artificial Intelligence (AI) on American 
society. In recent years, EPIC has opposed government use of ``risk-
based'' profiling,\4\ brought attention to the use of proprietary 
techniques for criminal justice determinations,\5\ and litigated 
several cases on the front lines of AI. In 2014, EPIC sued the U.S. 
Customs and Border Protection under the Freedom of Information Act 
(``FOIA'') for documents about the use of secret tools to assign ``risk 
assessments'' to U.S. citizens.\6\ EPIC also sued the Department of 
Homeland Security seeking documents related to a program that assesses 
``physiological and behavioral signals'' to an individual's likelihood 
commit a crime.\7\
---------------------------------------------------------------------------
    \2\ See EPIC, About EPIC, https://epic.org/epic/about.html.
    \3\ See, e.g, Marc Rotenberg, EPIC Executive Director, Testimony 
before the U.S. Senate Committee on Commerce, Science, and 
Transportation, Commerce Committee, Internet Privacy and Profiling 
(June 13, 2000), https://epic.org/privacy/internet/senate-
testimony.html; Letter from EPIC to the U.S. Senate Committee on 
Commerce, Science, and Transportation on Oversight of the FTC (Sept. 
26, 2016), https://epic.org/privacy/consumer/EPIC-Letter-Sen-Comm-CST-
FTC-Oversight.pdf; Letter from EPIC to the U.S. House of 
Representatives Committee on Energy and Commerce on FCC Privacy Rules 
(June 13, 2016), https://epic.org/privacy/consumer/EPIC-FCC-Privacy-
Rules.pdf.
    \4\ EPIC et al., Comments Urging the Department of Homeland 
Security To (A) Suspend the ``Automated Targeting System'' As Applied 
To Individuals, Or In the Alternative, (B) Fully Apply All Privacy Act 
Safeguards To Any Person Subject To the Automated Targeting System 
(Dec. 4, 2006), available at http://epic.org/privacy/pdf/
ats_comments.pdf; EPIC, Comments on Automated Targeting System Notice 
of Privacy Act System of Records and Notice of Proposed Rulemaking, 
Docket Nos. DHS-2007-0042 and DHS-2007-0043 (Sept. 5, 2007), available 
at http://epic.org/privacy/travel/ats/epic_090507.pdf. See also, 
Automated Targeting System, EPIC, https://epic.org/privacy/travel/ats/.
    \5\ EPIC Sues Justice Department Over ``Risk Assessment'' 
Techniques, EPIC (March 7, 2017), https://epic.org/2017/03/epic-sues-
justice-department-o.html (EPIC's Complaint against the DOJ isavailable 
at https://epic.org/foia/doj/criminal-justice-algorithms/EPIC-v-DOJ-
criminal-justice-algorithmscomplaint.pdf).
    \6\ EPIC v. CBP (Analytical Framework for Intelligence), EPIC, 
https://epic.org/foia/dhs/cbp/afi/.
    \7\EPIC v. DHS--FAST Program, EPIC, https://epic.org/foia/dhs/
fast/.
---------------------------------------------------------------------------
The Internet of Things Poses Numerous Privacy and Security Risks
    The Internet of Things (IoT) poses significant privacy and security 
risks to American consumers.\8\ The Internet of Things expands the 
ubiquitous collection of consumer data. This vast quantity of data 
could be used for purposes that are adverse to consumers, including 
remote surveillance. Smart devices also reveal a wealth of personal 
information about consumers, which companies may attempt to exploit by 
using it to target advertising or selling it directly. Because the IoT 
generates data from all aspects of consumers' daily existence, these 
types of secondary uses could lead to the commercialization of intimate 
segments of consumers' lives.
---------------------------------------------------------------------------
    \8\ See Comments of EPIC to NTIA, On the Benefits, Challenges, and 
Potential Roles for the Government in Fostering the Advancement of the 
Internet of Things (June 2, 2016), https://epic.org/apa/comments/EPIC-
NTIA-on-IOT.pdf; Internet of Things, EPIC, https://epic.org/privacy/
internet/iot/.
---------------------------------------------------------------------------
    Many IoT devices feature ``always on'' tracking technology that 
surreptitiously records consumers' private conversations in their 
homes.\9\ These ``always on'' devices raise numerous privacy concerns, 
including whether consumers have granted informed consent to this form 
of tracking. Even if the owner of an ``always on'' device has consented 
to constant, surreptitious tracking, a visitor to their home may not. 
Companies say that the devices rely on key words, but to detect those 
words, the devices must always be listening. And the key words are 
easily triggered. For example, several Amazon Echo devices treated a 
radio broadcast about the device as commands.\10\ A San Diego 
television report about a girl using an Echo to order a $170 dollhouse 
and four pounds of sugar cookies triggered Echo devices across the city 
to make the same purchase.\11\ A recent law enforcement request for 
Amazon Echo recordings \12\ shows that ``always on'' devices will be 
much sought-after sources of information by law enforcement, foreign 
and domestic intelligence agencies, and, inevitably, cybercriminals.
---------------------------------------------------------------------------
    \9\ EPIC Letter to DOJ Attorney General Loretta Lynch, FTC 
Chairwoman Edith Ramirez on ``Always On'' Devices (July 10, 2015), 
https://epic.org/privacy/internet/ftc/EPIC-Letter-FTC-AG-Always-On.pdf.
    \10\ Rachel Martin, Listen Up: Your AI Assistant Goes Crazy For NPR 
Too, NPR (Mar. 6, 2016), http://www.npr.org/2016/03/06/469383361/
listen-up-your-ai-assistant-goes-crazy-for-npr-too.
    \11\ Carlos Correa, News Anchor Sets off Alexa Devices Around San 
Diego Ordering Unwanted Dollhouses, CW6 (Jan. 5, 2017), http://
www.cw6sandiego.com/news-anchor-sets-off-alexa-devices-around-san-
diego-ordering-unwanted-dollhouses/.
    \12\ See Christopher Mele, Bid for Access to Amazon Echo Audio in 
Murder Case Raises Privacy Concerns, N.Y. Times (Dec. 28, 2016), 
https://www.nytimes.com/2016/12/28/business/amazon-echo-murder-case-
arkansas.html.
---------------------------------------------------------------------------
    Another significant risk to consumers in the IoT is security, of 
both the users' data and their physical person. Many of the same 
security risks that currently threaten our data will only expand in the 
Internet of Things. The damage caused by malware, phishing, spam, and 
viruses will have an increasingly large array of networks in which to 
spread.\13\ Additionally, not all wireless connections in the IoT are 
encrypted.\14\ Researchers who studied encryption within the IoT found 
that ``many of the devices exchanged personal or private information 
with servers on the Internet in the clear, completely unencrypted.'' 
\15\
---------------------------------------------------------------------------
    \13\ See EUROPEAN COMM'N, A DIGITAL AGENDA FOR EUROPE, 16-18 
(2010), http://eur-lex.europa.eu/LexUriServ/
LexUriServ.do?uri=COM:2010:0245:FIN:EN:PDF.
    \14\ Federal Motor Vehicle Safety Standards; Event Data Recorders, 
Docket No. NHTSA-2012-0177 (Comments of Privacy Coalition), 10 https://
epic.org/privacy/edrs/EPIC-Coal-NHTSA-EDR-Cmts.pdf.
    \15\ Nick Feamster, Who Will Secure the Internet of Things?, 
FREEDOM TO TINKER (Jan. 19, 2016) https://freedom-to-tinker.com/blog/
feamster/who-will-secure-the-internet-of-things/ (emphasis in 
original).
---------------------------------------------------------------------------
    In addition to data security risks, the IoT also poses risks to 
physical safety and personal property. This is particularly true given 
that the constant flow of data so easily delineates sensitive behavior 
patterns, and flows over networks that are not always secure, leaving 
consumers vulnerable to malicious hackers. For instance, a hacker could 
monitor Smart Grid power usage to determine when a consumer is at work, 
facilitating burglary, unauthorized entry, or worse. Researchers have 
already demonstrated the ability to hack into connected cars and 
control their operation, which poses potentially catastrophic risks to 
the public.\16\
---------------------------------------------------------------------------
    \16\ See, e.g., Karl Brauer & Akshay Anand, Braking the Connected 
Car: The Future of Vehicle Vulnerabilities, RSA Conference 2016, 
https://www.rsaconference.com/writable/presentations/file_upload/ht-
t11-hacking-the-connected-car-thetfuturetof-vehicle-
vulnerabilities.pdf; FireEye, Connected Cars: The Open Road for Hackers 
(2016), https://www.fireeye.com/content/dam/fireeye-www/services/pdfs/
connected-cars-the-open-road-for-hackers.pdf.
---------------------------------------------------------------------------
    It is not only the owners of IoT devices who suffer from the 
devices' poor security. The IoT has become a ``botnet of things''--a 
massive network of compromised web cameras, digital video recorders, 
home routers, and other ``smart devices'' controlled by cybercriminals 
who use the botnet to take down websites by overwhelming the sites with 
traffic from compromised devices.\17\ The IoT was largely to blame for 
attacks in 2016 that knocked Twitter, Paypal, Reddit, Pinterest, and 
other popular websites off of the web for most of a day.\18\ They were 
also behind the attack on security blogger Brian Krebs' website, one of 
the largest attacks ever seen.\19\
---------------------------------------------------------------------------
    \17\ See Bruce Schneier, We Need to Save the Internet from the 
Internet of Things, Schneier on Security (Oct. 6, 2016), https://
www.schneier.com/essays/archives/2016/10/we_need_to_
save_the_.html
    \18\ See Scott Hilton, Dyn Analysis Summary of Friday October 21 
Attack, Dyn.com (Oct. 26, 2016), http://dyn.com/blog/dyn-analysis-
summary-of-friday-october-21-attack/.
    \19\ See Brian Krebs, KrebsOnSecurity Hit With Record DDoS, 
KrebsOnSecurity (Sept. 21, 2016), https://krebsonsecurity.com/2016/09/
krebsonsecurity-hit-with-record-ddos/.
---------------------------------------------------------------------------
    These problems will not be solved by the market. Because poor IoT 
security is something that primarily affects other people, neither the 
manufacturers nor the owners of those devices have any incentive to fix 
weak security. Compromised devices still work fine, so most owners of 
devices that have been pulled into the ``botnet of things'' had no idea 
that their IP cameras,
    DVRs, and home routers are no longer under their own control. As 
Bruce Schneier said in recent congressional testimony, a manufacturer 
who puts a sticker on the box that says ``This device costs $20 more 
and is 30 percent less likely to annoy people you don't know'' probably 
will not get many sales.\20\ We urge the Committee to address these 
numerous privacy and security concerns as it moves forward on 
legislation related to the Internet of Things.
---------------------------------------------------------------------------
    \20\ Testimony of Bruce Schneier before the House Committee on 
Energy & Commerce, Understanding the Role of Connected Devices in 
Recent Cyber Attacks, 114th Cong. (2016).
---------------------------------------------------------------------------
The Challenge of AI
    There is understandable enthusiasm about new techniques that 
promise medical breakthroughs, more efficient services, and new 
scientific outcomes. But there is also reason for caution. Computer 
scientist Joseph Weizenbaum famously illustrated the limitations of AI 
in the 1960s with the development of the Eliza program. The program 
extracted key phrases and mimicked human dialogue in the manner of non-
directional psychotherapy. The user might enter, ``I do not feel well 
today,'' to which the program would respond, ``Why do you not feel well 
today?'' Weizenbaum later argued in Computer Power and Human Reason 
that computers would likely gain enormous computational power but 
should not replace people because they lack such human qualities and 
compassion and wisdom.\21\
---------------------------------------------------------------------------
    \21\ Joseph Weizenbaum, Computer Power and Human Reason: From 
Judgment to Calculation (1976).
---------------------------------------------------------------------------
    We face a similar reality today. EPIC has concluded that one of the 
primary public policy goals for AI must be ``Algorithmic 
Transparency.'' \22\
---------------------------------------------------------------------------
    \22\ Algorithmic Transparency, EPIC, https://epic.org/algorithmic-
transparency/.
---------------------------------------------------------------------------
The Need for Algorithmic Transparency
    Democratic governance is built on principles of procedural fairness 
and transparency. And accountability is key to decision making. We must 
know the basis of decisions, whether right or wrong. But as decisions 
are automated, and we increasingly delegate decisionmaking to 
techniques we do not fully understand, processes become more opaque and 
less accountable. It is therefore imperative that algorithmic process 
be open, provable, and accountable. Arguments that algorithmic 
transparency is impossible or ``too complex'' are not reassuring. We 
must commit to this goal.
    It is becoming increasingly clear that Congress must regulate AI to 
ensure accountability and transparency:

  <bullet> Algorithms are often used to make adverse decisions about 
        people. Algorithms deny people educational opportunities, 
        employment, housing, insurance, and credit.\23\ Many of these 
        decisions are entirely opaque, leaving individuals to wonder 
        whether the decisions were accurate, fair, or even about them.
---------------------------------------------------------------------------
    \23\ Danielle Keats Citron & Frank Pasquale, The Scored Society: 
Due Process for Automated Predictions, 89 Wash. L. Rev. 1 (2014).

  <bullet> Secret algorithms are deployed in the criminal justice 
        system to assess forensic evidence, determine sentences, to 
        even decide guilt or innocence.\24\ Several states use 
        proprietary commercial systems, not subject to open government 
        laws, to determine guilt or innocence. The Model Penal Code 
        recommends the implementation of recidivism-based actuarial 
        instruments in sentencing guidelines.\25\ But these systems, 
        which defendants have no way to challenge are racially biased, 
        unaccountable, and unreliable for forecasting violent 
        crime.\26\
---------------------------------------------------------------------------
    \24\ EPIC v. DOJ (Criminal Justice Algorithms), EPIC, https://
epic.org/foia/doj/criminal-justice-algorithms/; Algorithms in the 
Criminal Justice System, EPIC, https://epic.org/algorithmic-
transparency/crim-justice/.
    \25\ Model Penal Code: Sentencing Sec. 6B.09 (Am. Law. Inst., 
Tentative Draft No. 2, 2011).
    \26\ See Julia Angwin et al., Machine Bias, ProPublica (May 23, 
2016), https://www.pro
publica.org/article/machine-bias-risk-assessments-in-criminal-
sentencing.

  <bullet> Algorithms are used for social control. China's Communist 
        Party is deploying a ``social credit'' system that assigns to 
        each person government-determined favorability rating. 
        ``Infractions such as fare cheating, jaywalking, and violating 
        family-planning rules'' would affect a person's rating.\27\ Low 
        ratings are also assigned to those who frequent disfavored 
        websites or socialize with others who have low ratings. 
        Citizens with low ratings will have trouble getting loans or 
        government services. Citizens with high rating, assigned by the 
        government, receive preferential treatment across a wide range 
        of programs and activities.
---------------------------------------------------------------------------
    \27\ Josh Chin & Gillian Wong, China's New Tool for Social Control: 
A Credit Rating for Everything, Wall Street J., Nov. 28, 2016, http://
www.wsj.com/articles/chinas-new-tool-for-social-control-a-credit-
rating-for-everything-1480351590

  <bullet> In the United States, U.S. Customs and Border Protection has 
        used secret analytic tools to assign ``risk assessments'' to 
        U.S. travelers.\28\ These risk assessments, assigned by the 
        U.S. Government to U.S. citizens, raise fundamental questions 
        about government accountability, due process, and fairness. 
        They may also be taking us closer to the Chinese system of 
        social control through AI.
---------------------------------------------------------------------------
    \28\ EPIC v. CBP (Analytical Framework for Intelligence), EPIC, 
https://epic.org/foia/dhs/cbp/afi/.

    EPIC believes that ``Algorithmic Transparency'' must be a 
fundamental principle for all AI-related work.\29\ The phrase has both 
literal and figurative dimensions. In the literal sense, it is often 
necessary to determine the precise factors that contribute to a 
decision. If, for example, a government agency considers a factor such 
as race, gender, or religion to produce an adverse decision, then the 
decision-making process should be subject to scrutiny and the relevant 
factors identified.
---------------------------------------------------------------------------
    \29\ At UNESCO, Rotenberg Argues for Algorithmic Transparency, EPIC 
(Dec. 8, 2015), https://epic.org/2015/12/at-unesco-epics-rotenberg-
argu.html.
---------------------------------------------------------------------------
    Some have argued that algorithmic transparency is simply 
impossible, given the complexity and fluidity of modern processes. But 
if that is true, there must be some way to recapture the purpose of 
transparency without simply relying on testing inputs and outputs. We 
have seen recently that it is almost trivial to design programs that 
evade testing.\30\
---------------------------------------------------------------------------
    \30\ See Jack Ewing, In '06 Slide Show, a Lesson in How VW Could 
Cheat, N.Y. Times, Apr. 27, 2016, at A1.
---------------------------------------------------------------------------
    In the formulation of European data protection law, which follows 
from the U.S. Privacy Act of 1974, individuals have a right to access 
``the logic of the processing'' concerning their personal 
information.\31\ That principle is reflected in the transparency of the 
FICO score, which for many years remained a black box for consumers, 
making determinations about credit worthiness without any information 
provided to the customers about how to improve the score.\32\
---------------------------------------------------------------------------
    \31\ Directive 95/46/EC--The Data Protection Directive, art 15 (1), 
1995, http://www.data
protection.ie/docs/EU-Directive-95-46-EC--Chapter-2/93.htm.
    \32\ See Hadley Malcom, Banks Compete on Free Credit Score Offers, 
USA Today, Jan. 25, 2015, http://www.usatoday.com/story/money/2015/01/
25/banks-free-credit-scores/22011803/.
---------------------------------------------------------------------------
    Building on this core belief in algorithmic transparency, EPIC has 
urged public attention to four related principles to establish 
accountability for AI systems:

  <bullet> ``Stop Discrimination by Computer''

  <bullet> ``End Secret Profiling''

  <bullet> ``Open the Code''

  <bullet> ``Bayesian Determinations are not Justice''

    The phrases are slogans, but they are also intended to provoke a 
policy debate and could provide the starting point for public policy 
for AI. And we would encourage you to consider how these themes could 
help frame future work by the Committee.
    The continued deployment of AI-based systems raises profound issues 
for democratic countries. As Professor Frank Pasquale has said:

        Black box services are often wondrous to behold, but our black 
        box society has become dangerously unstable, unfair, and 
        unproductive. Neither New York quants nor California engineers 
        can deliver a sound economy or a secure society. Those are the 
        tasks of a citizenry, which can perform its job only as well as 
        it understands the stakes.\33\
---------------------------------------------------------------------------
    \33\ Frank Pasquale, The Black Box Society: The Secret Algorithms 
that Control Money and Information 218 (Harvard University Press 2015).

    We ask that this letter be entered in the hearing record. EPIC 
looks forward to working with the Committee on these and other issues 
impacting the privacy and security of American consumers.
            Sincerely,
                                            Marc Rotenberg,
                                                    EPIC President.
                                      Caitriona Fitzgerald,
                                              EPIC Policy Director.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                              Caleb Barlow
    Question 1. Quantum computing has the potential to solve problems 
current computers today cannot solve. How can industry work with 
academia and the public sector to ensure we see the benefits of such 
computing, while managing the potential encryption security 
implications?
    Answer. The United States industry, academia and the public sector 
(DARPA/IARPA, and the DoE) must focus on accelerating the research and 
development of moderate-sized quantum computers and algorithms needed 
to solve problems such as chemical simulation for materials development 
and a wide range of optimization problems from improving supply chain 
logistics to financial portfolio decisions. There is potential for 
significant economic benefit by solving these types of problems that 
classical computers cannot practically solve.
    Industry, academia and public sector (i.e., NSF) must:

  <bullet> Educate not only the current technical population but also 
        emerging high school, college and graduate school students on 
        quantum information theory and quantum computing fundamentals

  <bullet> Ensure access to quantum computing systems to drive 
        education, to drive algorithm development and to build a 
        vibrant U.S. ecosystem of hardware, software and solution 
        vendors

    Quantum decryption leveraging Shor's Algorithm \1\ will require 
larger fault-tolerant quantum systems. Industry and academia should be 
continuing to work with public sector agencies, such as NIST, to 
identify new encryption techniques that are not tractable for the 
eventual fault-tolerant quantum systems of the future, even if those 
systems are several decades away from being practical.
---------------------------------------------------------------------------
    \1\ Shor's algorithm--is a quantum algorithm (an algorithm that 
runs on a quantum computer) for integer factorization formulated in 
1994.

    Question 2. I was pleased to hear that the emerging technologies 
discussed at the hearing have the potential to create new jobs and 
build a well-trained cybersecurity workforce. In my home state of South 
Dakota, Dakota State University is helping to meet this demand by 
doubling enrollment in its cybersecurity program in the last five 
years, serving as a major participant in the National Science 
Foundation's CyberCorps program, and hosting GenCyber camps for high 
---------------------------------------------------------------------------
school girls.

    a. What steps should American educational institutions take to 
encourage more students to choose cyber careers?

    b. How can we promote the development of entry-level cybersecurity 
education using emerging technology tools? How can we also promote 
education in higher skill levels in this field?
    Answer. As discussed during the hearing and in my written 
testimony, there is a significant workforce shortage to fill 
cybersecurity positions. Information technology and security roles 
require specialized skills and knowledge. IBM is championing a new 
educational model \2\ coupled with ``new collar'' approach to security 
hiring by going beyond traditional methods of talent recruitment and 
focus more on skills than actual degrees earned.
---------------------------------------------------------------------------
    \2\ https://www.ibm.com/blogs/policy/ibm-ceo-ginni-romettys-letter-
u-s-president-elect/
---------------------------------------------------------------------------
    At IBM, as many as one-third of employees do not have a four-year 
degree. As of 2015, new collar cybersecurity professionals have 
accounted for around 20 percent of IBM Security's hiring in the U.S. 
Much of this is due to partnerships with schools for training and 
education as well as expanding our traditional recruiting as 
demonstrated by IBM's Veterans Employment Accelerator, cyber training 
and certifying programs for military veterans.
    While we do need to start educating students early about careers in 
cybersecurity, it needs to be recognized that the security industry 
needs people of all backgrounds, with creative problem solving skills, 
and ability to drive collaboration. Skills alignment needs to be the 
education reform issue. We need to match career and technical training 
with new collar career paths.
    There are things that Congress can do to help with this alignment 
around skills:

  1)  Update and expand career-focused education to help more people 
        learn in-demand skills at every stage. For example, reorient 
        vocational training programs around skills needed in the labor 
        market or update the Federal Work-Study Program with career-
        focused internships at companies

  2)  Create and fund a 21st century apprenticeship program to recruit 
        and train/retrain workers to fill critical skills gaps

  3)  Support standards and certifications for new collar skills, just 
        as it has been done for other technical skills, like automotive 
        technicians and welders, providing recognition of sufficiently 
        qualified candidates

    Lastly, I've attached 3 links to new collar stories that illustrate 
this new collar approach to hiring--from turning a liberal arts degree 
into web-developer to harnessing specific on the job skills into 
creating malware defense technologies and lastly, an early success 
story from IBM's PTECH education model.
    https://www.ibm.com/blogs/policy/writing-new-collar-story-code/
    https://www.ibm.com/blogs/policy/griff-griffin/
    https://www.ibm.com/blogs/policy/hacking-way-new-collar-education/

    Question 3. Both technologies and threats are continually evolving. 
This Committee has passed significant, bipartisan legislation to 
advance voluntary, public-private collaboration on cybersecurity, as 
well as research and workforce development. For example, the 
Cybersecurity Enhancement Act of 2014 authorized the process for the 
NIST Framework for Improving Critical Infrastructure Cybersecurity. The 
NIST framework employs a flexible, risk-management approach that the 
private sector and security experts have praised. Do you believe that 
cybersecurity policy, especially in the context of the emerging fields 
we discussed at the hearing, should maintain a flexible, voluntary 
approach, and avoid mandatory compliance measures?
    Answer. IBM commends the Committee for their continued support of a 
non-regulatory, risk management approach to cybersecurity. We continue 
to support the NIST Cybersecurity Framework and believe that a risk 
based approach is the best way to manage the dynamic environment that 
is cyberspace. Cybersecurity is, and will continue to be, a fast-paced 
and constantly evolving landscape. Any cyber policy that is rigid and 
static will fail because it will not be able to keep up with rapid 
changes in threats and technology. The same can be said for emerging 
technologies as we are on the cusp of a new era with understanding how 
artificial intelligence and cognitive can transform every facet of life 
and work. Placing compliance measures on emerging technologies, whether 
for security or privacy reasons, will stifle the growth of the digital 
future and the benefits that will come along.

    Question 4. The cybersecurity of the Internet of things must be a 
top priority. Many of the devices in the Dyn attack last year were 
manufactured and located outside the U.S. How can we address 
cybersecurity risks from an international perspective? Given these 
devices provide a significant benefit to our economy, how do we also 
ensure American innovators are not at a competitive disadvantage in the 
global marketplace?
    Answer. As I mentioned in my testimony, what made the Dyn attack 
unique was the use of common household items or devices, all with 
factory supplied passwords that consumers typically do not change. A 
sizable number of IoT devices come preloaded with identical credentials 
across multiple devices. Although these default credentials should be 
changed by users before the devices are made operational, they're often 
left as is.
    Default secrets aren't secret. Attackers can use them to take over 
such devices for unintended purposes, making them vulnerable to 
sabotage or disruption. By delivering devices that prompt for a 
mandated password change upon first use, however, manufacturers can 
help ensure that default credentials can't persist.
    At IBM, we have determined there are ``Five Indisputable Facts 
about IoT Security'' when building and deploying IoT devices--one of 
which is mentioned above regarding default passwords.\3\ We have 
developed a podcast series around each fact to help end users and 
manufacturers understand how to increase security and protect data in 
IoT. I've provided the link to the series here--https://securityin
telligence.com/media/podcast-iot-security-fact-1-devices-will-operate-
in-hostile-environments/--and I encourage the Committee to listen and 
follow up with any questions.
---------------------------------------------------------------------------
    \3\ https://www-01.ibm.com/common/ssi/cgi-bin/
ssialias?htmlfid=SEF03018USEN&ce=ISM04
84&ct=SWG&cmp=IBMSocial&cm=h&cr=Security&ccy=US&cm_mc_uid=67767554257814
87948
7367&cm_mc_sid_50200000=1492781598&cm_mc_sid_52640000=1492781598
---------------------------------------------------------------------------
    We must treat and consider connected equipment as computers that 
can be attacked, compromised and co-opted and therefore protect them 
with techniques used on any other computer (i.e., defense in depth, 
network protections, supply chain protections, etc.). Monitoring and 
response will also be necessary (prevent, detect, respond, recover) 
since we all have to keep playing defense as we operate on the 
Internet.
    In addition to the ``Five Facts'', it is prudent upon industry to 
ensure that such common devices are not easily co-opted into botnets by 
utilizing secure engineering practices (i.e., IBM Secure Engineering 
Framework, ISO<INF>2</INF>7001, etc.) in development. Furthermore, by 
adhering to secure lifecycle approaches, based on best practices like 
ISO<INF>2</INF>0243,\4\ and promote the adoption of IoT management 
platforms to ensure devices are maintained in a secure state, the U.S. 
will continue to lead in IoT innovation. IoT platforms, like Watson IoT 
Platform, are the control points for overall IoT operations--
``configure and manage a secure environment appropriate for device, 
application and user requirements.'' \5\
---------------------------------------------------------------------------
    \4\ https://www.iso.org/standard/67394.html
    \5\ https://www.ibm.com/internet-of-things/platform/iot-security/
https://www.ibm.com/blogs/internet-of-things/security/https://
www.ibm.com/blogs/internet-of-things/security-cognitive-iot/
---------------------------------------------------------------------------
    These IoT platforms should be built to handle multiple data streams 
from disparate sources and implement privacy by design and security by 
design.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Todd Young to 
                              Caleb Barlow
    Question. Mr. Barlow, in the areas of artificial intelligence and 
quantum computing, where does the United States stand compared to other 
countries? What should the U.S. do to regain/maintain its technological 
lead in these areas? What, if any, statutory or regulatory changes are 
required?
    The United States has made significant advances in quantum 
computing, however, with significant strategic state investments by 
countries such as China in their own ecosystems we are concerned that 
it will be difficult for private companies to compete on equal footing. 
Across the world, including our neighbor to the north, Canada, there 
are several university and research lab based consortia being built, 
and the United States must continue to build and focus our own 
investments to support communities around quantum information science 
and quantum computing. This includes access to systems and research 
calls in promising applications of the technology. Some leading U.S. 
participants include but are not limited to IBM, Google, Microsoft and 
representatives from academia including MIT, Yale and UC Santa Barbara.
    Regardless of the focus there is still a need for more investment 
in this critical technology to ensure continued U.S. leadership.
    Below are examples of international quantum efforts:

  <bullet> Canada: strong presence in quantum computing industry and 
        academia. The University of Waterloo is one the first academic 
        institutions to offer degrees in quantum information science. 
        Canada's D-Wave is the largest current manufacturer of quantum 
        computing systems (and its benefits can be explained by 
        Canadian Prime Minister Trudeau
    https://www.youtube.com/watch?v=4ZBLSjF56S8)

  <bullet> European Union: announced last year a 1B Euro flagship 
        initiative on quantum technologies. Australia: announced a 70M 
        joint government. Industry and academic investment in quantum 
        computing technology

  <bullet> The Chinese Academy of Sciences announced a ``hack proof'' 
        quantum satellite in January 2017. Alibaba announced in 2015 
        that it was building a quantum computing laboratory with 
        support from the Chinese Academy of Science.

    The United States currently has a strong position in artificial 
intelligence and leads in creation of new technologies, but (a) China 
is moving quickly on AI technology, driven by significant government 
investment and by mass deployment of applications for consumers; and 
(b) Canada has key academic leaders in AI. To ensure AI 
competitiveness, the U.S. Government needs to act now and help foster: 
(a) open data sets and challenge problems to drive AI research in the 
U.S.; (b) AI research and development in academia and corporations; and 
(c) invest in talent development at U.S. universities as we have too 
few AI and data scientist graduates entering the workforce.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                              Caleb Barlow
    Question. The Federal Government relies on Internet of Things 
devices and could bear a heavy burden if these devices are breached by 
a cyberattack. To align security incentives and promote cybersecurity, 
should contractors and vendors selling Internet of Things devices to 
the Government be required to bear their financial responsibility in 
the event of a material breach through mechanisms like cyber insurance?
    Answer. Thank you Senator Markey for the question. I think it is 
important to put in context that cybersecurity concerns apply to IoT 
much as they do to other digital environments. Connected devices can be 
used as personal devices as well as part of critical infrastructure.
    As with most discussions with public and private sector clients 
regarding general allocation of risk--whether it is in the context of 
IoT, data security, etc. -the balance of providing appropriate level of 
protection for those who might suffer injury or loss and ensuring that 
liability rests on the most appropriate party must be struck. Liability 
risks discussed with respect to IoT are not new or specific to IoT. We 
believe that the well-established existing legal framework is fit to 
address liability issues in the field of IoT. Contractual liability 
offers the most flexible way to adapt to the specificities of each 
product and situation and existing tort law imposes liability for 
damages caused by products with design defects or manufacturing 
defects.
    Requiring cyber insurance for the producer could result in an 
increase cost of production which the producer would have to shift on 
the price of the products. This would result in an increase cost of the 
products which may in fact represent an obstacle for distribution in 
the market and presenting the spread and development of technology.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                              Caleb Barlow
    Question 1. To all of the Witnesses, beyond standards and 
frameworks, from an industry perspective, what are the top three to 
five best practices you've identified to protect critical 
infrastructure that enables companies and governments to enact 
proactive measures instead of just focusing on the response to threats 
or disasters? Specifically, I want to know how we move from reaction to 
proaction.
    Answer. At IBM, we are continually evolving our capabilities to 
stop threats at speed and scale. However, we are finding that many 
organizations are drowning in a sea of unmanageable, disconnected point 
products and services, each designed with a specific task making it 
that much more challenging to stay at pace with the ongoing threat. 
Some organizations report they are using as many as 85 security 
products--from more than 40 vendors--at once. As each tool is added, 
the cost associated with installing, configuring, managing, upgrading 
and patching continue to grow. And with the skills gap plaguing the 
industry, where the necessary expertise isn't always available, it's 
easy to see how more threats are continuing to generate more vendors, 
more tools--and more headaches. Yesterday's security era of moats and 
firewalls is antiquated. The reality is that even with the best 
perimeter defenses, some attacks will get through. From a technical 
standpoint, we must move towards managing and remediating threats like 
an immune system.
    The analogy is this: As humans, we have finely tuned and highly 
adaptive immune systems to help us fight off all kinds of attacks that 
would otherwise destroy us. Our bodies are intelligent, organized, 
efficient systems that can instantly recognize an invader and take 
action to block its entry or destroy it. Therefore, we need to manage 
security like an immune system and develop an integrated and 
intelligent security system with analytics and cognitive technologies 
at its core.
    As I mentioned in my testimony, the health analogy also extends to 
the need for the public and private sector to more actively share 
threat data--similar to how the Center for Disease Control and World 
Health Organization rapidly share data and collaborate to battle 
pandemics and other health outbreaks. IBM is constantly evolving this 
approach with focused investments in cognitive, collaboration and cloud 
that drive our innovation.
    Lastly, but just as important, it is imperative that organizations 
prepare and train for security incident response--from a lost employee 
laptop to a highly sophisticated breach--for a prompt and highly 
coordinated response in the event of an issue. Organizations need to 
deploy incident response technologies to automate and speed processes, 
from a multitude of regulatory filings, to client and employee 
notification.

    Question 2. As this committee moves forward in the 115th Congress, 
we are considering oversight and legislation within the committee's 
jurisdiction of science, technology, transportation and the critical 
infrastructure that supports them. For all the witnesses in closing, 
what should this committee keep in mind in order to help make sure 
we're developing the framework for infrastructure that is proactive, 
resilient and lasting as cyber threats continue to evolve?
    Answer. IBM continues to support the risk management approach and 
stakeholder engagement process that produced the NIST Cybersecurity 
Framework that is voluntary, flexible and applicable for every sector 
of the economy. We ask that the Committee continue to use the Framework 
as a cornerstone for any oversight of different critical infrastructure 
sectors and their approach to cybersecurity risk management. The 
Framework is a living guidance document and we expect further 
improvements, changes, additions as industry continues to innovate and 
address new challenges in cyberspace.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Venky Ganesan
    Question 1. I was pleased to hear that the emerging technologies 
discussed at the hearing have the potential to create new jobs and 
build a well-trained cybersecurity workforce. In my home state of South 
Dakota, Dakota State University is helping to meet this demand by 
doubling enrollment in its cybersecurity program in the last five 
years, serving as a major participant in the National Science 
Foundation's CyberCorps program, and hosting GenCyber camps for high 
school girls.

    a. What steps should American educational institutions take to 
encourage more students to choose cyber careers?

    b. How can we promote the development of entry-level cybersecurity 
education using emerging technology tools? How can we also promote 
education in higher skill levels in this field?
    Answer. Community colleges can be an invaluable asset in both 
increasing cybersecurity literacy and competence in our country. The 
Federal Government should consider market incentives for community 
colleges to both develop cybersecurity curriculum and launch courses in 
the subject. Many of the skills required to be an entry-level operator 
or analyst in the cybersecurity space can be acquired over a 12-18 
month period and are perfect as an associate or junior college degree. 
In addition, I recommend the creation of an elite U.S. cyber academy 
similar to West Point and the U.S. Naval academy where very high 
performing high schoolers in math and computer science can be recruited 
and trained specially for cyberwarfare. Similar to the programs in 
Israel, this can be a very effective way to build a pool of extremely 
well qualified and trained cyber talent.

    Question 2. Both technologies and threats are continually evolving. 
This Committee has passed significant, bipartisan legislation to 
advance voluntary, public-private collaboration on cybersecurity, as 
well as research and workforce development. For example, the 
Cybersecurity Enhancement Act of 2014 authorized the process for the 
NIST Framework for Improving Critical Infrastructure Cybersecurity. The 
NIST framework employs a flexible, risk-management approach that the 
private sector and security experts have praised. Do you believe that 
cybersecurity policy, especially in the context of the emerging fields 
we discussed at the hearing, should maintain a flexible, voluntary 
approach, and avoid mandatory compliance measures?
    Answer. Yes, I absolutely believe that cybersecurity policy in the 
context of the emerging fields should maintain a flexible, voluntary 
approach and avoid mandatory compliance measures. This field is too 
dynamic and our adversaries are too fleet-footed for static mandatory 
compliance measures to be effective. Market based approaches driven by 
cyberinsurance could be another way to create compliance incentives for 
companies.

    Question 3. The cybersecurity of the Internet of things must be a 
top priority. Many of the devices in the Dyn attack last year were 
manufactured and located outside the U.S. How can we address 
cybersecurity risks from an international perspective? Given these 
devices provide a significant benefit to our economy, how do we also 
ensure American innovators are not at a competitive disadvantage in the 
global marketplace?
    Answer. We need to create an awareness program around the security 
risks posed by IoT devices and create market incentives for all vendors 
(both domestic and international) to do the following:

  <bullet> Participate in the best practices and standards proposed by 
        the NIST cybersecurity framework;

  <bullet> Provide cyber warranties for their products which require 
        them to both support and update their products with the most 
        recent security patches; and

  <bullet> Have a minimum amount of cyberinsurance coverage so that 
        there is some financial compensation in case of a material 
        breach.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jerry Moran to 
                             Venky Ganesan
    Question. According to the GAO's High Risk Series report, the 
Federal Government annually spends over $80 billion on information 
technology (IT), but over 75 percent of this spending is for ``legacy 
IT''. In fact, since FY 2010, agencies have increased spending on 
``legacy IT;'' thereby, crowding out spending on development, 
modernization, and enhancement activities. Last Congress, I led 
legislation called the Modernizing Outdated and Vulnerable Equipment 
and Information Technology (MOVE IT) Act with my colleague Senator 
Udall to reduce wasteful Federal Government spending on outdated 
``legacy IT'' systems and enhance information security.
    In your testimony, you provided five recommendations to this 
committee to improve comprehensive cybersecurity practices of the U.S. 
Federal Government and industry as a whole. The first recommendation on 
that list included, ``Modernizing government procurement systems so 
that the government has access to the best technologies.''

    a. Could you please go into further detail on how the Federal 
Government's procurement policies and resources could be improved and 
better facilitate the adoption of necessary innovations such as cloud 
computing?

    b. How can modernizing Federal Government IT make us more secure?

    c. There have also been considerations to streamline the 
certification process of the Federal Risk and Authorization Management 
Program, also known as FedRAMP, so that smaller companies without large 
legal departments might be able to get certified to do business with 
the Federal Government. Do we need to make it easier to allow smaller 
companies help the government?
    Answer. The Federal Government's procurement processes today for 
cybersecurity products is very cumbersome, restrictive, and 
bureaucratic. Most small or innovative cybersecurity companies will not 
even consider selling to the Federal Government, which is a tragedy 
since most of the innovation is happening there. The primary reasons 
are various compliance requirements such as FIPS and FedRamp, both of 
which are expensive and time consuming. Companies estimate it takes 
millions to get FIPS certification and over 2 years to be FedRamp 
certified. There have been some fast track programs through the DOD, 
DHS, and In-Q-Tel, but these do not apply to most Federal agencies. 
Similar to the JOBS Act, which provided exemptions from some certain 
regulations for companies below a certain size, I would recommend a 
modified procurement process for companies below $1 billion in revenue 
which would enable smaller, nimble, venture-backed startups to sell to 
the Federal Government.
    Modernizing Federal Government IT is one of the most important 
things we can do. It will not only make our government secure and 
protect invaluable data but it will also bring down our costs in the 
long run. Today the government is captive to old on-premise systems, 
which are both functionally weak and very expensive to maintain. By 
shifting to cloud based systems, the government can both get much 
better functionality and user interface and significantly save on 
operational costs. The move to the cloud would also make our systems 
more secure since private cloud vendors are investing a lot more in 
cybersecurity than on-premise vendors.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                             Venky Ganesan
    Question. The Federal Government relies on Internet of Things 
devices and could bear a heavy burden if these devices are breached by 
a cyberattack. To align security incentives and promote cybersecurity, 
should contractors and vendors selling Internet of Things devices to 
the Government be required to bear their financial responsibility in 
the event of a material breach through mechanisms like cyber insurance?
    Answer. As part of the procurement process, the Federal Government 
should require contractors and vendors who sell Internet of Things 
devices to do the following:

  <bullet> Participate in the best practices and standards proposed by 
        the NIST cybersecurity framework;

  <bullet> Provide cyber warranties for their products which require 
        them to both support and update their products with the most 
        recent security patches; and

  <bullet> Have a minimum amount of cyberinsurance coverage so that 
        there is some financial compensation in case of a material 
        breach.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                             Venky Ganesan
    Question 1. To all of the Witnesses, beyond standards and 
frameworks, from an industry perspective, what are the top three to 
five best practices you've identified to protect critical 
infrastructure that enables companies and governments to enact 
proactive measures instead of just focusing on the response to threats 
or disasters? Specifically, I want to know how we move from reaction to 
proaction.
    Answer. Protecting critical infrastructure is indeed one of the 
most important things we can do to defend our Nation and economy and 
preserve the quality of life we all seek.
    Here are my recommendations on how we can be proactive on this 
issue:

  1.  Clearly define and catalog all the elements of our critical 
        infrastructure

  2.  Establish minimum security standards and best practice frameworks 
        for these elements of critical infrastructure

  3.  Define and catalog the processes by which both employees and 3rd 
        party vendors can access this critical infrastructure

  4.  Require that all vendors of critical infrastructure must 
        participate in the NIST cybersecurity framework and have 
        adequate cyberinsurance coverage in case of a material breach

  5.  Update and revise items 1-3 on a yearly basis so that we account 
        for new bugs or hacking techniques

    Question 2. As this committee moves forward in the 115th Congress, 
we are considering oversight and legislation within the committee's 
jurisdiction of science, technology, transportation and the critical 
infrastructure that supports them. For all the witnesses in closing, 
what should this committee keep in mind in order to help make sure 
we're developing the framework for infrastructure that is proactive, 
resilient and lasting as cyber threats continue to evolve?
    Answer. Cybersecurity is an extremely fast moving field where the 
adversary is working feverishly every day to find weaknesses. It is an 
asymmetric problem as the adversary only needs to find one weakness to 
overcome all the protections we have in place. This means that the 
government has to take a market based dynamic approach to fix the 
problem. It is important to create market incentives for critical 
infrastructure vendors to invest in cybersecurity by both specifying 
best practice frameworks and mandating cyberinsurance coverage. 
Cyberinsurance can be a good market based approach to provide dynamic 
feedback and incentive for vendors to proactively improve their 
cybersecurity approach.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Steve Grobman
    Question 1. Quantum computing has the potential to solve problems 
current computers today cannot solve. How can industry work with 
academia and the public sector to ensure we see the benefits of such 
computing, while managing the potential encryption security 
implications?
    Answer. There is a long and successful tradition of the Federal 
Government funding science and technology research at our Nation's 
universities. Federal funding of research and development managed by 
such agencies as the National Science Foundation has, over the years, 
helped produce a wide range of innovations in hardware, software and 
biotechnology that have enabled American companies to stay at the 
forefront of the information technology revolution. When I think of 
cutting-edge examples of universities that partner well with industry, 
Stanford University, the University of California, and North Carolina 
State University come to mind. All these great schools have helped 
spawn countless companies--Sun Microsystems, Google, and Red Hat are 
just a few examples--that have supported the growth of our innovation 
economy. Policymakers should continue to invest in university-based 
research to promote advances in such cutting-edge technologies such as 
quantum computing to help ensure that the United States remains in the 
top rank of computing. Investing in university-based research at 
institutions that have strong partnerships with industry have proven to 
work well in the past and can continue to pay huge dividends in the 
future.
    Additionally, we need to ensure there is proper funding for both 
research institutions and NIST to address the need for more quantum-
safe encryption algorithms. Today, the AES algorithm, which is used for 
bulk data encryption, is considered quantum-safe. An example of a 
quantum un-safe algorithm is the public key algorithm RSA. 
Unfortunately, most encryption uses these algorithms in combination, 
and being able to break either one places data at risk. Research 
efforts are needed to ensure we can replace the quantum un-safe 
algorithms that are extensively used today to secure our 
infrastructure.

    Question 2. I was pleased to hear that the emerging technologies 
discussed at the hearing have the potential to create new jobs and 
build a well-trained cybersecurity workforce. In my home state of South 
Dakota, Dakota State University is helping to meet this demand by 
doubling enrollment in its cybersecurity program in the last five 
years, serving as a major participant in the National Science 
Foundation's CyberCorps program, and hosting Gen Cyber camps for high 
school girls.

    A. What steps should American educational institutions take to 
encourage more students to choose cyber careers?
    Answer. Addressing our Nation's cyber skills shortage requires us 
to think and act in a holistic manner. We need to invest more in 
science, technology, engineering and math (STEM) education for grade 
school and middle school students. As James Brown, executive director 
of the STEM Education Coalition in Washington, DC, said recently, ``The 
future of the economy is in STEM,'' adding that the Bureau of Labor 
Statistics projects that employment in STEM jobs will grow to more than 
nine million between 2012 and 2022. That is probably a conservative 
estimate. While various initiatives have sprung up to address the STEM 
education problem, we're not there yet--and we need to be. We need a 
broad-based STEM investment plan to solve this long-term problem. We 
should ensure that all middle and high school students have the 
opportunity to take substantial cybersecurity courses at school. For 
high school students, we need to expand our idea of what it means to 
take shop classes in school that can prepare students for careers 
repairing cars. The shop classes of the future need to also focus on 
building IT and cyber skills so students can develop these critical, 
job ready skills before they graduate.
    But it's not just STEM awareness that children need at an early 
age. It's also awareness of security and privacy. As adults we hear 
about breaches in the news, and some of us understand cyber is a 
corporate board room topic, but does the average grade school and 
middle school student learn about the importance of cyber safety? Do 
they understand what that means beyond ``don't share your password''? 
Where does security sit on the average college student's list of 
priorities? We have a great opportunity to increase awareness about 
security as it effects the workforce at large, with 1.5 million 
unfilled jobs today and growing, providing the opportunity for steady, 
high-paying jobs. We also have an opportunity to increase awareness in 
a way that appeals to the millennial generation--a group passionate 
about causes, especially human interest ones--and generation X youth, 
who are learning about how to keep themselves and their friends safe. 
We need both traditional and creative approaches to reach these 
students, possibly through gamification.
    The Federal Government needs to partner with states to support an 
expansion of cybersecurity training programs at our Nation's community 
colleges. The National Science Foundation-managed Scholarship for 
Service (SFS) CyberCorps program is an example of a successful Federal 
program. While the CyberCorps program serves college juniors and 
seniors who are already far along the learning path, another program, 
or an expansion of the SFS program, could attract high school graduates 
who don't yet have specific career aspirations. Private companies could 
partner with a community college in their area to establish a course of 
study focusing on cybersecurity. The Federal Government could fund all 
or part of the tuition remission for students. Interested students 
would be taught both by college faculty and private sector 
practitioners. For example, an IT company could offer several faculty 
members/guest lecturers who would participate during a semester. 
Students would receive free tuition--paid for by a Federal program, 
perhaps with private sector contributions--and, if they can show a 
financial need, a stipend for living arrangements, which four-year 
college students can get through the CyberCorps program. Students would 
receive a two-year certificate in cybersecurity that would be 
transferrable to a four-year school. Like the CyberCorps program, 
graduates would spend the same amount of time as their scholarship 
period working in a guaranteed government job.
    At McAfee, we have been strong supporters of the CyberCorps 
scholarship program, given the need to train many more college 
graduates at the four-year university level. With additional funding, 
the CyberCorps SFS program certainly could be expanded to more 
institutions and more students within each of those schools. To date, 
the Federal Government has made a solid commitment to supporting the 
SFS program, having spent $45 million in 2015, $50 million in 2016, and 
the most recent Administration's budget requested $70 million. As a 
baseline, an investment of $40 million pays for roughly 1,500+ students 
to complete the scholarship program. Given the size and scale of the 
cyber skills deficit, policymakers should significantly increase the 
size of the program, possibly something in the range of $180 million. 
At this level of funding, the program could support roughly 6,400 
scholarships. Such a level of investment would make a dent in the 
Federal cyber skills deficit, estimated to be in the range of 10,000 
per year. At the same time, this level of investment could help create 
a new generation of Federal cyber professionals that can serve as 
positive role models for a countless number of middle and high school 
students across the country to consider the benefits of a cyber career 
and Federal service. Indeed, this positive feedback loop of the SFS 
program might well be its biggest long-term contribution.

    B. How can we promote the development of entry-level cybersecurity 
education using emerging technology tools? How can we also promote 
education in higher skill levels in this field?
    Answer. Fortunately, not all cyber jobs or successful cyber-related 
careers need a four-year degree in computer science. Policymakers 
should look at supporting and promoting the expansion of two-year 
cybersecurity programs, as many jobs can be staffed by individuals with 
community college degrees. Another way to promote cybersecurity 
education is by investing in cross-training programs that offer 
certifications from non-traditional educational organizations. With the 
proper background in STEM, even on-the-job training can be beneficial.
    We are starting to see newer, more innovative technologies being 
made available to students in K-12 settings. However, far too often 
these educational technologies fail to properly focus on cybersecurity 
training. Policymakers should prioritize IT investments in schools that 
also include cybersecurity capabilities to enable a more balanced 
training regime. Cybersecurity companies should replicate learnings 
from other sectors of the IT ecosystem and provide affordable 
cybersecurity solutions to students as learning tools, given the 
important role of hands-on learning. Policymakers should consider a 
range of incentives--possibly tax credits or procurement preferences--
to encourage manufacturers and security vendors to make their software 
and solutions available to schools for the purpose of supporting 
student engagement and learning.

    Question 3. Both technologies and threats are continually evolving. 
This Committee has passed significant, bipartisan legislation to 
advance voluntary, public-private collaboration on cybersecurity, as 
well as research and workforce development. For example, the 
Cybersecurity Enhancement Act of 2014 authorized the process for the 
NIST Framework for Improving Critical Infrastructure Cybersecurity. The 
NIST framework employs a flexible, risk-management approach that the 
private sector and security experts have praised. Do you believe that 
cybersecurity policy, especially in the context of the emerging fields 
we discussed at the hearing, should maintain a flexible, voluntary 
approach, and avoid mandatory compliance measures?
    Answer. Yes. As stated in my testimony, I believe the cybersecurity 
threat landscape changes extremely quickly. What is deemed the most 
serious threat today may not be the most important tomorrow. If 
regulations directed manufacturers to guard against today's threats, 
tomorrow's might very well slip through the cracks. Additionally, 
compliance is not security. It simply proves the manufacturer is able 
to check a box saying that they are in compliance. Regulations in the 
security field have resulted in corporations diverting real monies away 
from true security. Regulating an area like cybersecurity is very 
tricky and unintended consequences could easily outweigh any benefits.
    Policymakers should maintain a flexible, voluntary approach to 
cybersecurity and avoid the temptation to impose mandatory compliance 
on organizations. The NIST approach to cybersecurity is spot on--it's a 
voluntary, flexible, risk-based approach that is done in true 
partnership with the private sector. This model has shown to be quite 
effective because both the government and industry participants have 
`bought in' to the issue and work in concert with each other to achieve 
a positive end result. The NIST Cybersecurity Framework truly is having 
a positive impact on how organizations view their cyber risk management 
processes. Partnerships such as this are productive and will pay 
dividends as policymakers and the private sector work together to 
secure the next generation of technology innovations.

    Question 4. The cybersecurity of the Internet of things must be a 
top priority. Many of the devices in the Dyn attack last year were 
manufactured and located outside the U.S. How can we address 
cybersecurity risks from an international perspective? Given these 
devices provide a significant benefit to our economy, how do we also 
ensure American innovators are not at a competitive disadvantage in the 
global marketplace?
    Answer. The cat's out of the bag. The Internet provides global 
connectivity of devices, including traditional devices and IoT devices. 
We can't always use the same logic that works in the physical world and 
apply it to the digital world. We can't think of devices being 
contained in one country or another and not having an impact on other 
countries, especially in the U.S., which is committed to a free and 
open communications architecture. The most important thing is to 
recognize this type of attack is possible. We need to prepare 
organizations to be able to defend against these types of attacks, 
while educating IoT device manufactures on a global basis that it is 
critical for them to take security seriously by building strong 
security and privacy architectures and update mechanisms into their 
devices.
    Policymakers should champion the principle of security and privacy 
by design to help incent broad adoption and trust in IoT products and 
infrastructure. Proper protection of individual security and privacy in 
products does not just happen. It needs to be designed and engineered 
from the beginning of the product development process. Adding or 
`bolting on' security features to a system, network or device after 
it's already up and running has proven to be ineffective. IoT is a 
great example of where security and privacy protections need to be 
built in from the start. This approach is not only more effective; it 
is less cumbersome and less expensive than trying to lock down systems 
that are leaking personal information or are inherently insecure.
    In order to ensure the U.S. continues to be an innovator in all 
types of connected devices, we must recognize the development process 
needs to be at the same level of friction as it is in any other part of 
the world. We need to be cautious given the reality that over-
regulating in the U.S. will simply cause device design and 
manufacturing companies to move to other regions of the world. We need 
to ask ourselves if we wish to impose other costs on our economy by 
forcing U.S. citizens to pay higher taxes on imported devices. There 
really are no borders; we live in a borderless virtual world. As part 
of a larger strategy to drive security and privacy into the early 
design phase of IoT devices, policymakers should support industry led, 
global security and privacy standards. Global standards are much more 
effective than country-specific security and privacy regulations in 
producing the outcome we all want--more secure and more privacy-
friendly IoT devices.
    We need to accelerate leadership in IoT security and privacy. How 
can policymakers accelerate IoT deployments to ensure U.S. leadership? 
Candidly, the U.S. is behind. Other countries such as China, Brazil and 
the UAE are aggressively investing in and deploying IoT to transform 
their economies, address societal problems, and spur innovation. Many 
have adopted national IoT plans with time-bound goals and are investing 
heavily in IoT R&D and infrastructure. The U.S. needs to do the same 
and needs to act now. Congress can advance our Nation's IoT momentum by 
collaborating with industry to establish a national IoT strategy that 
includes a strong security and privacy foundation and by encouraging 
public-private partnerships that uniquely focus on security, while 
aiming to improve manufacturing productivity, optimize transportation 
efficiency, reduce energy consumption, sustain our environment and 
accelerate smart cities and towns. Promoting industry alignment around 
these large-scale IoT deployments based on secure, open and 
interoperable solutions will deliver immeasurable benefits and showcase 
U.S. leadership.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                             Steve Grobman
    Question. The Federal Government relies on Internet of Things 
devices and could bear a heavy burden if these devices are breached by 
a cyberattack. To align security incentives and promote cybersecurity, 
should contractors and vendors selling Internet of Things devices to 
the Government be required to bear their financial responsibility in 
the event of a material breach through mechanisms like cyber insurance?
    Answer. No. While ``organizational cyber-risk'' insurance is needed 
and its markets and offerings are growing, it is not the silver bullet. 
First, not all cybersecurity challenges derive from vendor design 
mistakes. Products often provide capabilities that can and should be 
configured by the organization's staff or end user. Improper customer 
configuration can cause vulnerabilities and exposure data.
    In today's IT ecosystem, there are complex supply chains and design 
chains that have become baked into the way that virtually all 
manufacturers operate. Thus, it is not practicable for the final 
assembler of a device to validate the technology in all the 
subcomponents. Consider the Takata airbag recall. This component 
manufacturer supplies its airbags to 19 different automakers. In this 
case, it was not the product vendor or the car company but the supplier 
that was at fault, and is now working to correct the situation.
    Second, this would have unintended consequences on innovation. If 
we are trying to foster the development of new and innovative solutions 
by American companies to sell in a global marketplace, we need to 
understand the effect this may have on the startups that have real, 
valuable ideas for unique products and services. If they have to raise 
the additional funds from investors to pay the cover charge to get in 
the door, their potentially valuable ideas will languish. It could even 
have an effect on the investment community's approach to funding IoT 
innovators. Even established product vendors could use defensive 
tactics and be very selective as to what new types of products they 
offer. Meanwhile, organizations developing IoT products in other 
nations would not have this restriction. Would products built and 
developed in other countries have the same requirements when they're 
sold into the U.S. market? If so, they will likely have grown their 
product sales, external to the U.S., to a point where they are able to 
pay-to-play in the U.S. World-class solutions may not be available in 
the U.S. until they have shown their success in foreign markets. This 
approach would put U.S. innovators at a critical disadvantage both here 
and on the global stage. Unintended consequences could extend beyond 
the life of a company if it went out of business. For example, there 
will always be a problem with orphaned devices when manufacturers cease 
to exist. If too harsh a level of responsibility is imposed on 
manufacturers, policymakers may encourage the creation of corporate 
shell structures to shield corporate liability. This unfortunate result 
could add complexity and cost to the IoT ecosystem while undercutting 
the goal of improved security.
    Randal Milch, Former General Counsel, Verizon; Distinguished 
Professor, NYU School of Law, testifying before the Commission on 
Enhancing National Cybersecurity on May 16, 2016, discussed three 
attributes of a well-functioning insurance market. The first is 
information, the second is the ability to have after-action forensic 
reports and the third is focusing on and citing standards. Today, the 
information foundation to establish a marketplace for this rapidly 
evolving diverse IoT product environment is not there. Getting after-
action forensic reports from consumers to determine liability may be 
very problematic and the foundational standards used today within the 
IoT space are far from defined, let alone universally accepted.
    For example, how long was OPM exposed to a major cybersecurity 
attack before its compromise was discovered? Was it one product that 
was at fault in the OPM breach or was it a system or systems 
circumvented to allow exfiltration of 21.5 million records. Do we 
really know? What if the agency had been warned of issues they needed 
to address?
    At this point in time, the IoT product environment and the general 
cyber insurance market is extremely immature and, in my opinion, not 
capable of supporting this solution. The unintended consequences this 
approach may create could have a negative and long lasting impact on 
America's ability to innovate and capture the growing IoT market share 
globally.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                             Steve Grobman
    Question 1. Mr. Grobman, in your testimony you referred to NIST's 
Framework for Improving Critical Infrastructure Cybersecurity as a 
``best-in-class'' example of a successful private-public partnership 
between critical infrastructure companies and government agencies. In 
your view how can we build on foundations like these to improve the 
security of critical infrastructure at all levels--state, local, county 
and federal?
    Answer. The Framework for Improving Critical Infrastructure 
Cybersecurity, known as the NIST Cybersecurity Framework, is widely 
acknowledged as a highly successful model of public-private 
partnership. The Office of Management and Budget is already working to 
push Federal agencies to adopt the Framework, the new Administration's 
draft executive order mandates government agencies to deploy the 
framework, and the private sector is rapidly adopting it.
    Here's our analysis of why it has been successful:

  <bullet> The need was real

  <bullet> The process was open

  <bullet> NIST listened first

  <bullet> They were prepared

  <bullet> They engaged all stakeholders

  <bullet> The framework was voluntary--not regulatory

    I'd like to expand on each of these aspects, not simply to 
compliment NIST but to offer the process as a model for future public-
private partnerships.
    The need was real: PPPs created around a topic or issue that is 
real to both the public and the private sectors have a much better 
chance of getting the exposure and participation needed to achieve the 
goal of the partnership. In the case of the Cybersecurity Framework, it 
was very obvious to both groups that the need existed. While NIST had a 
hard time-frame to be successful in--one year--they have a long history 
in risk management and understood the need well. For too long, 
regulatory compliance had forced industry to spend valuable security 
dollars to prove something to the regulators instead of using those 
resources to help protect enterprises. The cost of compliance was 
impacting our ability to secure ourselves.
    Openness of the process: From the very beginning, NIST made it 
clear this was going to be a very open process. In the initial meeting, 
NIST staff described what would be occurring, from the RFI-submitted 
comments that would be made public on NIST's website to the anticipated 
workshop process and general timeline for various milestones. Along the 
way, NIST staff were quick to ensure that industry participants 
understood what was happening so there would be no surprises. This 
created a growing sense of trust as the effort evolved and made the 
process more effective during the development of the Framework.
    Listening: One of the more interesting and effective parts of the 
development was the way NIST staff listened to the workshop 
participants. They used a moderated dialog approach that allowed all 
attendees to voice their opinions on a set of topics the NIST staff 
wanted to learn about. There were very active discussions that were 
highly informative from members of various sectors and industries. Dr. 
Gallagher, NIST's director at the time, stated quite clearly this was 
not NIST's Framework; this was the community's framework. Having the 
public side of a public-private partnership listen instead of dictate 
allowed private sector participants to voice their opinions in a much 
more open and direct way. This, too, built trust as the effort went 
along.
    Being prepared: Each of the workshops seemed very well organized, 
and the topics, panels, questions and outcomes were well thought-out 
before each workshop began. This gave participants reassurance their 
time was being well spent. Open forums with no direction or planning do 
not give those involved much confidence the effort will succeed. Being 
prepared also meant participants needed to do their homework as well. 
While not always the case, as the workshops advanced, they did.
    Engaging all: One of the smartest things NIST did as part of the 
Framework development process was to understand they needed to get 
outside the Beltway for the effort to be successful. They held the 
workshops in different locations around the country so the local 
owners/operators of the critical infrastructure could have their voices 
heard. This ensured there was a diverse group at each of the workshops 
and all were able to participate. The processes used during the 
workshops encouraged all in the room to contribute and they did. A 
highly interactive, collaborative environment is one where real dialog 
can occur and produce positive results.
    Voluntary--Non-regulatory nature: The fact that NIST is a non-
regulatory body also helped their credibility and the private sector's 
attitude towards participating and contributing. This was a topic area 
that had a lot of people concerned initially, but as the effort 
progressed, more and more private sector participants relaxed and 
believed in the voluntary intent of the effort. NIST also made it clear 
in each workshop that they were requiring non-attribution from any and 
all regulators in the room. Each agreed to the rules, making it much 
more comfortable for real, open and honest dialog to occur. While 
others have tried to copy NIST's success, often they have left out one 
or more of the characteristics that made the Cybersecurity Framework 
effort a success. In reality, both the public and the private sector 
participants must buy in. To do so requires trust in the process, the 
effort and the vision.

    Question 2. To all of the Witnesses, beyond standards and 
frameworks, from an industry perspective, what are the top three to 
five best practices you've identified to protect critical 
infrastructure that enables companies and governments to enact 
proactive measures instead of just focusing on the response to threats 
or disasters? Specifically, I want to know how we move from reaction to 
proaction.
    Answer. As mentioned above, the NIST Cybersecurity Framework is a 
great place for any organization to start. Over the past decade, the 
U.S. business community has been so focused on compliance reporting 
that many organizations did not have the resources to invest in true 
security. The Framework has really changed the conversation from 
compliance to risk-management. Cyber is now being integrated into 
existing corporate risk management planning and processes.
    Organizations are now improving their cyber programs by using the 
Framework to implement repeatable processes. The end result is the 
Framework is providing the foundation for helping improve the 
organizational security posture by focusing on people, process and 
technologies. While U.S. organizations used to focus on proving to a 
regulator they are compliant at one point in time, increasingly those 
same organizations are focusing on how to improve their corporate 
cybersecurity risk management program on a continuous basis. Today, the 
Cybersecurity Framework is focused on traditional computing systems. As 
we look to real operational technology, it will be critically important 
to continue and accelerate the process of evolving the framework to not 
only comprehend the elements of computing common to all industries, but 
also to look at things unique to specific critical infrastructure 
sectors.
    Another trend McAfee is encouraging is moving internal network 
defenses from locally-focused to enterprise-focused. In the past, 
network and point products were highly siloed, meaning they did not 
communicate event and incident information in a way other components in 
the network could understand and use. For example, in the past, if a 
user's PC detected malware, it would quarantine or delete the offending 
malware and write a log record to a logfile that may or may not have 
been sent to an administrator's console. Often the fact that it 
happened went undetected due to the high quantity of event information 
administrators needed to deal with. The event needed to be tracked and 
responded to but it was not. Today when that situation occurs, the PC 
can create a hash of the detected malware and send it to a central 
repository in near real time. That information is now immediately to 
available to other components in the network subscribed to the 
repository. For example, when the mail gateway receives an e-mail 
message with an attachment, the mail gateway is able to create a hash 
of the attachment and then compare that hash with those stored in the 
central threat intelligence repository. If a match is found, the e-mail 
message can be blocked at the boundary, protecting subsequent users. 
This type of internal threat information sharing between network 
components provides a much quicker response and informed protections 
not available in the recent past. All the while, this capability is 
being driven by the policy rules configured and managed by the site's 
network staff. We believe this trend toward automation in the right 
places allows corporate network defenses to act together and at much 
more wire-speeds than has been possible in the past. It also frees up 
critical network and security staff to do more valuable work.
    Much has been said about cyber threat intelligence (CTI) sharing 
but we are still in the early days of demonstrating its value. It is 
understandable that if one organization sees something on their network 
and they share that information with a sharing partner, the partner 
could use that information to better protect themselves. One's 
detection is another's prevention. In the Cybersecurity Information 
Sharing Act of 2015, DHS was directed to stand up the Automated 
Information Sharing (AIS) program, providing the ability to share cyber 
threat indicators between the Federal Government and private sector at 
machine speed. Threat indicators are pieces of information like 
malicious IP addresses or the sender address of a phishing e-mail. 
While indicators can be useful, AIS has no capability to share enriched 
cyber threat intelligence. Threat intelligence is much more than a 
single piece of information contained in an indicator and can contain 
threat information such as exploit targets, adversarial tactics, 
techniques and procedures, incidents, courses of action, identified 
threat actors, and additional valuable context. Often in the security 
community, one organization will discover something they consider 
malicious and share it with other trusted sharing partners. A sharing 
partner may discover other characteristics of the threat and can pass 
that enriched information back to the original organization. Over time, 
the shared data can provide all participating organizations with a much 
more holistic picture of the specific threat, potentially including how 
to mitigate or defend against it. Today, the AIS program does not 
provide a means to send enriched intelligence out to their 
participating sharing community. As we move to mature cyber threat 
sharing capabilities, it is critical we figure out how to share real 
cyber intelligence instead of simple indicators.

    Question 3. As this committee moves forward in the 115th Congress, 
we are considering oversight and legislation within the committee's 
jurisdiction of science, technology, transportation and the critical 
infrastructure that supports them. For all the witnesses in closing, 
what should this committee keep in mind in order to help make sure 
we're developing the framework for infrastructure that is proactive, 
resilient and lasting as cyber threats continue to evolve?
    Answer. It is important to think about the objective to minimize 
risk and reduce the damaging impact of cyber threats versus attempting 
to create a legislative process to remove or eliminate them. An example 
of this is NOAA and FEMA reducing the impact of natural disasters such 
as hurricanes. By improving our ability to track hurricanes, and 
improving our response capabilities, we have been able to drastically 
reduce the number of deaths caused by hurricanes over the last few 
decades. But we all recognize they will occur; there will be damage to 
property and occasional unavoidable loss of life. Our goal is to 
minimize that damage and loss instead of having the unrealistic 
expectation of eliminating hurricanes completely. The point here is for 
policymakers to focus on minimizing risk and reducing impacts as 
opposed to attempting to have an expectation that anyone will be able 
to remove cybersecurity threats from the world we live in today on a 
permanent basis.
    It is also critical to keep in mind that this is a shared problem. 
No one organization, regardless of size, can solve this problem, either 
in the private or the public sectors. It will take all of us working 
together with open lines of communication and shared goals to be able 
to get to the point where adversarial evolution in tactics and tools 
has negligible effect on our daily lives. Flexibility is critical. We 
need to ensure that any legislation passed is enabling in nature and 
not restrictive in our abilities and actions. When all the stakeholders 
buy-in to a shared set of goals and outcomes, the prospects of long 
term success greatly increase.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Malcolm Harkins
    Question 1. I was pleased to hear that the emerging technologies 
discussed at the hearing have the potential to create new jobs and 
build a well-trained cybersecurity workforce. In my home state of South 
Dakota, Dakota State University is helping to meet this demand by 
doubling enrollment in its cybersecurity program in the last five 
years, serving as a major participant in the National Science 
Foundation's CyberCorps program, and hosting GenCyber camps for high 
school girls.

    a. What steps should American educational institutions take to 
encourage more students to choose cyber careers?
    Answer. Our educational institutions need to provide students in 
schools across the Nation with the opportunity to learn about cyber 
careers. We need to have programs that will develop new skills as well 
as help students understand our industry challenges with the goal of 
helping them find their own purpose and passion. These programs need to 
span science, technology, engineering, math as well as humanities, 
sociology, and psychology. Our educational institutions need to reach 
across every degree program and understand the current as well as 
future digital dependencies for those fields. Each area of study should 
embrace its specific cyber learning needs, not only for security but 
also for data privacy. These educational programs not only need to 
develop our skills to deal with the risk concerns after technology is 
deployed, but we need to build a much stronger focus on improving the 
development of technology with fewer vulnerabilities through teaching 
security development lifecycle and privacy-by-design skills. If we take 
this sort of broad approach, everyone will gain the needed cyber skills 
for their chosen career in addition to the specific cyber careers we 
have a current critical need to foster.

    b. How can we promote the development of entry-level cybersecurity 
education using emerging technology tools? How can we also promote 
education in higher skill levels in this field?
    Answer. One way we can promote the development of entry-level 
cybersecurity education using emerging technology is through setting up 
cyber ranges at schools so that students can learn about the 
technology, have simulated experiences using these tools, and practice 
the processes they would use in a real cyber career. Additional entry 
level education could be done through internships as well as mentoring 
programs within the industry. We can promote higher education in this 
field by offering research grants, scholarships, as well as by 
encouraging industry to create endowments for educational institutions 
to perform research and support advanced educational efforts.

    Question 2. Both technologies and threats are continually evolving. 
This Committee has passed significant, bipartisan legislation to 
advance voluntary, public-private collaboration on cybersecurity, as 
well as research and workforce development. For example, the 
Cybersecurity Enhancement Act of 2014 authorized the process for the 
NIST Framework for Improving Critical Infrastructure Cybersecurity. The 
NIST framework employs a flexible, risk-management approach that the 
private sector and security experts have praised. Do you believe that 
cybersecurity policy, especially in the context of the emerging fields 
we discussed at the hearing, should maintain a flexible, voluntary 
approach, and avoid mandatory compliance measures?
    Answer. Flexibility is key. Risk is temporal. Technology and its 
attendant workflows are evolving rapidly. Any measure that would reduce 
flexibility or slow down the ability to learn and innovate on how to 
best prevent cyber vulnerabilities would generate increased risk. 
Compliance measures exist today across all industries including the 
public sector and we are still vulnerable as a nation. So before we 
look at adding additional compliance measures, we need to determine why 
existing ones are not working.
    In some cases this is because existing compliance measures are 
written in a way that requires the use of 20-year-old technology that 
doesn't work to prevent the issues. A great example of this is the 
variety of compliance requirements that evaluate security controls 
based on updates for signatures or the deployment of intrusion 
detection and response mechanisms. We need to remember that compliance 
does not equal commitment. Whatever approach is used (mandatory or 
voluntary), it needs to foster commitment to improving cyber risks 
through better prevention vs. the current approach of reaction and 
response. We witness every day proof that the current approach is not 
working to prevent these risks. More alarming, though, is the continued 
promotion of the current approach by many in the security industry that 
profit from the growing manifestation of cyber risks and the continued 
maintenance of this cycle of reaction and response through to currently 
outlined compliance measures. These measures must be updated to include 
newer technologies that are better suited to reduce cyber risk.

    Question 3. The cybersecurity of the Internet of Things must be a 
top priority. Many of the devices in the Dyn attack last year were 
manufactured and located outside the U.S. How can we address 
cybersecurity risks from an international perspective? Given these 
devices provide a significant benefit to our economy, how do we also 
ensure American innovators are not at a competitive disadvantage in the 
global marketplace?
    Answer. While location creates some potential level of risk, that 
is not the core contributor to our risk issue. The risk we are faced 
with today and in the future is caused by the way that these devices 
and applications are designed, developed, implemented, and maintained. 
Any device that executes code has the potential to execute malicious 
code. So, as a nation we must do a better job of advancing our efforts 
around having stronger security development life-cycle and privacy-by-
design to prevent vulnerabilities in the creation of technology. This 
needs to be done nationally as well as internationally. We also need to 
encourage organizations as well as consumers to use security 
technologies that can prevent these risks with a high degree of 
efficacy and with a level of efficiency that does not degrade the 
computing experience. We need to attack the primary driver of our 
current and future cyber risks--the execution of malicious code on 
these devices. If we do these things our risks will be dramatically 
lower and we will unleash innovators to use computing to generate new 
opportunities for the Nation. The current reactive approach carries 
with it a growing risk penalty that makes us so vulnerable that it puts 
us at a global disadvantage. If we approach this correctly with a 
continuous focus on proactive prevention as much as possible, we will 
have the competitive advantage in the global marketplace because we 
will get a risk reduction dividend that will pay us back generously.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                            Malcolm Harkins
    Question. The Federal Government relies on Internet of Things 
devices and could bear a heavy burden if these devices are breached by 
a cyberattack. To align security incentives and promote cybersecurity, 
should contractors and vendors selling Internet of Things devices to 
the Government be required to bear their financial responsibility in 
the event of a material breach through mechanisms like cyber insurance?
    Answer. As I mentioned in my testimony, any device that executes 
code has the potential to execute malicious code. Responsibility for 
breaches should be recognized as a shared responsibility that includes 
the creator of the technology, the purchaser of the technology, and the 
user of the technology. So any responsibility needs to be evaluated 
from a few perspectives to assess potential financial ``liabilities.'' 
And that assessment needs to also understand that the potential for 
risk cannot be fully eliminated. However, those risks can be 
substantially reduced through preventative controls, and damage can be 
managed with the appropriate reactionary controls of detection and 
response.
    Technology Creator Responsibilities

  (1)  The creator of the technology should have an adequate security 
        development lifecycle and privacy-by-design effort in place to 
        as best as possible prevent a vulnerability that could generate 
        a material or significant risk.

  (2)  The creator of the technology should have an adequate response 
        capability to effectively and efficiently mitigate a product 
        vulnerability if one is found.

    Purchaser/User of Technology Responsibilities

  (1)  The organization who bought and deployed the technology should 
        have an adequate set of internal controls (security technology 
        and processes) that are implemented to substantially prevent 
        the potential for a breach. This would include the evaluation 
        of potential risks with the technology prior to its purchase 
        and the evaluation and implementation of controls needed to 
        mitigate those risks.

  (2)  The organization that bought and deployed the technology should 
        also have an adequate emergency response capability should the 
        preventative controls fail to adequately manage the damage that 
        could occur.

    We are at a point in time where our lives and society have a 
growing digital dependence. Digital risk management requires a level of 
shared digital responsibility to prevent these risks to the best of our 
abilities. Some aspects of this risk can and should be handled through 
financial mechanisms like insurance. Insurance would only mitigate 
financial expenses after the fact from the resulting liability on 
either the creator or purchaser of technology. However, we need to 
realize that this would still be a reactionary approach focused on 
financial remuneration. It would also not deal with the full 
repercussions of a material breach such as those still being 
experienced following the breach at the Office of Personnel Management 
(OPM). That breach not only affected our national security and may well 
affect it for years to come, but it has a potential material impact on 
the lives of the individuals and families whose personal information 
was taken. The future Internet of things devices--if not designed, 
developed, implemented, and maintained properly--could have even more 
devastating implications that no form of financial remuneration could 
address.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                            Malcolm Harkins
    Question 1. To all of the Witnesses, beyond standards and 
frameworks, from an industry perspective, what are the top three to 
five best practices you've identified to protect critical 
infrastructure that enables companies and governments to enact 
proactive measures instead of just focusing on the response to threats 
or disasters? Specifically, I want to know how we move from reaction to 
proaction.
    Answer. Best practices to move from reaction to proaction include 
the following:

  (1)  Strong security development lifecycle and privacy-by-design in 
        the creation and implementation of technology.

  (2)  Responsible vulnerability disclosure by any organization or 
        individual who identifies a vulnerability.

  (3)  Relentless focus on the preventing the execution of malicious 
        code on all devices, because it is the primary driver of the 
        cyber risk cycle.

  (4)  Routine transparency within an organization to its executives 
        and stakeholders on the state of security for the technology 
        they use for internal operations as well as the technology they 
        create for use by customers.

  (5)  Demonstrating a culture of continuous improvement on how to 
        identify risk and proactively prevent its cause.

    Question 2. As this committee moves forward in the 115th Congress, 
we are considering oversight and legislation within the committee's 
jurisdiction of science, technology, transportation and the critical 
infrastructure that supports them. For all the witnesses in closing, 
what should this committee keep in mind in order to help make sure 
we're developing the framework for infrastructure that is proactive, 
resilient and lasting as cyber threats continue to evolve?
    Answer. Security is a journey with no finish line. It's a 
continual, relentless pursuit as technology evolves along with the 
potential risks. As a nation, we have the capability to do a better job 
than we have done to date. Leveraging cutting-edge artificial 
intelligence and machine learning, Cylance has shown we can create a 
demonstrable and sustainable bend in the curve of cyber risk. By 
applying artificial intelligence (AI) and machine learning to the 
identification of malicious code, our flagship product CylancePROTECT 
offers future-proof prediction and prevention of the most advanced 
threats in the world, including advanced persistent threats, zero-days, 
and exotic exploitation techniques never before seen.
    CylancePROTECT also guards from everyday viruses, worms, 
ransomware, spyware/adware, Trojan horse attacks and spam. The problem 
with legacy security solutions that are the common control in 
organizations today is that adversaries can continually evolve their 
techniques and tactics to bypass them, leaving enterprises exposed to 
attacks. This means that traditional solutions are reactive in nature 
and rely on a constant stream of ``signature updates'' that tell these 
solutions what type of files to look for after an attack was successful 
on some other system; these are called ``zero-day'' attacks.
    Traditional security solutions are built around a basic set of 
rules and signature files that are costly and high risk because they 
require a zero-day ``sacrificial lamb'' before they can create the 
ability to block an attack. This means it is not possible to identify a 
new threat until after the damage is done on at least one system so 
that the malicious software can be studied and ``fingerprinted.'' But 
CylancePROTECT is different--it can identify and defuse even never-
before-seen attacks prior to execution. This means that we can stop new 
variations of attacks without a zero-day sacrificial lamb. Our AI-based 
solution is flexible and can support new generations of technologies 
such as ``internet of things'' devices and many others.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Eric Rosenbach
    Question 1. In your testimony, you noted that China is facilitating 
the growth of its ``fintech'' sector through a permissive regulatory 
environment. You further observed that Congress must clarify key 
regulatory issues in the United States. What barriers inhibit American 
competitiveness and economic growth in emerging fields like AI and 
blockchain? Please provide specific examples.
    Answer. Regulatory uncertainty blocks experimentation and 
innovation by fintech firms, including in relation to digital 
currencies and blockchain technology. The UK Financial Conduct 
Authority's ``regulatory sandbox'' provides an example for how 
regulators can facilitate innovation, while maintaining consumer 
protections. The FCA grants fintech firms temporary approval to test 
their innovations, and exempts them from certain regulatory penalties, 
provided appropriate consumer safeguards are in place.
    Another barrier to fintech innovation in the U.S. is that fintech 
firms are largely regulated on a state-by-state basis (unlike the 
incumbent banking and securities firms, which are largely federally 
regulated). This increases the cost and complexity of regulatory 
compliance, and inhibits firms' ability to scale their innovations 
across the country.
    Regulatory overlap is also an impediment to the development and 
commercial adoption of AI. For example, autonomous vehicles must comply 
with different regulations in different states, which increases the 
costs of developing this technology, and raises barriers to entry for 
new firms. The commercial applications for AI cross myriad sectors--
including transport, finance, and healthcare. Multiple regulatory 
agencies will need to develop AI expertise, and collaborate on uniform 
Federal standards, if they are to prevent regulation from constricting 
innovation.

    Question 2. I was pleased to hear that the emerging technologies 
discussed at the hearing have the potential to create new jobs and 
build a well-trained cybersecurity workforce. In my home state of South 
Dakota, Dakota State University is helping to meet this demand by 
doubling enrollment in its cybersecurity program in the last five 
years, serving as a major participant in the National Science 
Foundation's CyberCorps program, and hosting GenCyber camps for high 
school girls.

    a. What steps should American educational institutions take to 
encourage more students to choose cyber careers?
    Answer. Encouraging socio-economic diversity is key to building the 
cybersecurity workforce of the future. Educational institutions should 
take steps to ensure that they are marketing cybersecurity offerings to 
a broad audience. Additionally, cybersecurity courses should not just 
be an option for new starters. Educational pathways that credit prior 
learning and professional experience will make it easier for 
professionals to change careers.

    b. How can we promote the development of entry-level cybersecurity 
education using emerging technology tools? How can we also promote 
education in higher skill levels in this field?
    Answer. The development of the cyber workforce should not be 
limited to higher education only. ``Cyber apprenticeships,'' which 
could be delivered via flexible online courses, offer an alternative 
with lower financial barriers to entry than a bachelor's degree, and 
may increase diversity in the field.
    To encourage the development of highly-skilled cyber workers, 
Federal Government employers, including the Department of Defense and 
Intelligence Community, should increase flexibility to support the 
careers of ``citizen soldiers,'' who blend careers of government 
service and private sector work. In the Department of Defense, we 
significantly expanded the role of the National Guard in the National 
Cyber Mission Force in order to improve the Department's ability to 
attract, train and retrain high-end cyber operators. Government 
training provides an important pipeline for highly skilled cyber 
workers--even those who leave government can benefit the broader U.S. 
economy.

    Question 3. Both technologies and threats are continually evolving. 
This Committee has passed significant, bipartisan legislation to 
advance voluntary, public-private collaboration on cybersecurity, as 
well as research and workforce development. For example, the 
Cybersecurity Enhancement Act of 2014 authorized the process for the 
NIST Framework for Improving Critical Infrastructure Cybersecurity. The 
NIST framework employs a flexible, risk-management approach that the 
private sector and security experts have praised. Do you believe that 
cybersecurity policy, especially in the context of the emerging fields 
we discussed at the hearing, should maintain a flexible, voluntary 
approach, and avoid mandatory compliance measures?
    Answer. The NIST Cybersecurity Framework is a valuable tool for 
identifying and managing cybersecurity risks, and is a strong example 
of the benefits of public/private collaboration. The Framework has been 
a focal point for the development of legal standards and an improved 
insurance market for cyber risk. The Framework's flexible approach 
yields two key advantages: (1) it can be adopted by organizations 
regardless of size and business sector; and (2) it can evolve with 
changes in technology and threats.
    However, a purely voluntary approach to compliance has not prompted 
the behavior changes needed to improve the Nation's cybersecurity. 
Recent high-profile hacks have demonstrated that poor cybersecurity 
will result in expensive litigation and CEOs losing their jobs. These 
trends will encourage investment in improved cybersecurity. That said, 
the strategic importance of this issue should compel congressional 
leaders to not passively wait for voluntary adoption of a private-
sector derived cybersecurity framework. We cannot sit and watch while 
Americans suffer the strategic and economic consequences. Accordingly, 
at least in some sectors, compliance should be mandatory and it should 
be a baseline standard for Federal Government contractors.

    Question 4. The cybersecurity of the Internet of things must be a 
top priority. Many of the devices in the Dyn attack last year were 
manufactured and located outside the U.S. How can we address 
cybersecurity risks from an international perspective? Given these 
devices provide a significant benefit to our economy, how do we also 
ensure American innovators are not at a competitive disadvantage in the 
global marketplace?
    Answer. The United States government must take a much more active 
role in disrupting and dismantling ``botnets''--networks of infected 
devices which are used to conduct cyberattacks such as the 2016 
distributed denial of service attack against Dyn. Key national security 
organizations, led by the FBI and Department of Justice with the 
Department of Defense in support when needed, should work very closely 
with private sector telecommunication companies and international 
partners, to neutralize botnets by blocking traffic between the 
malicious operator and infected devices and using more active defensive 
measures.
    Additionally, all international ISPs have a responsibility to 
ensure the security and integrity of their networks, including by 
acting to block malicious traffic where they become aware of an attack.
    Mandating product features or imposing product liability on the 
manufactures or distributors of Internet of things devices would be 
practically difficult from a legal perspective and also has the 
potential to handicap American cybersecurity firms. However, if 
producers of IoT devices continue to sacrifice cybersecurity--only to 
improve profit margins--the FCC should seriously consider regulation 
that ensures security is designed into IoT devices by default.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                          Hon. Eric Rosenbach
    Question. Our election system is highly decentralized, but about 
80,000 votes in three states decided the last presidential election. 
Therefore, if Russian state actors wanted to try to influence our 
elections again, they could conceivably do so by targeting a limited 
number of voting precincts.
    Mr. Rosenbach, could Russia have the capability to influence future 
elections by targeting a relatively small number of votes?
    Answer. Russia has both the capability and demonstrated intent to 
manipulate an election outcome by targeting only a relatively small 
number of votes or voting precincts. In practice, the complexity of the 
U.S. electoral system, and unpredictability of which particular votes 
will matter most to an election outcome, would make this kind of 
manipulation difficult.
    The most serious problem is Russia's demonstrated willingness to 
conduct cyberattacks, in conjunction with effective information 
operation campaigns, against civilian targets, including our democratic 
institutions. Protecting these institutions must be among the United 
States' most vital national interests. We simply cannot allow 
adversaries, including but not limited to Russia, to have the 
perception that they can conduct attacks of this nature with impunity. 
The U.S. is yet to react to any cyberattack with a response that is 
visible, serious and will deter future cyberattacks against our 
democratic institutions. We must bolster our deterrence posture to 
ensure our democratic institutions and future elections are protected.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                          Hon. Eric Rosenbach
    Question. The Federal Government relies on Internet of Things 
devices and could bear a heavy burden if these devices are breached by 
a cyberattack. To align security incentives and promote cybersecurity, 
should contractors and vendors selling Internet of Things devices to 
the Government be required to bear their financial responsibility in 
the event of a material breach through mechanisms like cyber insurance?
    Answer. The Federal Government is only a small market for Internet 
connected devices. If it sought to impose onerous contractual liability 
standards on vendors, there is a risk that vendors would not be willing 
to sell to the government, or would charge significantly higher prices.
    The government can best mitigate the cybersecurity risks posed by 
Internet of Things devices by ensuring that government networks follow 
appropriate procurement and network security processes. For example, 
the malware used in the 2016 Dyn denial of service attack accessed 
devices by using default usernames and passwords that had not been 
changed by users. This is basic cyber hygiene that all cybersecurity 
managers in the U.S. Government should address as standard practice.
    Additionally, the government has a key role to play in helping the 
private sector to respond to attacks which use Internet of Things 
devices, particularly those commissioned by state adversaries. 
Responding to these types of attacks requires significant resources and 
engagement with international partners.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                          Hon. Eric Rosenbach
    Question 1. To all of the Witnesses, beyond standards and 
frameworks, from an industry perspective, what are the top three to 
five best practices you've identified to protect critical 
infrastructure that enables companies and governments to enact 
proactive measures instead of just focusing on the response to threats 
or disasters? Specifically, I want to know how we move from reaction to 
proaction.
    Answer. First, to be proactive about the defense of critical 
infrastructure, we must bolster the US' deterrence posture regarding 
state-sponsored cyberattacks.
    Second, the Intelligence Community plays a key role in proactively 
identifying plans for attacks through the collection of intelligence 
abroad. To assist intelligence agencies to identify and prevent 
cyberattacks, we need clear channels of communication between industry 
and government, as well as liability protection for information-
sharing.
    Third, the government can assist industry by testing the security 
and resilience of critical infrastructure systems. For example, the 
Washington State National Guard conducts ``red team'' exercises to 
search for vulnerabilities in state networks, and to test cyber-
emergency responses. This practice has been adopted in a number of 
other states, and could be adopted further.
    Finally, the NIST Cybersecurity Framework sets out important best 
practices for businesses involved in critical infrastructure, but we 
need to move beyond voluntary compliance. The government can establish 
and leverage incentives to promote adoption of the NIST framework, 
which could for example include technical assistance, regulatory 
streamlining, grants or liability protection for complying businesses. 
At least for some sectors, compliance with the NIST framework should be 
mandatory.

    Question 2. As this committee moves forward in the 115th Congress, 
we are considering oversight and legislation within the committee's 
jurisdiction of science, technology, transportation and the critical 
infrastructure that supports them. For all the witnesses in closing, 
what should this committee keep in mind in order to help make sure 
we're developing the framework for infrastructure that is proactive, 
resilient and lasting as cyber threats continue to evolve?
    Answer. To meet the current and future challenges of cybersecurity, 
the U.S. must continue to be on the leading edge of technological 
development. This is not just in our economic interest; it is a 
security imperative. Technological competitiveness can be supported in 
three ways.
    First, the U.S. Government should invest in and be an early adopter 
of new technologies that will aid cyber defense.
    Second, Congress and state legislatures must ensure that existing 
regulations designed in the pre-internet age do not obstruct the 
development of new technologies.
    Third, we must ensure that new laws designed to protect our 
Nation's critical infrastructure do not inadvertently stifle 
innovation. Laws and regulations must be flexible, and designed to 
evolve in response to changing technological opportunities, 
vulnerabilities, and adversaries. They will therefore need to be 
informed by broad and ongoing consultation with industry.

                                  [all]
                                  
                                  

                  This page intentionally left blank.
</pre></body></html>
